   IG’s Message for the Secretary


                                                           UNITED STATES DEPARTMENT OF COMMERCE
                                                           The Inspector General
                                                           Washington, D.C. 20230

   April 30, 2000

   The Honorable William M. Daley
   Secretary of Commerce
   Washington, DC 20230

   Mr. Secretary:

   I am pleased to provide you with the Office of Inspector General’s semiannual report to the Congress for
   the first half of fiscal year 2000. Section 5 of the Inspector General Act requires that you transmit this
   report, with any comments you may wish to add, to the appropriate congressional committees within
   30 days of its receipt.

   During this semiannual period, we have devoted considerable effort to addressing the varied and complex
   issues facing Commerce, its programs, and its managers. Most notably, this has included reviewing and
   monitoring the Department’s efforts to address three of the most visible and immediate of its top 10
   management challenges—improving the accuracy and controlling the cost of the 2000 Decennial Census,
   achieving an unqualified opinion on its consolidated financial statements, and addressing the Y2K com-
   puter problem. I am now pleased to report that two of these challenges have been met, and we are
   removing them from our top 10 list.

   Specifically, the Department received its first ever unqualified opinion on its FY 1999 consolidated
   financial statements, and Commerce’s computer systems handled the rollover to the year 2000 without
   major problems. You should be proud of these noteworthy achievements. The Department’s success in
   meeting these challenges is directly attributable to the cooperative efforts of managers and staff from the
   Office of the Secretary, Commerce operating units, and the OIG.

   This report also describes the substantial progress made to address other major issues, most notably the
   challenges of expanding private sector participation in NOAA’s marine and aeronautical data gathering,
   implementing the Advanced Weather Interactive Processing System, and maximizing competition in the
   Department’s discretionary financial assistance programs.

                                                      Sincerely,



                                                      Johnnie E. Frazier

   Enclosure


Commerce OIG Semiannual Report
March 2000
                                                                                                                 i
                        Table of Contents

     IG’S MESSAGE FOR THE CONGRESS ................................................................... 1
          Foreword .............................................................................................................. 1
          Major Challenges for the Department ..................................................................... 2
              Obtain an unqualified opinion on all of the Department’s consolidated
                  financial statements ................................................................................... 2
              Address Commerce’s year 2000 computer problem .......................................... 3
              Increase the accuracy and control the cost of the 2000 Decennial Census......... 4
              Successfully implement NWS’s Advanced Weather Interactive Processing
                  System................................................................................................. 6
              Expand private sector participation in NOAA’s marine and aeronautical
                  data gathering ........................................................................................... 6
              Maximize competition in the Department’s financial assistance programs .......... 8
              Successfully implement a Department-wide financial management system ......... 9
              Evaluate NTIS’s mission and financial viability ............................................... 11
              Continue to improve the Department’s strategic planning and performance
                  measurement in accordance with GPRA .................................................. 11
              Manage PTO’s space requirements and lease costs ........................................ 12
          Other Issues of Concern ...................................................................................... 14
          Resolution and Follow-Up ................................................................................... 19

     DEPARTMENT OF COMMERCE ORGANIZATION CHART ................................. 20

     AGENCY OVERVIEWS ............................................................................................ 21
        Bureau of Export Administration .......................................................................... 21
        Economic Development Administration ................................................................ 27
        Economics and Statistics Administration ............................................................... 30
        International Trade Administration ....................................................................... 38
        Minority Business Development Agency .............................................................. 50
        National Oceanic and Atmospheric Administration ................................................ 51
        National Telecommunications and Information Administration .............................. 65
        Patent and Trademark Office ............................................................................... 67
        Technology Administration .................................................................................. 71
        Departmental Management .................................................................................. 80

     REPORTING REQUIREMENTS............................................................................... 94

     STATISTICAL HIGHLIGHTS .................................................................................... 98

     TABLES AND APPENDIXES ................................................................................... 99

     DEFINITIONS OF TYPES OF OIG REVIEWS AND
     FINANCIAL STATEMENTS AUDIT TERMS ......................................................... 109

     GLOSSARY OF ABBREVIATIONS ....................................................................... 110

     OIG ORGANIZATION CHART AND POINTS OF CONTACT ..... (Inside Back Cover)
                                                                                     Commerce OIG Semiannual Report
ii                                                                                                      March 2000
IG’s Message for the Congress

                                          FOREWORD
      Notwithstanding our serious budgetary constraints at a time of increasing demands and expanding
 requirements, we have worked judiciously to achieve the maximum impact from our limited resources and
 respond appropriately to the wide range of issues affecting Department of Commerce operations. In the
 pages immediately following this foreword, we describe the Department’s success in addressing several of
 what we view as its top 10 challenges, provide updates on the status of the remaining challenges, and
 highlight other issues of concern. In the sections organized by Commerce operating unit, we discuss a broad
 spectrum of reviews completed by our office during this semiannual period. For example:

 l       In the first of a series of annual reviews required by the National Defense Authorization Act for
         FY 2000, we assessed the adequacy of BXA’s efforts to help prevent the illicit transfer of sensitive
         U.S. technology to countries of concern.

 l       As the Census Bureau was making final preparations for the 2000 Decennial Census, we completed
         reviews of selected aspects of the bureau’s personnel and payroll system, its controls over account-
         able property at regional centers, and pay problems experienced by temporary employees in the
         Atlanta region.

 l       We continued our comprehensive inspections of Commerce’s overseas operations, reporting on our
         work at U.S. and Foreign Commercial Service posts in France, Hong Kong, and Vietnam.

 l       As part of our congressionally requested examination of Commerce discretionary financial assist-
         ance programs, we completed reviews of 1 ITA and 3 NOAA programs, bringing the total number
         of programs reviewed to 26.

 l       We reported on two aspects of the National Institute of Standards and Technology’s Advanced
         Technology Program—its intramural and focused research efforts—and evaluated its proposal for a
         ballistics testing facility.

 l       In the financial management area, we expanded the work of the independent public accounting
         firms that conduct the audits of the Department’s and its reporting entities’ financial statements to
         include security reviews of each financial management system to identify vulnerabilities that could
         hamper the production of accurate financial data.

      As always, our primary objective is to provide congressional and departmental decision-makers with
 objective analyses and recommendations aimed at ensuring that Commerce programs and activities are
 operated as efficiently and effectively as possible.




 Commerce OIG Semiannual Report
 March 2000
                                                                                                             1
                                      IG’s Message for the Congress


                                                                  MAJOR CHALLENGES
                                                                 FOR THE DEPARTMENT
Major Challenges for the Department




                                            In pursuing its programs and missions, the         hopeful that we can remove them from the list
                                      Department of Commerce is faced with a number of         during our next update at the end of the fiscal year.
                                      problems, concerns, and difficult issues, including
                                      some that we view as major management chal-                    In the following sections, we describe the
                                      lenges. This section highlights what we consider to      progress made on these major challenges, highlight
                                      be the top 10 management challenges facing the           issues that are likely to move into the top 10 list in
                                      Department.                                              our next semiannual report, and discuss other
                                                                                               significant issues of concern for the Department.
                                            We have identified these issues as the top 10
                                      challenges because they meet one or more of the          Obtain an Unqualified Opinion on
                                      following criteria: importance to the Department’s
                                      mission or the nation’s well-being, complexity,
                                                                                               All of the Department’s
                                      sizable expenditures, or need for significant manage-    Consolidated Financial Statements
                                      ment improvements. By addressing these challenges,
                                      the Department and the Congress can enhance                    The Chief Financial Officers Act of 1990, the
                                      program effectiveness, eliminate serious operational     Government Performance and Results Act of 1993,
                                      problems, decrease vulnerability to fraud and waste,     the Government Management Reform Act of 1994,
                                      and achieve substantial savings. Given the dynamics,     and the Federal Financial Management Improvement
                                      diversity, and complexity of Commerce programs           Act of 1996 were designed to improve the financial
                                      and activities, we maintain this top 10 list on an       management practices of federal agencies. The
                                      ongoing basis, and as challenges are met, we plan to     statutes require audited annual financial statements
                                      remove them from the list and replace them with          that present an entity’s financial position and results
                                      other challenges.                                        of operations, as well as other information needed
                                                                                               by the Congress, agency executives, and the public
                                            We are pleased to report that the Department       to assess management’s performance.
                                      generally recognizes these challenges and has made
                                      considerable progress in addressing them. In fact,             With the passage of the CFO Act, we recog-
                                      two of the Department’s challenges—obtaining a           nized that to obtain an unqualified opinion on its
                                      clean opinion on its consolidated financial statements   consolidated statements, the Department would need
                                      and addressing its Y2K problem—have been met,            to make major investments of time, effort, and
                                      and we have removed them from our top 10 list as         resources, and achieve an unprecedented level of
                                      of March 31, 2000. Substantial progress has also         leadership and cooperation from senior Commerce
                                      been made on three other challenges—namely,              officials, bureau managers, and the OIG. We were
                                      implementation of the Advanced Weather Interactive       not overly optimistic, given the Department’s track
                                      Processing System, NOAA marine and aeronautical          record on financial management, its shortage of
                                      data gathering efforts, and competition in discretion-   qualified financial managers and staff, and the
                                      ary financial assistance programs. Given the man-        absence of a single integrated financial management
                                      agement attention being paid to these issues, we are     system.




                                                                                                                    Commerce OIG Semiannual Report
                                       2                                                                                               March 2000
                                                       IG’s Message for the Congress


       Despite these obstacles, we are pleased to      tems, the improvement of financial management,
report that the Department received an unqualified     and the receipt of unqualified opinions on all of its
opinion on its FY 1999                                                             financial statements. As a




                                                                                                                Major Challenges for the Department
consolidated financial                                                             result, obtaining an
statements. This is the                                                            unqualified opinion on its
first year that the Depart-                                                        financial statements is no
ment has received a                                                                longer considered a major
“clean” opinion on all of                                                          challenge for the Depart-
its financial statements—                                                          ment. However, the
an achievement largely                                                             Department and its
attributable to the leader-                                                        reporting entities must
ship and commitment that                                                           continue to emphasize
the Secretary has demon-                                                           financial management
strated in working with                                                            improvements—including
our office to address this                                                         the necessary resources
major challenge. The                                                               and management commit-
Department’s Chief                                                                 ment—to correct the
Financial Officer and                                                              material weaknesses and
other senior management                                                            other deficiencies identi-
officials also deserve to                                                          fied in the FY 1999 audits
be commended on the                                                                and to maintain clean
significant improvements                                                           opinions in future years.
made in financial manage-
ment during FY 1999.                                   Address Commerce’s Year 2000
                                                       Computer Problem
       To receive unqualified opinions on their
FY 1999 financial statements, the Department and
all of its reporting entities overcame significant           In our September 1998 issue, we identified the
obstacles, including the correction of many of the     year 2000 (Y2K) computer problem as a major
material weaknesses that in the past have under-       challenge for the Department. While 76 percent of
mined the reliability of some financial management     the Department’s mission-critical systems were
information and precluded unqualified opinions.        reported as being Y2K compliant at that time, our
(Material weaknesses are serious flaws in the design   analysis suggested that the statistic was neither
or operation of an internal control component that     reliable nor a good indicator of the amount of work
increase the risks that errors, fraud, or noncompli-   remaining. Given the importance of these diverse
ance in material amounts may occur and not be          systems to the Department’s operations and their
readily detected.) This is evidenced by the substan-   major contributions to the nation’s well-being, we
tial decrease in the number of material weaknesses     were concerned that this matter receive prompt,
between 1998 and 1999 at both the departmental         thorough attention. The Department had recently
and reporting entity levels—from 6 to 1 for the        hired a new Chief Information Officer, who along
Department and from 12 to 7 for its reporting          with the Secretary, Deputy Secretary, and Chief
entities.                                              Financial Officer, expressed his commitment to
                                                       ensuring that Y2K preparation efforts received high-
     The Department has demonstrated its commit-       level attention.
ment to the establishment of sound financial sys-


Commerce OIG Semiannual Report
March 2000
                                                                                                          3
                                      IG’s Message for the Congress


                                            Working closely with the Chief Information          funds to state and local governments. The Depart-
                                      Officer and the bureaus, we reviewed conversion,          ment recognizes the challenges presented by the
Major Challenges for the Department




                                      testing, and business continuity planning activities,     2000 Decennial Census and is clearly providing
                                      identified key issues that warranted management’s         increased oversight of and management support to
                                      attention, and recommended actions to mitigate the        the Census Bureau for this important mission.
                                      risk of Y2K failures. We are pleased to report that
                                      Commerce’s com-                                                                                 Given the
                                      puter systems                                                                             complexity and impor-
                                      handled the rollover                                                                      tance of the 2000
                                      to the year 2000, as                                                                      decennial, we continue
                                      well as the leap year                                                                     to make oversight of
                                      rollover, without                                                                         decennial planning and
                                      major problems.                                                                           execution one of our
                                      Departmental and                                                                          top priorities. We have
                                      bureau officials and                                                                      issued more than 20
                                      their staffs are to be                                                                    audit and inspection
                                      commended for the                                                                         reports on various
                                      cooperation and                                                                           aspects of the Census
                                      assistance they                                                                           Bureau’s decennial
                                      provided us during                                                                        preparation efforts and
                                      our reviews and,                                                                          have made numerous
                                      more importantly, for                                                                     recommendations
                                      accomplishing a                                                                           aimed at helping to
                                      smooth transition to                                                                      improve the accuracy
                                      the new century by                                                                        of the decennial and
                                      successfully address-                                                                     control its cost. We
                                      ing the Y2K com-                                                                          have also conducted
                                      puter problem.                                                                            audits and inspections
                                                                                                of bureau activities and operations that may indi-
                                      Increase the Accuracy and                                 rectly affect the bureau’s ability to conduct the
                                                                                                decennial efficiently, effectively, and economically.
                                      Control the Cost of the
                                                                                                And, finally, we are actively monitoring the bureau’s
                                      2000 Decennial Census                                     actions to address our recommendations for correct-
                                                                                                ing identified weaknesses and are continuing to
                                            The decennial census is an enormous and             mount an aggressive effort to audit, inspect, and
                                      complex task—certainly one of the most difficult          investigate issues relevant to the accuracy and cost
                                      that the federal government has to undertake. The         of the decennial census.
                                      accuracy of the data produced by the decennial is
                                      critical because it is the basis for apportioning seats        In reviews completed during this semiannual
                                      in the House of Representatives and is used by state      period, we identified and reported on a number of
                                      legislatures for redistricting purposes. The data is      concerns that need to be addressed in preparing for
                                      also used to distribute billions of dollars of federal    and conducting the 2000 decennial. Specifically:




                                                                                                                         Commerce OIG Semiannual Report
                                       4                                                                                                    March 2000
                                                       IG’s Message for the Congress


l      Our review of the Pre-Appointment                       regions. For example, our review of PAMS/
       Management System/Automated Decennial                   ADAMS found that the way in which daily
       Administrative Management System                        payroll forms were being processed during




                                                                                                                 Major Challenges for the Department
       (PAMS/ADAMS), the personnel and payroll                 the 1998 Dress Rehearsal allowed
       system for the decennial, disclosed that the            employees to be paid multiple times for the
       bureau did not use a well-managed software              same hours worked. The bureau took
       development process. Therefore, the                     appropriate actions to correct the problems
       accuracy, completeness, and performance                 with the Atlanta regional center employees’
       of the system could not be assessed through             payroll (see page 33).
       a review of test results or other independent
       testing—activities usually associated with a          The Department continues to face challenges
       systematic software development effort.         related to logistical, technical, and other issues
       However, because of extensive operational       involved in conducting the 2000 decennial. As of
       use of the system since the dress rehearsal,    March 31, 2000, the bureau had completed the
       the bureau has been able to correct             delivery of census questionnaires to 120 million
       problems and achieve reasonable assurance       households and was processing millions of com-
       that the system can support the decennial.      pleted questionnaires at its four data capture centers
       We urged the bureau to make a concerted         located across the country. In addition, outreach and
       effort after the decennial to improve           promotion efforts had peaked, the bureau’s tempo-
       software development for all future             rary workforce was approaching maximum levels,
       programs, decennial and non-decennial alike     and certain coverage improvement programs, such
       (see page 30).                                  as those aimed at hard-to-count populations, were
                                                       nearing completion.
l      Our review of accountable property in three
       regional centers disclosed weaknesses in              As might be expected with any undertaking of
       internal controls. We found that the bureau     this magnitude and complexity, our office is receiv-
       had not properly recorded hundreds of           ing a significant number of complaints relating to
       items in its property books or automated        decennial operations through the OIG Hotline and
       system, had not conducted the required          other sources. These complaints cover a wide range
       annual physical inventories of accountable      of issues, from routine payroll concerns to charges
       property, and had not always adequately         of mismanagement or discrimination at local census
       controlled transfers of such property. We       offices. We are working with the bureau, congres-
       are pleased to note that the bureau has         sional offices, and other federal oversight agencies to
       taken prompt action to address our concerns     ensure that these allegations are thoroughly reviewed
       (see page 32).                                  and appropriately addressed.

l      Our review of the Atlanta Regional Census             The success of the operations that have been
       Center’s payroll operations revealed that the   launched will have a major impact on the results of
       center had encountered a variety of prob-       the decennial. In addition to evaluating these ongoing
       lems in paying its temporary employees.         efforts, we will continue our reviews of various
       Although the problems pertained directly to     other aspects of the bureau’s efforts to address the
       payroll problems experienced by that region,    challenge of increasing the accuracy and controlling
       we concluded that many of the same              the cost of the 2000 decennial. For example, our
       circumstances could also exist in the other


Commerce OIG Semiannual Report
March 2000
                                                                                                           5
                                      IG’s Message for the Congress


                                      ongoing and planned work includes reviews of the                  In monitoring NWS’s progress in meeting this
                                      bureau’s efforts to process completed questionnaires        important challenge, we have been tracking AWIPS
Major Challenges for the Department




                                      and follow up on nonresponding households, and to           commissioning progress. Commissioning began this
                                      use sampling methods to measure and adjust for the          January, and as of April 25, 73 systems had been
                                      expected undercount. We will also assess recurring          commissioned. NWS had planned to commission 86
                                      complaints, monitor critical logistical operations, and     systems by the end of April, but is now projecting
                                      examine selected decennial contracts.                       that only 77 will be completed by that time because
                                                                                                  additional time was needed to perform certain
                                      Successfully Implement NWS’s                                commissioning activities at several sites. According
                                                                                                  to NWS, there are no outstanding obstacles or
                                      Advanced Weather Interactive                                issues related to commissioning, and it expects to
                                      Processing System                                           complete commissioning of all 139 systems (121
                                                                                                  weather forecast offices, 13 river forecast centers,
                                            The Advanced Weather Interactive Processing           and 5 national centers) by the end of August.
                                      System (AWIPS) is the key integrating element of
                                      the National Weather Service’s modernization                       The commissioning of AWIPS at 73 sites and
                                      program and the last major system of the modern-            aggressive efforts to implement it at the remaining
                                      ization to be implemented. AWIPS provides the               sites represent significant progress in completing the
                                      capability to acquire data from advanced observing          NWS modernization. We will continue our monitor-
                                      systems and to give forecasters tools to rapidly            ing and assess any issues that arise during commis-
                                      analyze the data, integrate it with the information         sioning and operational use. If commissioning
                                      provided by weather service guidance centers, and           progresses as planned and no major issues arise, we
                                      prepare timely and accurate warnings and forecasts          expect that NOAA and the Department will have
                                      for dissemination to the public.                            met the AWIPS implementation challenge by the
                                                                                                  end of the next semiannual reporting period in
                                             As a result of its history of escalating costs and   September.
                                      schedule delays, the AWIPS program has been
                                      subject to a legislatively mandated cost cap of             Expand Private Sector
                                      $550 million. The legislation required that AWIPS
                                      be developed within the cost cap with sufficient
                                                                                                  Participation in NOAA’s Marine
                                      capabilities to replace NWS’s aging field office            and Aeronautical Data Gathering
                                      systems, most importantly the Automation of Field
                                      Operations and Services (AFOS). At the time of our                The Congress, the OIG, the General Account-
                                      last semiannual report, deployment to all NWS sites         ing Office, and others have long been concerned
                                      had been completed, but NOAA was continuing to              about how NOAA can most efficiently and effec-
                                      correct deficiencies that would have prevented              tively obtain its marine and aeronautical data. While
                                      AWIPS from replacing AFOS and from being                    the debate continues, there is a general recognition
                                      commissioned (that is, being used officially as the         that NOAA should expand the private sector’s
                                      primary system for preparing and distributing NWS           participation in this effort.
                                      data products). Since then, NOAA has corrected the
                                      deficiencies and reports that it has completed
                                      AWIPS within the cap.




                                                                                                                      Commerce OIG Semiannual Report
                                       6                                                                                                 March 2000
                                                         IG’s Message for the Congress


Marine Data                                              composed of 2 heavy craft, 1 mid-size jet, 8 light
                                                         fixed-wing aircraft, and 3 helicopters.




                                                                                                                    Major Challenges for the Department
       While NOAA has made progress in expanding
private sector participation in acquiring hydrographic         In December 1996, the President’s Council on
data, we remain concerned that it has focused its        Integrity and Efficiency reviewed the management
efforts on designing, owning, and operating four new     of the federal civilian aircraft fleet, including
fishery research vessels without thoroughly assessing    NOAA’s, and found that it costs the government in
and aggressively pursuing other alternatives for         excess of $1 billion annually to operate its aircraft
meeting its fisheries data collection needs. NOAA        programs. Additional studies commissioned by the
plans to acquire these new vessels in FYs 2000-03.       General Services Administration reported that costs
As we have said many times before, we believe that       could be reduced by up to $92 million annually if
NOAA should clearly articulate its program needs         agencies consolidated their aircraft operations and
for ship services to the private sector, academia, and   entered into sharing arrangements.
other government ship operators, with the goal of
identifying modern, more cost-effective platforms              We conducted an audit of NOAA’s light
for its data collection needs.                           aircraft fleet to determine whether outsourcing is
                                                         more cost-effective than in-house operation in
      NOAA has prepared a detailed data acquisition      meeting the bureau’s aircraft requirements (see
plan for its fisheries mission, which outlines its       September 1998 issue, page 44). Our audit con-
approach for acquiring the four fishery research         cluded that the full in-house cost of operating
vessels. Funding for one vessel has been approved        NOAA’s light fixed-wing aircraft and helicopters
by the Congress; however, NOAA’s plan does not           averaged 42 percent more than the cost of operating
address the possibility that the bureau will not         similar aircraft in the private sector. We recom-
receive follow-on funding for the remaining vessels      mended that NOAA privatize its light aircraft
in FYs 2001-03. Nor does it indicate how the data        operations.
needed by the various fisheries programs would be
collected if the additional vessels are not acquired.           NOAA did not agree with our position and
The absence of such a contingency plan may put           believes that the cost data it has collected indicates
NOAA’s fisheries programs at risk. NOAA’s chal-          that its light aircraft are cost competitive and that no
lenge is to thoroughly assess viable alternative         savings would be achieved by using other sources to
approaches to acquiring marine data instead of           meet its data collection needs. NOAA recently hired
relying so heavily on its in-house fleet.                a consultant to review its light aircraft costs and the
                                                         cost of contracting with the private sector for aircraft
Aeronautical Data                                        services. The consultant’s analysis supports many of
                                                         our conclusions and recommendations, such as our
      Since its establishment in 1983, NOAA’s            recommendation that NOAA seek alternatives to
Aircraft Operations Center, now located at MacDill       some of its current operating practices. These
Air Force Base near Tampa, has been responsible          alternatives include greater use of private-sector
for gathering atmospheric, oceanographic, and other      contractors to provide light aircraft services and the
data for such programs as hurricane and major            potential disposal of its costly and underutilized
storm research, nautical and aeronautical charting,      aircraft. We believe that the results of the study will
climate and global change, and snow and aerial           assist NOAA and the OIG in resolving the outstand-
surveys. The center operates a fleet of 14 aircraft,     ing recommendations and meeting this challenge.



Commerce OIG Semiannual Report
March 2000
                                                                                                              7
                                      IG’s Message for the Congress


                                      Maximize Competition in the                               policies, procedures, and practices; and offer
                                                                                                recommendations for improvement.
                                      Department’s Financial
Major Challenges for the Department




                                      Assistance Programs                                              Our Department-wide review found that most
                                                                                                Commerce discretionary financial assistance pro-
                                            In previous issues, we have reported on the         grams are competitively administered and employ
                                      progress of our comprehensive review of the               decision processes that are designed to result in
                                      criteria, procedures, and practices used to make          merit-based awards. Competition is generally
                                      funding decisions under the Department’s discretion-      recognized as the most effective method of ensuring
                                      ary financial assistance programs. Discretionary          that financial assistance awards are made on the
                                      programs involve a significant portion of the             basis of merit. The Federal Grant and Cooperative
                                      Department’s budget and operations. Seven Com-            Agreement Act encourages the use of competition to
                                      merce operating units administer 72 financial             the maximum extent practicable in order to fairly
                                      assistance programs that provide a total of about         and objectively identify and fund the best possible
                                      $1 billion a year to state and local governments,         projects proposed by applicants, and thereby more
                                      educational institutions, other organizations, and        effectively achieve program objectives.
                                      individuals.
                                                                                                      As shown in the following table, among the
                                             Our review focused on the FY 1997 awards           33 full discretion programs we examined, 21—or
                                      processes of 33 programs we classified as “full           nearly two-thirds—were administered competitively
                                      discretion” programs. For the purpose of our review,      using appropriate merit-based evaluation criteria and
                                      we defined full discretion programs as those whose        award procedures. The nearly 1,500 awards made
                                      authorizing legislation places no significant limita-     by those 21 programs accounted for about 86 per-
                                      tions on the Department’s ability to independently        cent of the total discretionary awards made by the
                                      determine the recipients or funding levels of the         Department in FY 1997, and about 92 percent of
                                      awards made under the programs. These programs            the total funds obligated. The other 12 programs,
                                      accounted for more than 1,700 awards and                  representing only 236 awards and $63 million in
                                      $801 million in FY 1997 funding. We have com-             obligations, did not use competitive procedures.
                                      pleted audits of all 33 programs, issued final reports    Instead, they disbursed program funds through one
                                      on 26, and are in the process of preparing a report       or more noncompetitive awards, which were often
                                      that will summarize the results of the individual         inappropriately or inadequately justified as “sole
                                      audits; identify crosscutting issues; highlight “best     source awards.”
                                      practices”; identify weaknesses in departmental


                                                        Commerce Discretionary Financial Assistance Programs Reviewed

                                                                                      Number of         Number of
                                                       OIG Assessment                 Programs           Awards   Obligations

                                                       Competitive                         21              1,477      $738 million

                                                       Not competitive                     12               236         63 million

                                                       Total                               33              1,713      $801 million


                                                                                                                    Commerce OIG Semiannual Report
                                       8                                                                                               March 2000
                                                        IG’s Message for the Congress


      Although our findings were generally positive,            information; they are inadequately con-
we did identify opportunities for improvement in                trolled; and they are costly and difficult to
specific aspects of the various awards processes. For           maintain. The financial systems, taken as a




                                                                                                                 Major Challenges for the Department
example, we determined that several of the pro-                 whole, are not compliant with GAO princi-
grams could enhance the integrity of or bring more              ples and standards, nor with requirements of
discipline to their award processes by:                         the CFO Act, the Joint Financial Manage-
                                                                ment Improvement Program (JFMIP), or
l       Expanding proposal solicitation efforts to              OMB.”
        provide greater awareness of available
        financial assistance.                                 To correct this weakness, Commerce began
                                                        planning for the acquisition and development of a
l       Including outside participants on proposal      Department-wide financial system in 1992 and
        review panels to ensure greater objectivity     awarded a contract for system development in 1994.
        in the process.                                 However, notwithstanding large investments of time,
                                                        money, and effort, implementation of the system,
l       Adequately documenting justifications for       known as the Commerce Administrative Manage-
        deviations from review panel recommenda-        ment System (CAMS), proved more difficult than
        tions.                                          anticipated. The difficulties occurred, in part,
                                                        because established milestones were not met and
      We are encouraged by the Department’s and         departmental requirements were not satisfied. These
bureaus’ constructive responses to our findings and     factors caused the Department to delay and revise
recommendations, as well as their immediate efforts     its implementation strategy several times.
to make improvements. The Department is well on
its way to maximizing competition in its financial            In FY 1997, to improve the reliability of the
programs, and we expect that this major challenge       system development effort, the Department added
will soon be met.                                       contractor support outside of the original prime
                                                        contractor. Assisted by a private consulting firm, the
                                                        Department also conducted a review of CAMS to
Successfully Implement a
                                                        address concerns about costs incurred and schedule
Department-Wide Financial                               delays. In FY 1998, based on the results of the
Management System                                       review, the Department redefined the composition
                                                        and functionality of CAMS and drastically revised
      Since FY 1989, the Department’s lack of a         the CAMS implementation strategy. The Depart-
single, integrated financial system has been reported   ment also reorganized its systems development
as a material internal control weakness in the          project management structure.
Secretary’s annual reports to the President under the
Federal Managers’ Financial Integrity Act. The                The revised strategy called for pilot implemen-
weakness is stated in the reports as follows:           tation and testing of the redefined CAMS (core
                                                        CAMS) at the Census Bureau before implementing
        “Many of the Department’s financial             the system at other bureaus. The pilot implementa-
        systems are seriously outdated and              tion of core CAMS at Census was completed in
        fragmented; they are unable to provide          June 1998. An independent verification and valida-
        timely, complete and reliable financial         tion of the system, as implemented at Census,
                                                        concluded that it met departmental requirements and


Commerce OIG Semiannual Report
March 2000
                                                                                                           9
                                      IG’s Message for the Congress


                                      was as good as or better than other core financial              NOAA did not receive all of the funding it
                                      management systems that have been implemented at                requested for CAMS implementation for
Major Challenges for the Department




                                      other large federal agencies.                                   FY 2000, it has revised its target date for
                                                                                                      full implementation until FY 2003.
                                            The Department’s current strategy is to replace
                                      non-compliant systems with ones that are compliant,      l      ITA entered into a cross-servicing
                                      and develop a Department-wide financial database                agreement with Interior’s National Business
                                      that will integrate financial data from all reporting           Center for full-scope accounting services.
                                      entities and produce the consolidated financial                 This changeover started in July 1999 and
                                      statements, as required by OMB. During FY 1999,                 was completed in August. The center’s
                                      the Department began developing the database,                   accounting system is compliant with OMB
                                      commonly referred to as the Corporate Database.                 and JFMIP requirements. ITA’s prior
                                      The Department’s Office of Financial Management                 accounting system was not compliant with
                                      has completed the development of functional                     these requirements and contributed to the
                                      requirements, basic programming, and draft user                 bureau’s inability to produce auditable
                                      instructions for the Corporate Database, and expects            financial statements in 1998.
                                      to begin pilot testing during FY 2000. The database,
                                      when successfully implemented by the Department,         l      EDA began using CAMS as the official
                                      will comply with OMB’s requirements.                            accounting system for its financial assistance
                                                                                                      programs on October 1, 1999.
                                            As we have frequently pointed out, serious
                                      difficulties were encountered with the implementa-       l      NIST intends to determine its requirements
                                      tion of CAMS. However, for a variety of reasons,                and finalize a plan for implementing CAMS
                                      we believe that FY 1999 marked a turning point for              at one of its current Financial Accounting
                                      the Department in its efforts to improve its financial          and Reporting System clients, the Office of
                                      management systems and resolve this major man-                  the Secretary. An accelerated schedule is
                                      agement challenge. Most notably:                                planned under which that office would be
                                                                                                      operational on CAMS starting on October 1,
                                      l       The Bureau of the Census continued full                 2000. After successful operation of CAMS
                                              production of core CAMS; deployed access                there during the first half of FY 2001, NIST
                                              to regional and decennial census sites;                 plans to implement CAMS at its remaining
                                              implemented additional modules for travel,              client sites during the remainder of the fiscal
                                              budget, and inventory functions; and                    year, so that all clients would be operational
                                              deployed a data warehouse, making access                on CAMS by October 1, 2001. NIST will
                                              to financial information easier and more                defer completion of its detailed plan for
                                              timely for program managers.                            implementing CAMS at NIST until the first
                                                                                                      half of FY 2001, but still plans to complete
                                      l       After determining that the Department of                CAMS implementation by the end of
                                              the Interior’s National Business Center                 FY 2003.
                                              could not provide financial services at a
                                              lower cost and risk than could be achieved             Despite these noteworthy accomplishments,
                                              through the implementation of CAMS,              future improvements require both significant re-
                                              NOAA continued with its CAMS                     sources and the continued attention of senior
                                              implementation efforts. However, because         management. By FY 2004, the Department plans to


                                                                                                                  Commerce OIG Semiannual Report
                                      10                                                                                             March 2000
                                                          IG’s Message for the Congress


have all 14 of its reporting entities operating under     lem—a steady decline in the sales of its products
compliant financial management systems integrated         and services caused by fundamental changes in the
with the Corporate Database.                              marketplace.




                                                                                                                   Major Challenges for the Department
      Given the large amounts of time and money                 To address NTIS’s problems, the Department
that have already been invested in CAMS implemen-         formed a working group made up of senior manag-
tation, the critical need for a reliable financial        ers from the Department and the Technology
management system, and the remaining obstacles to         Administration. Based on the group’s efforts, the
be overcome in implementing the system, we are            Department developed a legislative proposal that
continuing to monitor and review selected aspects of      would provide for closing NTIS by the end of
the Department’s progress in implementing core            FY 2000 and transferring its collection of scientific,
CAMS in its reporting entities. For example, OIG          technical, business, and engineering publications to
representatives attend NOAA’s monthly status              the Library of Congress to ensure permanent public
meetings on CAMS implementation and participate           access to such documents.
in the Department’s meetings to discuss progress in
developing the Corporate Database. Later this fiscal            The U.S. National Commission on Libraries
year, we also plan to initiate a review of CAMS’s         and Information Science is also studying the issue of
software configuration management and change              NTIS’s future, and has issued a position paper and
controls at the CAMS Support Center.                      held three public hearings on the matter. The
                                                          Commission’s anticipated recommendations include
      Until the Department is in compliance with the      keeping NTIS in Commerce for another year so that
federal requirement for a single, integrated financial    the Department’s plans and other alternatives can be
system, we will view the Department’s efforts to          further studied, providing $5 million in appropria-
develop such a system as a major challenge warrant-       tions to pay for NTIS’s archiving functions, and
ing the close attention of senior officials and contin-   appropriating an additional undetermined amount so
ued oversight by our office.                              that NTIS can begin a program for supplying the
                                                          depository libraries with federal publications. The
Evaluate NTIS’s Mission                                   continuing challenge for the Department is to work
                                                          closely with the Congress and other stakeholders to
and Financial Viability                                   reach agreement on the future of NTIS.

       In recent years, questions have arisen about
NTIS’s future. In our last issue (see September
                                                          Continue to Improve the
1999 issue, page 7), we discussed our concern that        Department’s Strategic Planning
disappointing operating results continued to call into    and Performance Measurement
question NTIS’s ability to be self-sustaining. In         in Accordance with GPRA
FY 1999, total revenue dropped by $3.4 million to
$33.3 million, and only by taking aggressive cost-
                                                               Despite the inherent difficulties in determining
cutting actions, such as transferring some of its staff
                                                          how to best plan and measure its performance in
to other Commerce agencies, was NTIS able to
                                                          accordance with the Government Performance and
avert a loss and report a surplus of $652,000 at the
                                                          Results Act of 1993 (GPRA), the Department has
end of the year. While such drastic cost-cutting
                                                          continued to make progress in meeting this chal-
measures may resolve NTIS’s problems in the short-
                                                          lenge. More specifically, the Department submitted
run, they cannot help NTIS solve its major prob-
                                                          to OMB and the Congress its second Annual


Commerce OIG Semiannual Report
March 2000
                                                                                                             11
                                      IG’s Message for the Congress


                                      Performance Plan, for FY 2000, in February 1999                  Another substantial challenge for the Depart-
                                      and its third plan, for FY 2001, in February 2000.        ment will be to ensure that its second strategic plan,
Major Challenges for the Department




                                      Also, the Department submitted its initial Account-       which is due to the Congress by September 30,
                                      ability Report, which reports both financial and          2000, provides appropriate focus and direction for
                                      performance results, for FY 1999, on March 1,             its future actions. The Department’s initial strategic
                                      2000. The submission of the Department’s first            plan, covering FY 1997-2002, drew criticism from
                                      Annual Program Performance Report for FY 1999,            both the Congress and GAO.
                                      in March 2000, brought to a close the first full cycle
                                      of GPRA activity that began in 1996.                            We will continue to monitor the Department’s
                                                                                                efforts to implement GPRA, provide advisory
                                            While the Congress, GAO, and the OIG all            comments on GPRA-related documents, and, where
                                      agreed that the Department’s FY 2000 Annual               resources permit, perform targeted reviews. For
                                      Performance Plan was significantly better than its        example, we are currently performing an audit to
                                      FY 1999 plan, it was also recognized that there was       identify the best practices for verifying and validat-
                                      room for additional improvement. Of particular            ing performance measures at business centers
                                      concern is the need for the Department to ensure          operated by EDA, ITA, MBDA, and NIST. Several
                                      that the data to be used in measuring performance is      other audits, while not necessarily directed at GPRA
                                      accurate, complete, and reliable. In preparing its        implementation, have identified issues related to the
                                      FY 2001 Annual Performance Plan, the Department           identification of performance measures and the
                                      made concerted efforts to address concerns ex-            reporting of performance information.
                                      pressed about its earlier plans. Continued manage-
                                      ment attention is essential, however, not only to         Manage PTO’s Space
                                      satisfy GPRA requirements, but to measure and
                                      report on performance.
                                                                                                Requirements and Lease Costs

                                            We have regularly provided advice and                     The Patent and Trademark Office’s space
                                      assistance to the Department on the implementation        consolidation project is expected to be one of the
                                      of GPRA, as well as on the linkage between the            largest real estate ventures that the federal govern-
                                      act’s required performance reporting and the              ment will undertake in the next decade. On March
                                      financial reporting contained in the annual financial     29, 2000, PTO officially became a performance-
                                      statements. We have made presentations to the             based organization (PBO). As a PBO, PTO will
                                      Department on the importance of ensuring that the         assume almost sole responsibility for its day-to-day
                                      information related to performance results can be         management and operations. PTO’s space consoli-
                                      relied upon, and have provided informal comments          dation project will be one of many major challenges
                                      on various GPRA-related documents. We have                that the agency’s managers will have to tackle as it
                                      continued to work with the Department’s offices for       completes the transition to a PBO and revamps its
                                      strategic planning and financial reporting on financial   business processes for greater efficiency and
                                      and performance reporting issues. These efforts           effectiveness (see page 17).
                                      have yielded positive results, two of which are
                                      evident in the Department’s FY 1999 Accountability             On behalf of PTO, the General Services
                                      Report: a statement of net cost that accurately           Administration (GSA) has issued a solicitation to
                                      reflects the Department’s activities, and a manage-       award a contract to a private developer to construct
                                      ment discussion and analysis that reports its most        a new facility or renovate an existing one and lease it
                                      significant performance results.                          to PTO for at least 20 years with two 5-year options


                                                                                                                     Commerce OIG Semiannual Report
                                      12                                                                                                March 2000
                                                         IG’s Message for the Congress


and the option to buy. The solicitation calls for the         Since completion of our 1998 review, we have
construction of the building shell, to include basic    continued to monitor the status of the PTO project.
electrical and mechanical systems, with the interior    We are pleased that all of the outstanding issues




                                                                                                                  Major Challenges for the Department
to be “built out” later. The project has been delayed   related to the implementation of our report recom-
for more than a year by challenges raised in two        mendations have been successfully resolved,
separate federal court actions. GSA and PTO hope        including placement of a legislative cap on the costs
to award the contract by early June 2000, with          of the above standard build-out. PTO’s challenge is
occupancy of the computer facility to begin in 2003,    to continue to work with the numerous interested
and full occupancy of the building expected in 2004.    parties to obtain space that best meets its needs at
                                                        the best possible value. This will involve aggres-
       Given the size and importance of the planned     sively holding the line on all project costs, including
PTO consolidation project, we conducted a review        remaining within the legislatively mandated cap on
of the project in 1998 to determine whether it was      build-out costs. For our part, we will conduct
justified and whether PTO was effectively managing      follow-up reviews in order to stay abreast of the cost
its critical acquisition phase (see March 1998 issue,   control measures PTO plans to put in place for all
page 54). Our review concluded that the project was     project-related costs, including building structure,
justified and should continue. We further concluded     interior build-out, and new furniture.
that PTO was managing many aspects of the lease/
development procurement well, although we also
made a number of recommendations to improve
PTO’s management and planning for this major
procurement.




Commerce OIG Semiannual Report
March 2000
                                                                                                           13
IG’s Message for the Congress


                       OTHER ISSUES OF CONCERN
        In the following sections, we discuss other serious challenges warranting management attention and
  OIG oversight. The first three issues, related to information security, acquisition reform, and export controls,
  are leading candidates to join the top 10 list in our next semiannual report.

  Strengthen Department-wide Information Security

        Protecting the Department’s computer systems from cyber-attack is a significant challenge today and
  will continue to be so in the future. The number of cyber-attacks on our nation’s computer systems has
  grown dramatically over the last few years and is projected to grow at an even faster rate in the future. In
  addition, the sophistication of such attacks continues to increase, posing a severe threat to computer system
  security. Industry and government research has shown that cyber-attacks are carried out not just by
  hackers, but by foreign governments, and organized criminal and terrorist groups with harmful intent.

        An increasing number of interconnected, widely distributed computer systems support vital Commerce
  operations and provide essential services to the public. As the Department’s systems have become more
  widely distributed and interconnected, security vulnerabilities have also increased, creating a need to im-
  prove procedural and technical security measures. Strong computer security measures are vital to protect the
  secrecy and privacy of information, the integrity of computer systems and their networks, and the availabil-
  ity of services to users.

        We are conducting an assessment of the Department’s implementation of Presidential Decision
  Directive 63, which was created in part to address the growing cyber-threat. This directive establishes a
  national program to assure the security of cyber-based systems essential to the operations of the U.S.
  economy and government. We are in the first phase of a planned two-phase assessment in which we are
  reviewing the Department’s critical infrastructure protection plan, the prioritized list of computer systems
  identified as critical to the Department, system security plans, and system security vulnerability assessments.
  During the second phase, we will evaluate the Department’s plans and strategies for mitigating system
  security vulnerabilities, responding to a coordinated cyber-attack, obtaining additional resources if needed to
  implement vulnerability mitigation plans, and recruiting, retaining, and educating information security
  personnel. We plan to report our findings and recommendations during the next semiannual period.

        Also, as part of the Department’s FY 1999 financial statements audits, we contracted for and oversaw
  security reviews of each of Commerce’s financial management systems and their related networks, using as
  a guide GAO’s Federal Information System Controls Audit Manual. The reviews disclosed security weak-
  nesses that, if not corrected, could adversely affect the ability of the Department and its operating units to
  produce accurate data for their financial statements. For example, we discovered security plans that were
  outdated or not finalized, security risk assessments that were outdated or nonexistent; inadequate systems
  administration of user accounts; inadequate controls over the powerful system administrator account; and a
  lack of security monitoring to detect unauthorized access. Beginning with the FY 2000 financial statements
  audits, we plan to expand the security reviews to include intrusion detection analysis.



                                                                                Commerce OIG Semiannual Report
  14                                                                                               March 2000
                                                           IG’s Message for the Congress


Successfully Implement Acquisition Reform Initiatives

      Since the 1980s, various commissions and review panels have cited the need to streamline and sim-
plify the federal procurement system. In 1986 the Packard Commission concluded that procurement laws
needed to be recodified to create one simplified procurement statute. In 1993 the National Performance
Review recommended decentralizing government management and introducing competition and market
forces into the delivery of government products and services to create a government “that works better and
costs less.” To implement these improvements, major acquisition reform legislation was enacted.

      The Federal Acquisition Streamlining Act of 1994 provided for a major overhaul of the laws governing
federal acquisition. In 1996 the Federal Acquisition Reform Act and the Clinger-Cohen Act continued these
reforms by substantially altering the way the government acquires and manages information technology.
Implementation of these laws necessitated changes in the way government contracting officers did their
jobs. The following are examples of these reforms:

l       Commercial Items Acquisition. Acquisition reform regulations encourage the purchase of
        commercial items and greatly simplify their acquisition.

l       Past Performance. Under current regulations, a contractor’s performance under prior contracts is
        considered relevant information in evaluating that contractor for new contracts.

l       Performance-Based Service Contracting. This approach focuses on the intended results of a
        service contract and the manner in which the work is performed, and provides for the development
        of performance standards and the use of quality assurance and oversight plans.

l       Simplified Acquisition Tools. Acquisition reform legislation recommends the use of innovative
        approaches, such as the expanded use of the purchase card and establishment and use of
        government-wide agency contracts (GWACs), and permits agencies to make purchases from other
        agencies’ contracts, which results in time and cost savings.

      The Department of Commerce—which annually procures goods and services in excess of $1 billion—
has been an active participant in implementing federal acquisition reform initiatives. For example, Commerce
has developed and implemented a streamlined acquisition process known as CONOPS, which has reduced
procurement lead times. The Bureau of the Census has also used performance-based service contracting in
acquiring services and equipment for the 2000 Decennial Census. More recently, the Department awarded
the Commerce Information Technology Solutions contract, the only GWAC for information technology
services set aside for small, disadvantaged, and women-owned businesses.

     However, GAO recently identified some common problems in federal agencies’ implementation of
GWACs. For example, agencies have sometimes used various devices to avoid holding vendor competitions,
and have tended to make awards to large rather than small and disadvantaged businesses. The Office of
Federal Procurement Policy is also planning to evaluate the effectiveness of federal acquisition reform,
specifically agencies’ use of GWACs, because it has concerns that many agencies are not focusing on results


Commerce OIG Semiannual Report
March 2000
                                                                                                        15
IG’s Message for the Congress

  when contracting for services. In past reports, we have identified problems with the administration of the
  purchase card program, improper use of task order contracts, and inadequate documentation of market
  surveys.

         Implementing acquisition reform and its various streamlining initiatives necessitates changing old ways
  of acquiring goods and services. The emphasis on past performance and performance-based contracting
  requires a more focused way of monitoring contractor performance through the use of performance measure-
  ment tools. It also requires contracting offices to develop new skills. Given the concerns cited by other
  oversight agencies and our office, we believe that the Department’s implementation of acquisition reform
  initiatives warrants extra scrutiny. The challenge facing the Department is to achieve the benefits of the
  acquisition reform initiatives while still maintaining the necessary controls and oversight to ensure that the
  government is getting what it pays for.

  Maintain Effective Export Controls for Dual-Use Commodities

         The United States controls the export of certain goods and technologies for national security and foreign
  policy (including nonproliferation) purposes. To strengthen the U.S. government’s export licensing and
  enforcement process, new legislative authority is needed to replace the expired Export Administration Act of
  1979 and implement effective export control policies. The Export Administration Act was passed during the
  Cold War primarily to help block the export of critical goods and technologies to the Communist bloc coun-
  tries for national security reasons. In the post-Cold War era, there are new threats to U.S. national security
  and foreign policy goals posed by rogue countries and international terrorist groups who seek to acquire
  weapons of mass destruction and weapons delivery systems.

        BXA is working with the Administration and the Congress on legislation to renew the act and address
  the challenge of balancing the need to protect U.S. national security and foreign policy interests with the
  desire to not unduly hamper U.S. trade opportunities and competitiveness. Reauthorization of the act is also
  needed to strengthen BXA’s regulatory authority and penalties, which have been weakened under interim
  export control regulations, and to demonstrate that the United States is firmly committed to maintaining
  strong export controls as it encourages other countries to do the same.

        Given the importance of export licensing controls to national security, we have devoted considerable
  attention to the challenges facing BXA in issuing licenses authorizing the export of certain goods and tech-
  nologies that have both civilian and military uses. In 1993 we participated in a special interagency review of
  export licensing processes for munitions and dual-use commodities (see September 1993 issue, page 15). The
  1993 report highlighted the need for more transparency in the dual-use export licensing process. In response
  to this need, in 1995 the President issued Executive Order 12981, which expanded the authority of the
  Defense and State Departments and other involved federal agencies to review all export license applications.

        In October 1998, in response to a request from the Senate Governmental Affairs Committee, the OIGs
  of the Departments of Commerce, Defense, Energy, State, and the Treasury, and the Central Intelligence
  Agency, began a follow-up review to evaluate the status of actions taken to implement the recommendations
  from the 1993 review. We also evaluated the effectiveness of the Department’s current policies, procedures,
  and practices for licensing dual-use goods and technologies. In our report, issued in June 1999, we stated our


                                                                               Commerce OIG Semiannual Report
  16                                                                                              March 2000
                                                             IG’s Message for the Congress


conclusion that the multi-agency licensing process for U.S. dual-use exports is balanced and appropriately
considers divergent policy views and information in deciding on export license applications (see September
1999 issue, page 17).

      While our report described significant areas of improvement in export controls since our 1993 work, it
also identified some weaknesses in the licensing process that still need to be addressed. Specifically, we
found that (1) more transparency is needed in the commodity classification and license appeals processes,
(2) the intelligence community does not review all dual-use export license applications or always conduct a
comprehensive analysis of applications it does review, (3) license applications need to be screened against a
key database maintained by the U.S. Customs Service, (4) BXA needs to improve its monitoring of license
conditions with reporting requirements, and (5) BXA needs a new automated system to process export
license applications efficiently and effectively.

       In October 1999, the National Defense Authorization Act for FY 2000 directed the same six OIGs to
report to the Congress by March 30, 2000, on the adequacy of current export controls and counterintelli-
gence measures to prevent the acquisition of sensitive U.S. technology and technical information by coun-
tries and entities of concern. To meet this requirement, each OIG reviewed its agency’s export controls and
counterintelligence measures and reported on the results. Two interagency reports highlighting crosscutting
issues were also prepared. Our report focused on three activities that the Commerce Department, principally
through BXA, carries out or participates in to help prevent the illicit transfer of sensitive U.S. technology:
deemed export controls, the Visa Application Review Program, and the Committee on Foreign Investment in
the United States (see page 21).

      The challenge for BXA, as well as the Administration and the Congress, will be to pass a new Export
Administration Act and to focus the federal government’s licensing and enforcement efforts on targeting
those exports that present the greatest proliferation and national security risks and on streamlining or elimi-
nating controls that unnecessarily hamper trade. Through our various export control reports, we strive to
play a useful role in current and future congressional and public debates on the reauthorization of the Export
Administration Act and the revamping of the nation’s export controls. We will continue to monitor BXA’s
efforts to improve dual-use export controls through annual reports required until 2007 under the Defense
Authorization Act.

Successfully Implement PTO’s Transition
to a Performance-Based Organization

     The American Inventors Protection Act of 1999 (P.L. 106-113), which was signed into law on
November 29, 1999, establishes PTO as a performance-based organization with greater flexibility and
independence to be run more like a business. As a PBO, PTO has increased authority and hence the
responsibility for decisions regarding the management and administration of its operations and exercises
more independent control of its budget allocations and expenditures, personnel decisions and processes, and
procurement. PTO’s transition to a PBO officially began on March 29, 2000.




Commerce OIG Semiannual Report
March 2000
                                                                                                           17
IG’s Message for the Congress


       PTO management views the passage of the act and the transition to a PBO as critical in addressing
  two challenges, both of which have been the subject of recent OIG reviews. First, PTO has experienced a
  massive increase in patent and trademark filings and appeals, leading to the hiring of hundreds of new
  examiners and administrative judges. Second, PTO has plans to consolidate its operations in northern
  Virginia (see page 12). According to PTO management, the PBO transition will enable it to make the rapid
  decisions needed to process the increased number of patent and trademark filings and appeals in a timely
  manner, while maintaining high quality, and to more efficiently manage its resources.

        Despite the act’s potential benefits, the transition is a formidable undertaking. PTO must formulate the
  necessary personnel, procurement, and administrative policies and develop a performance-based process
  with standards for evaluating cost-effectiveness, while meeting its performance goals under GPRA.

        PTO already faces enormous challenges in trying to deliver essential information technology capabili-
  ties. With its increased focus on operational efficiency and new provisions requiring information technology
  solutions, the act will intensify the demands placed on automated systems and further strain PTO’s ability to
  deliver systems. For example, under the new law, patent applications that have been filed abroad must be
  published within 18 months of their U.S. filing date, and PTO has decided to publish the applications in
  electronic form. Yet implementation of this and other provisions of the law will require new and enhanced
  systems.

  Increase the Effectiveness of Fishery Management

        Ensuring healthy stocks of fish and other marine animals in the coastal waters beyond each state’s
  jurisdiction is a federal responsibility carried out principally by NOAA’s National Marine Fisheries Service
  (NMFS) and eight regional fishery management councils under the Magnuson-Stevens Fishery Conservation
  and Management Act of 1976, as amended. Among other things, NMFS and the councils track the condi-
  tion of these species, determine the levels of catch that will provide the greatest benefit to the nation, and
  measure the economic impacts of fishery regulations and policies. Measures to manage fish and marine
  species are usually developed by the councils, reviewed by NMFS, and approved by the Secretary of
  Commerce. These measures are controversial because they impose fish quotas that affect both the survival
  of a species and the economic health of the fishing industry and many coastal communities.

        A recent GAO report concluded that NMFS appears to be using the best available scientific informa-
  tion to determine the condition of fish and other marine species, appropriately considers the economic
  impacts of conservation and management measures on fishing communities, and has technically met the
  requirements of the Magnuson-Stevens Act by identifying essential fish habitats and developing a consulta-
  tive process for addressing potential adverse impacts to those habitats. However, GAO concluded that
  improvements were needed in all three areas and made recommendations to strengthen NMFS’s data
  collection efforts, improve communications between the government and the fishing industry, improve
  economic analysis, and identify the costs of achieving compliance with the act’s fish habitat provisions.

        We are completing a review that focuses on the regional fishery management councils and is aimed at
  identifying the management practices that have proven most effective in achieving fisheries management
  goals and determining where improvements are needed.

                                                                              Commerce OIG Semiannual Report
  18                                                                                             March 2000
                                                             IG’s Message for the Congress


                   RESOLUTION AND FOLLOW-UP
     The Inspector General Act Amendments of 1988 require this report to present those audits issued
before the beginning of the reporting period (October 1, 1999) for which no management decision had been
made by the end of the period (March 31, 2000). The following table presents the overall status.


                     Type of Audit Report                                    Unresolved

                     Performance                                                  2

                     Financial Assistance                                         2



      The two performance audits deal with the NMFS laboratory structure and NOAA’s light aircraft
operations. While both audits have been unresolved for more than a year, we have continued to explore
alternative approaches to resolution with NOAA (see page 63).

      The two unresolved financial assistance audits involve EDA grant awards. We did not agree with
EDA’s response to our final report on one of the audits and are reviewing the agency’s revised audit resolu-
tion proposal. With respect to the second audit, EDA has requested clarifying information from the grantee
(see page 29).

      Department Administrative Order 213-5, “Audit Resolution and Follow-up,” provides procedures for
management to request a modification to an approved audit action plan, or for a financial assistance recipi-
ent to appeal an audit resolution determination. The following table summarizes modification and appeal
activity during the reporting period.



                      Report Category                          Modifications       Appeals

                      Actions pending (October 1, 1999)               0               16

                     Submissions                                      1                 3

                      Decisions                                       1               12

                     Actions pending (March 31, 2000)                 0                 7


     All seven appeals pending final decision by the Department involve NIST financial assistance audits.




Commerce OIG Semiannual Report
March 2000
                                                                                                          19
                                       Department of Commerce
                                       Organization Chart

                                                Office of the
                                                 Secretary



   Bureau of                     Economic                         International                           Patent and
    Export                      Development                           Trade                               Trademark
 Administration                Administration                    Administration                             Office




                   Economics and
                                                                                        Technology
                     Statistics
                                                                                       Administration
                   Administration




                                    Bureau of                          National Institute                   National
       Bureau of                                                        of Standards                       Technical
                                    Economic
      the Census                                                       and Technology                 Information Service
                                    Analysis




                                                                                          National
               Minority Business                    National Oceanic
                                                                                    Telecommunications
                 Development                        and Atmospheric
                                                                                      and Information
                   Agency                            Administration
                                                                                       Administration



                                         National                      National
                                     Marine Fisheries                  Ocean
                                         Service                       Service




                                         National                   NOAA
                                         Weather                     Corps
                                         Service                   Operations




                                                                     Oceanic
                                         NESDIS                  and Atmospheric
                                                                    Research




                                                                                            Commerce OIG Semiannual Report
20                                                                                                             March 2000
                                Bureau of
                     Export Administration

Actions Needed to Help Prevent Transfer of                                      The Bureau of Export
Sensitive Technology to Countries of Concern                                    Administration is primarily
                                                                                responsible for the administration
      The National Defense Authorization Act for Fiscal Year 2000               and enforcement of the nation’s
directed the OIGs of the Departments of Commerce, Defense, Energy,              system for controlling exports of
                                                                                sensitive dual-use goods and
State, and the Treasury, and the Central Intelligence Agency to assess the
                                                                                technologies. Under the Export
adequacy of current export controls and counterintelligence measures to         Administration Act and regulations,
prevent the acquisition of sensitive U.S. technology and technical informa-     BXA’s major functions include
tion by countries and entities of concern. The legislation mandates that the    formulating and implementing
OIGs report to the Congress annually until 2007.                                export control policy; processing
                                                                                export license applications;
      To meet the first annual reporting requirement of the act, the Com-       conducting various policy,
merce OIG focused on three activities that the Department, principally          technical, and economic analyses;
through BXA, carries out or participates in to help prevent the illicit         promulgating regulations;
                                                                                conducting industry outreach; and
transfer of sensitive U.S. technology: deemed export control activities, the
                                                                                enforcing the act and regulations.
Visa Application Review Program, and efforts in support of the Committee        Export Administration
on Foreign Investment in the United States (CFIUS). Our specific observa-       implements U.S. export control and
tions follow:                                                                   nonproliferation laws and policies
                                                                                through export licensing,
Deemed Export Control Regulations and                                           commodity classifications, and
Compliance Need to Be Reviewed                                                  advisory opinions; technical,
                                                                                economic, foreign availability, and
                                                                                policy analyses; promulgation of
      Any release to a foreign national of technology or software subject to
                                                                                regulations; and industry outreach.
the Export Administration Regulations is deemed to be an export to the          It also conducts various defense
home country of the foreign national. Such “deemed exports” may involve         industry base activities.
the transfer of sensitive technology to foreign visitors or workers at U.S.     Export Enforcement participates
research laboratories and private companies. In a June 1999 report on the       in reviews of export license
export licensing process, we concluded that not only are the deemed export      applications and conducts criminal
control policy and regulations ill-defined and poorly understood by many,       and administrative investigations of
but the implementation of the regulations and compliance with them by           the export control portions of the
federal agencies and private companies appeared lax (see September 1999         Export Administration Act and
issue, page 17). The lack of understanding by industry and federal agen-        regulations. It also administers and
                                                                                enforces the antiboycott provisions
cies regarding the applicability and requirements of deemed export control
                                                                                of the act and regulations.
regulations could result in a transfer of sensitive technology to inappropri-
ate end users.

      We believe that some of the noncompliance with the deemed export
rule stems from ambiguity in the policy and the regulations. For example,
the term “fundamental research” needs to be better defined, and some of
the regulatory exemptions that affect national security need to be further
examined by policymakers.




Commerce OIG Semiannual Report
March 2000
                                                                                                                 21
Bureau of Export Administration


                                           To help determine whether U.S. high technology companies are
             Bureau of               complying with the deemed export regulations, we sought to obtain a
              Export                 reasonable estimate of what the level of license applications would be with
           Administration            good compliance. But, because BXA was unable to provide such an
                                     estimate, we instead compared the number of deemed export license
                                     applications submitted to BXA during FY 1999 (783) with the number of
    Export                Export     “high technology” employment visas issued to foreign nationals during the
 Administration        Enforcement
                                     same period (115,000). High technology visas are issued under a tempo-
                                     rary visa category that includes such occupations as architects, engineers,
                                     doctors, college professors, and computer programmers. Although clearly
                                     not all such visa applicants would require export licenses, the tremendous
                                     gap between the two numbers does indeed raise questions about U.S.
                                     companies’ knowledge of and compliance with the regulations. We believe
                                     that BXA needs to be more proactive in “getting the word out” to high
                                     technology companies and industry associations.

                                            In addition, evidence suggests that some federal agencies and
                                     research facilities may not be in full compliance with the deemed export
                                     regulations. For instance, when we provided BXA officials with the names
                                     of a limited sample of 16 foreign nationals working on projects at NIST,
                                     the officials made a preliminary determination that 3 of these individuals
                                     might require deemed export licenses. In fact, we found that only two
                                     federal agencies had submitted a total of five deemed export license
                                     applications during FY 1999. This number appears low given the number
                                     of foreign visitors and workers at federal research facilities that might have
                                     access to export-controlled technology.

                                     Visa Application Review Program Shows
                                     Promise, but Refinements Are Needed

                                           In 1998 BXA restructured its Visa Application Review Program to
                                     better target applications of individuals who might be involved with
                                     products and technologies most often needed for weapons of mass
                                     destruction. From our review of a sample of 74 visa application referrals,
                                     we conclude that the program is showing potential for helping achieve the
                                     agency’s export enforcement mission. For example, some referrals to
                                     BXA’s Office of Export Enforcement resulted in investigations aimed at
                                     preventing illegal exports of sensitive technologies, and one referral to the
                                     State Department resulted in a visa being denied.

                                           Yet the program can be further improved. For example, the process
                                     for reviewing visa applications would be enhanced by having checklists for
                                     BXA’s analysts. In addition, the process for referring problematic applica-
                                     tions to the Office of Export Enforcement could be made more efficient by


                                                                                 Commerce OIG Semiannual Report
22                                                                                                  March 2000
                                                                 Bureau of Export Administration


making certain changes to the enforcement database to improve the way in
which referrals into existing open cases are routed to BXA field offices.
Improvements are also needed in the timeliness of referrals of potential
visa fraud cases to the State Department.

      The Visa Application Review Program is part of a larger U.S.
government review of visa applications under the State Department’s Visas
Mantis program. The Visas Mantis program is an effort to prevent foreign
nationals from countries or entities of concern from gaining access to U.S.
high technology by having various federal agencies review visa applica-
tions. However, some of the agencies that receive the Visas Mantis cables
have curtailed their reviews because of resource shortages and limited
results from referrals to State. There is also a need for improved coordina-
tion and clearer delineation of each agency’s responsibilities under the
program. Furthermore, State officials say that they are limited in their
ability to deny visas because the Immigration and Nationality Act is vague
about when a visa may be denied. Also, State is not providing feedback to
the agencies involved in the program as to what action is taken on their
referrals. We suggested that BXA work with the other involved agencies to
formalize the Visas Mantis review program in a memorandum of under-
standing to help correct these problems.

Federal Efforts to Monitor Foreign
Investment Need to Be Reviewed

      CFIUS, the interagency committee that reviews foreign investment in
U.S. companies for national security implications, is another mechanism
intended to assist in the federal government’s efforts to counter the loss of
sensitive technologies. Based on our limited survey work, we have con-
cerns about the effectiveness of CFIUS, including the lack of mandatory
foreign investment reporting, the low number of investigations conducted
on company filings, and the appearance of a conflict of interest on the part
of the Treasury office that is charged with overseeing CFIUS in that it has
the dual responsibilities of “promoting” foreign investment as well as
“preventing” such investment when it could result in the loss of sensitive
technologies.

      Therefore, we are suggesting that the interagency OIG review team
undertake a study to determine the scope of the problem regarding foreign
investment in U.S. companies with sensitive technologies by countries and
entities of concern, and to review CFIUS’s effectiveness and recommend
improvements, as necessary, to the way the federal government monitors
foreign investment in U.S. companies.



Commerce OIG Semiannual Report
March 2000
                                                                                             23
Bureau of Export Administration


                              We are also highlighting two issues involving Commerce’s process for
                        reviewing CFIUS filings that warrant further assessment: (1) Should
                        Commerce’s lead responsibility for this program remain with the Interna-
                        tional Trade Administration, the Department’s primary trade promotion
                        agency, or be moved to BXA, the Department’s primary national security
                        agency? (2) Should BXA’s export enforcement and export licensing units
                        play a larger role in reviewing CFIUS notifications?

                             BXA agreed with most of the recommendations we made to address
                        our concerns, but said that current budget shortfalls would inhibit its ability
                        to implement some of them. BXA claimed that we did not thoroughly
                        assess the problems with deemed exports or demonstrate that our recom-
                        mended remedies are appropriate. BXA also questioned the usefulness of
                        our comparison of the number of high technology visas to the number of
                        deemed export licenses. We believe that the number of such visas is a valid
                        indicator of the possible universe of deemed export license applications,
                        and we note that BXA used an increase in such visas as a justification for
                        requesting additional funding and positions for FY 2001.

                              BXA also questioned our recommendations that it both work to
                        clarify the deemed export regulations, and proceed with programs to
                        ensure compliance with the regulations. While we believe that the regula-
                        tions would benefit from clarification, which we first recommended in our
                        June 1999 report, we also recognize that they are not so ambiguous that
                        they cannot be effectively enforced as is. (Office of Inspections and
                        Program Evaluations: IPE-12454)

                        Audit of FY 1999 Financial Statements

                              In accordance with the CFO Act, as amended by the Government
                        Management Reform Act of 1994, an audited financial statement must be
                        prepared covering all accounts and activities of each office, bureau, and
                        activity of the Department. For the audit of BXA’s FY 1999 financial
                        statements, as well as the audits of the statements of the other Commerce
                        reporting entities, the OIG contracted with independent public accounting
                        (IPA) firms. We defined the audit scope, selected the contractors, and
                        oversaw the performance of the audits and the delivery of the audit results.

                             An IPA firm issued an “unqualified” opinion on BXA’s FY 1999
                        financial statements for the second consecutive year. Financial statements
                        audits are a key measure for evaluating a bureau’s progress in meeting the
                        goals and objectives of the CFO Act. An unqualified opinion indicates that




                                                                    Commerce OIG Semiannual Report
24                                                                                     March 2000
                                                                  Bureau of Export Administration


BXA and NOAA, which provides accounting support services to BXA,
have been successful in establishing an internal control structure that
facilitates the preparation of reliable accounting and financial information.

      Although the IPA firm’s report did not identify any material weak-
nesses, it did cite two reportable conditions in BXA’s internal control
structure:

l       Interagency agreement policies and procedures should be
        implemented and followed.

l       Accounts receivable balances should be supported.

     BXA concurred with the facts, findings, and recommendations
contained in the audit report. (Financial Statements Audits Division:
FSD-11883-0-0001)

Y2K Preparations Were Effective, but Further
Risk Mitigation Was Recommended

      The OIG reviewed the readiness of BXA’s critical systems for the
arrival of the year 2000. Our review involved assessing the bureau’s
preparations and recommending practical risk mitigation and contingency
planning activities. We focused primarily on BXA’s business continuity and
contingency plan (BCCP), which included strategies for dealing with any
Y2K-related disruptions, and its Day One plan, which covered the days
surrounding the century change.

     At the time of our review, BXA operated two mission-critical infor-
mation systems: the Export Control Automated Support System and the
Communications Infrastructure system. A third mission-critical system, the
Chemical Weapons Convention Information Management System, was to
become operational in calendar year 2000.

      Our review revealed that BXA’s two existing mission-critical systems
had been successfully modified for Y2K compliance and that its new
system had been developed with Y2K-compliant software and hardware.
Moreover, BXA had initiated independent verification and validation in
October 1998 and reported in July 1999 that all three systems were Y2K
compliant. On this basis, we concluded that it was reasonable to expect
that the systems would function properly after December 31, 1999.




Commerce OIG Semiannual Report
March 2000
                                                                                              25
Bureau of Export Administration


                              We also found, however, that although BXA had developed a
                        thorough BCCP to identify contingencies for performing its core business
                        processes in the event that critical systems were not available, the bureau
                        had not tested its contingency plans, which were based primarily on
                        alternative manual processes. The Department had requested all of its
                        bureaus to follow GAO’s BCCP guidance, which stated that contingency
                        plans need to be tested to validate that they will satisfy the bureaus’ needs.

                              We recommended that BXA validate its BCCP by conducting tests
                        and rehearse its Day One plan with the team responsible for responding to
                        Y2K-related failures. BXA responded that it did not plan to test the BCCP
                        because alternative core business processing methods had been used
                        successfully during the 1996 furloughs. BXA also stated that there was
                        insufficient time before the end of the year to run the recommended test
                        and that the marginal gains to be achieved from testing would not justify
                        the resources expended.

                              In response, we pointed out that during furloughs, systems were not
                        disabled, as they could be as a result of Y2K problems, and observed that
                        only export license applications submitted in paper format were processed
                        during those furloughs, whereas 60 percent of applications were now
                        submitted electronically. Ultimately, however, BXA opted not to perform
                        the recommended testing before the century change, and fortunately
                        experienced no Y2K-related problems. (Office of Systems Evaluation:
                        OSE-12551)

                        Employee Retired to Avoid Facing Disciplinary
                        Action for False Representation

                              A BXA employee retired from federal service in the face of proposed
                        disciplinary action stemming from an OIG investigation that found he had
                        leased office space for personal use by falsely representing that it was to
                        be used for official government business. (Denver Field Office of Investi-
                        gations)




                                                                    Commerce OIG Semiannual Report
26                                                                                     March 2000
                  Economic Development
                         Administration

Audit of FY 1999 Financial Statements                                           The Economic Development
                                                                                Administration was established
      EDA received an unqualified opinion on its FY 1999 financial              under the Public Works and
statements for the second consecutive year. However, the IPA firm under         Economic Development Act of
contract to us that conducted the audit identified two reportable conditions,   1965, as amended, including the
the first of which is a material weakness:                                      comprehensive amendments by
                                                                                the Economic Development
                                                                                Administration Reform Act of 1998,
l       EDA did not collect actual data from grantees to estimate its
                                                                                to generate new jobs, help protect
        accrued grant expense.                                                  existing jobs, and stimulate
                                                                                commercial and industrial growth
l       EDA’s financial management systems contained control                    in economically distressed areas
        weaknesses.                                                             of the United States. EDA does
                                                                                this by providing grants to public
      This performance represented an improvement from FY 1998, when            and private nonprofit organizations
the auditors identified four reportable conditions, one of which was a          in communities with problems that
                                                                                are stifling economic growth;
material weakness.
                                                                                planning grants to states, cities,
                                                                                districts, and Indian reservations;
      Under the Federal Financial Management Improvement Act of 1996,           special economic adjustment
auditors are required to report on whether the bureau’s financial manage-       assistance to states and local
ment system substantially complies with federal financial management            governments with recent, severe
system requirements, applicable accounting standards, and the U.S.              problems or long-term economic
Government Standard General Ledger at the transaction level. The firm           deterioration; technical assistance
identified two instances of material noncompliance with the act:                to communities to build
                                                                                organizational capacity and solve
                                                                                specific economic development
l       The financial management system used by EDA for its grant               problems; and research and
        accounting does not comply with the Standard General Ledger at          evaluation grants to increase
        the transaction level.                                                  knowledge about effective
                                                                                economic development tools.
l       The financial management system used by EDA for salaries and
        expenses does not comply with certain system requirements.

     Although progress has been made in strengthening financial manage-
ment, EDA must continue its efforts to resolve the identified material
weakness and reportable condition. Of particular importance is the need to
address EDA’s methodology for determining accrued grant expense.
(Financial Statements Audits Division: FSD-11885-0-0001)

Defense Adjustment Implementation
Grant Was Properly Administered

     In July 1995, EDA awarded a $3 million Title IX Defense Adjust-
ment Implementation grant to a private organization to renovate several
buildings at the former Castle Air Force Base in California to create a U.S.


Commerce OIG Semiannual Report
March 2000
                                                                                                                27
Economic Development Administration


                                               Aviation Discovery Exposition. The project was part of an intense coordi-
               Economic                        nated response to negative economic conditions in the state, long-term
             Development                       poverty and unemployment in Merced County, and the September 1995
             Administration                    closure of the base and the consequent loss of its combined civilian and
                                               military annual payroll of over $225 million. In 1998, because of changed
                                               conditions, EDA provided the agency with an additional $1.3 million in
      Program                  Finance and     federal funds to complete the project. The amendment brought the EDA
     Operations               Administration
                                               share of the award to $4.3 million, or about 90 percent of the total esti-
                                               mated project cost of nearly $4.8 million.
                  Cong. Liaison,
                    Program
                  Research and                       The EDA-funded project was officially completed in July 1999. An
                   Evaluation                  OIG audit of the project revealed no significant deficiencies or adverse
                                               findings. No problems came to our attention during the audit; the organiza-
                                               tion complied with the award terms and conditions, accomplished the
                                               scope of work of the award, accounted properly for project expenditures,
                                               and claimed the appropriate share of federal costs. Accordingly, we made
                                               no recommendations. (Seattle Regional Office of Audits: STL-12659-0-
                                               0001)

                                               Quality Control Review of Nonfederal
                                               Audit Found Minor Deficiencies

                                                     The OIG performed a quality control review of an audit conducted
                                               by an independent public accountant of a Massachusetts nonprofit organi-
                                               zation responsible for implementing a trade adjustment assistance program
                                               for manufacturing firms located in the New England States. The
                                               organization’s primary support is an EDA award to assist firms that have
                                               experienced a decline in revenue due to foreign competition. During 1998
                                               the organization spent approximately $1.8 million under the award, of
                                               which $1.1 million was federal funds. As the oversight agency for the
                                               organization, we performed our review to determine whether the audit was
                                               conducted in accordance with government and generally accepted auditing
                                               standards, and whether the audit report meets the requirements of OMB
                                               Circular A-133, Audits of States, Local Governments, and Non-Profit
                                               Organizations.

                                                     Our review found that the auditor’s working papers supported the
                                               audit report and that the audit complied with audit standards. However, we
                                               identified certain deficiencies that, although not material, needed to be
                                               addressed. To address these minor deficiencies, we recommended that the
                                               auditor provide sufficient information on the effect of each audit finding
                                               reported, verify that information on the data collection form submitted to
                                               the audit clearinghouse is accurate, and obtain all appropriate management


                                                                                         Commerce OIG Semiannual Report
28                                                                                                         March 2000
                                                    Economic Development Administration


representations related to federal awards that are recommended by the
American Institute of Certified Public Accountants. (Atlanta Regional
Office of Audits: ATL-12073-0-0001)

Audit Reports Unresolved for Over Six Months

     As of March 31, 2000, two financial assistance audit reports had
recommendations that have remained unresolved for more than six
months.

       The first report, DEN-10586-9-0001 (see March 1999 issue,
page 28), has been carried over from the last two reporting periods. The
audit found that a nonprofit grantee in Texas had disregarded procurement
standards in awarding a $244,250 contract to a consulting firm. The audit
also questioned $258,838 in salary costs and in-kind contributions because
of inadequate supporting documentation. We did not concur with EDA’s
initial audit resolution proposal, and we are continuing to work with EDA
to resolve our disagreement.

      In the second report, ATL-09999-9-0031, the auditors found that the
grantee had not complied with procurement standards. In February 2000,
EDA requested that the grantee provide clarification of the applicable grant
numbers. EDA is awaiting that clarification before submitting an audit
resolution proposal.




Commerce OIG Semiannual Report
March 2000
                                                                                     29
                         Economics and
               Statistics Administration

Decennial Personnel and Payroll System Appears                                   The Economics and Statistics
Adequate, but Better Software Practices Needed                                   Administration analyzes
                                                                                 economic developments, develops
      As the largest peacetime civilian mobilization in the United States, the   policy options, and produces a
2000 Decennial Census will process over 3 million applicants for more            major share of U.S. government
                                                                                 economic and demographic
than 860,000 temporary jobs. The Census Bureau will rely on the Pre-
                                                                                 statistics. The Chief Economist
Appointment Management System/Automated Decennial Administrative                 monitors and analyzes economic
Management System (PAMS/ADAMS) for all applicant processing,                     developments and directs studies
personnel actions, and payroll functions for temporary employees during          that have a bearing on the
the decennial. PAMS/ADAMS, initially deployed to support the 1998                formulation of economic policy.
Dress Rehearsal, has been in use since then and has undergone significant        ESA has two principal agencies:
changes.                                                                         Bureau of the Census. Census is
                                                                                 the country’s preeminent statistical
      The OIG conducted an evaluation to determine whether PAMS/                 collection and dissemination
                                                                                 agency. It publishes a wide variety
ADAMS would provide accurate, timely hiring and payroll processing
                                                                                 of statistical data about people and
during the decennial. Because an earlier OIG review found that the way in        the economy of the nation,
which daily payroll forms were being processed during the dress rehearsal        conducting approximately
allowed employees to be paid more than once for the same hours worked,           200 annual surveys, in addition to
we also checked to see whether the bureau had solved this problem. As a          the decennial census of the U.S.
consequence of other dress rehearsal problems, the bureau is developing          population and the decennial
an alternative data entry system, called PAMS/ADAMS Data Entry                   census of industry.
(PADE). At the bureau’s request, we also assessed its approach to testing        Bureau of Economic Analysis.
PADE.                                                                            BEA’s goal is to provide a clear
                                                                                 picture of the U.S. economy by
                                                                                 preparing, developing, and
      In developing PAMS/ADAMS, the bureau did not follow a well-                interpreting the national income
managed software development process. As a result, the bureau did not            and product accounts
have current and complete requirements and test documentation. Conse-            (summarized by the gross
quently, the accuracy and completeness of PAMS/ADAMS cannot be                   domestic product), as well as
determined by reviewing the bureau’s documentation or by independent             aggregate measures of
testing, activities normally associated with a systematic software develop-      international, regional, and state
ment effort. However, we believe that the extensive operational use of           economic activity.
PAMS/ADAMS since the dress rehearsal, which has allowed the bureau to
identify and correct errors and to evaluate changes, provides reasonable
assurance that the system can support decennial operations.

     The bureau addressed the duplicate pay issue by implementing pro-
cedures that required local census office (LCO) payroll clerks to request a
report from PAMS/ADAMS identifying employees who submitted multiple
payroll forms for a particular day and then review the report to check for
duplicate reporting of hours worked. The possibility of duplicate pay
remained, however, because the approach relied on human action to
request the report. A more effective approach would be for the PAMS/
ADAMS software to automatically check for multiple payroll forms and
produce the report.

                                                                                    Commerce OIG Semiannual Report
30                                                                                                     March 2000
                                                    Economics and Statistics Administration


      The new data entry system, PADE, was developed without require-
ments, design, or testing documentation; therefore, we were unable to                 Economics and
assess the adequacy of testing. In addition, the software that transfers the            Statistics
data from LCOs to regional census centers has serious performance                     Administration
problems, so this component is being redesigned. Nonetheless, operational
testing and use of PADE in the field suggest that it processes data correctly
                                                                                Bureau            Bureau of
and has the potential to significantly improve the efficiency of payroll and     of the           Economic
applicant processing operations. Therefore, we concluded that the bureau        Census            Analysis
should continue to develop PADE, test it at headquarters, and use it
operationally, with the goal of having it ready for use in all LCOs in time
for the February 2000 update/leave operation. Based on PADE’s perfor-
mance in that operation, the bureau could decide whether it should be used
as the principal system during the decennial.

      Although the operational use of PAMS/ADAMS provided assurance
that the system would work as intended, a well-managed software devel-
opment process would have increased the bureau’s and our confidence by
producing documentation and applying techniques to allow issues regarding
accuracy, completeness, and performance to be identified and corrected
during development rather than in operation. Moreover, such a process
would have prevented disruptive problems during the dress rehearsal,
obviated the need for the late redesign of the data entry component, and
reduced cost.

      We have found similar problems with software development for
other decennial information processing systems, and we reported that
while the bureau has software engineering standards, their use is not
required, nor are they widely used. Better software management practices
would improve timeliness, quality, and user satisfaction and reduce
development and maintenance costs for all census systems. Although it is
too late to attain significant improvements for the 2000 Decennial Census,
the bureau should make a concerted effort to improve software develop-
ment for all future programs, decennial and nondecennial alike.

      We recommended that the bureau strengthen its procedures for
identifying and avoiding duplicate pay; continue development, testing, and
field evaluation of PADE; and ensure that the capability to use the non-
PADE version of PAMS/ADAMS is retained in every LCO in the event
that PADE cannot be deployed for the decennial. The bureau has agreed
with and implemented all of our recommendations. After we issued our
report, PADE was used successfully for the update/leave operation, and it
is now being used for the remaining applicant processing and payroll
functions. (Office of Systems Evaluation: OSE-11684)



Commerce OIG Semiannual Report
March 2000
                                                                                                              31
Economics and Statistics Administration


                        Accountable Property Used for the Decennial
                        Census Needs Improved Controls

                              In preparation for the 2000 Decennial Census, the Census Bureau
                        has established temporary field offices throughout the United States and in
                        Puerto Rico. At the close of 1999, there were 12 regional census centers
                        (RCCs), a Puerto Rico area office, 520 local census offices, and four data
                        capture centers in operation. Over $60 million in personal property will be
                        placed in these temporary field offices for the decennial.

                              The OIG conducted an audit of the adequacy of controls over
                        accountable personal property in the Boston, Dallas, and Los Angeles
                        RCCs. Accountable personal property includes capitalized personal
                        property, equipment with a unit cost of $2,500 or more, sensitive items
                        (those that are easily convertible to personal use or have a high potential
                        for theft), borrowed or leased property, and contractor or grantee account-
                        able or sensitive property. We also conducted physical inventories at the
                        three RCCs, the Puerto Rico office, and six local census offices, two in
                        each of the three regions visited. Finally, we reviewed bankcard transac-
                        tions at the three RCCs and Puerto Rico. Our audit of bankcard transac-
                        tions disclosed that the bureau was properly administering the bankcard
                        program, and that regional personnel were following appropriate internal
                        control procedures and exercising sound management practices in the
                        order, receipt, and recording of purchases.

                              However, we identified the following areas where the bureau needs
                        to better manage its accountable personal property:

                        l       Property recording. Bureau personnel did not properly record
                                hundreds of items in the property books or in its automated
                                property management system. Much of the accountable personal
                                property located at the RCCs was not on the headquarters’ or the
                                RCCs’ inventory lists. We recommended that the bureau require
                                each RCC and area office to designate staff specifically to receive
                                personal property and maintain adequate accountability.

                        l       Physical inventories. The bureau requires that complete physical
                                inventories of accountable personal property be conducted regu-
                                larly, generally once a year. But physical inventories had not been
                                conducted at any of the RCCs we visited, although they had been
                                open for more than a year. Moreover, bureau capitalizable prop-
                                erty records were not reconciled with financial records in a timely
                                manner. We recommended that the bureau ensure that required


                                                                  Commerce OIG Semiannual Report
32                                                                                   March 2000
                                                  Economics and Statistics Administration


        inventories of accountable property are conducted annually and
        that property and accounting records are adjusted to reflect the
        inventory results.

l       Transferred property. Bureau personnel did not adequately
        control transferred personal property. Specifically, approval for
        transferring property was not always documented, and transferred
        property was not always posted on property records. In addition,
        personnel did not obtain approval for and improperly documented
        a loan of accountable property to another agency. We recom-
        mended that the bureau strengthen controls and oversight of the
        property management system to ensure that transfers and loans of
        accountable personal property are approved and documented in
        accordance with procedures.

       The bureau concurred with our recommendations, and we commend
it for its responsiveness in taking quick action to address our concerns. For
example, the bureau has now conducted full physical inventories in all 12
regions, and has designated staff to be responsible for receiving and
recording personal property. (Economics and Statistics Audits Division:
ESD-11781-0-0001)

Decennial Employees in Atlanta Region
Experienced Problems with Late Pay

      In late 1998, the Census Bureau made certain policy and procedural
changes for the 2000 Decennial Census on the basis of lessons learned
from the 1998 Dress Rehearsal. Among these changes was to forgo
scanning forms for payroll processing and instead rely on keypunching for
data entry. As the bureau’s regional offices began their initial decennial
work in late 1998, the OIG’s Hotline began receiving complaints from
temporary decennial employees about late pay. Of the 204 late pay
complaints received by either the OIG or the bureau as of January 1999,
82 (40 percent) came from the Atlanta region. We therefore conducted an
audit of that region’s payroll operations to determine if the region’s tempo-
rary decennial employees were being paid promptly and accurately.

      Our audit disclosed that during late 1998 and early 1999, the Atlanta
Regional Census Center experienced a variety of pay problems that led
employees to complain that they either had not been paid or had received
late or incorrect pay. We were concerned that, if not corrected, these
problems could undermine the bureau’s ability to hire and retain qualified
employees for the decennial. The specific problems experienced are
discussed below.

Commerce OIG Semiannual Report
March 2000
                                                                                       33
Economics and Statistics Administration


                        l      Earnings statements were not received on time. Seventy
                               percent of the sampled resolved pay complaints received by the
                               Atlanta center involved misunderstandings about pay, rather than
                               actual late or incorrect pay. Starting in September 1998, earnings
                               statements were generated by the bureau’s national processing
                               center, rather than by the regions, as had been the case before.
                               Because the Atlanta center was late in providing its input to the
                               national processing center during the first month after the change,
                               employees did not receive their earnings statements on time. As a
                               result, they had difficulty reconciling the amount of their pay with
                               their records of hours worked and contacted Atlanta center payroll
                               personnel for further information.

                        l      Employee pay was delayed. In examining pay records for 30
                               Atlanta region employees from October through December 1998,
                               we found that records for 27 (90 percent) showed instances of late
                               pay. Employee pay was delayed for two reasons. First, focusing
                               more on data production than personnel administration, crew
                               leaders did not always collect daily work records from their
                               employees and did not always provide daily records in time for
                               forwarding to the Atlanta center to meet payroll cutoff dates.
                               Second, employees’ failure to provide sufficient payroll infor-
                               mation (such as bank routing symbols, bank account numbers, or
                               mailing addresses) caused automated payroll deposits to be
                               rejected or paychecks to be returned as undeliverable.

                        l      Some employees received duplicate pay. When they became
                               concerned about not receiving their pay for certain days, some
                               employees resubmitted work records or submitted new work
                               records for those days, which resulted in their being paid twice for
                               the same work. In response to an earlier OIG recommendation
                               about this problem, the bureau added a “flag edit” to the pay
                               system, which is designed to generate an exception report when
                               multiple work records are submitted for the same date.

                              We made several recommendations to address the identified pay
                        problems. The bureau agreed with our recommendations and has taken
                        steps to implement them. (Atlanta Regional Office of Audits: ATL-11640-
                        0-0001)




                                                                  Commerce OIG Semiannual Report
34                                                                                   March 2000
                                                    Economics and Statistics Administration


Census Bureau Y2K Preparations Effective,
but Improved Contingency Planning Needed

      The OIG reviewed the readiness of the Census Bureau’s critical
systems for the Y2K century change. Our review involved assessing the
bureau’s preparations and recommending practical risk mitigation and
contingency planning activities. At the time of our review, the bureau had
successfully replaced and tested its systems in preparation for Y2K and
had made progress in developing a business continuity and contingency
plan. The bureau reported that all of its mission-critical systems were Y2K
compliant.

     We found, however, that further actions were needed to ensure the
continuity of critical business processes in the event of Y2K-related
systems failures. The following were our specific observations:

l       Contingency plans needed further development, and test
        plans and tests were needed for critical systems included in
        the September draft BCCP. Our review disclosed that the bureau
        had not developed detailed contingency plans, and therefore
        implementation of its BCCP could not ensure the continued
        delivery of minimally acceptable levels of outputs or services in
        the event of Y2K failures. Moreover, test plans needed to be
        developed, test teams established, business resumption teams
        rehearsed, and tests executed to validate contingency plans.

l       Contingency plans, test plans, and tests were needed for
        November additions to the BCCP. The bureau originally
        excluded all decennial systems from its BCCP because most
        would not begin production until March 2000 or later. But three
        mission-critical systems were operating in preparation for the
        decennial, and at our suggestion, the bureau added them to the
        November 1999 draft of its BCCP. Because they were added late
        in the process, these important systems were not supported by
        detailed contingency or test plans.

      We made recommendations to address our concerns. Responding
after the start of the new century, the bureau stated that all of its systems,
including the three added to the November BCCP, had been tested and
that no Y2K-related errors had been found, and that all operations were
functioning properly in the year 2000. (Office of Systems Evaluation:
OSE-12200)




Commerce OIG Semiannual Report
March 2000
                                                                                         35
Economics and Statistics Administration


                        Audit of Census’s FY 1999 Financial Statements

                               For FY 1999, the Census Bureau received an unqualified opinion on
                        its financial statements. This is an especially noteworthy accomplishment,
                        considering that the bureau received a disclaimer of opinion on its FY 1998
                        Statements of Net Cost, Changes in Net Position, Budgetary Resources,
                        and Financing.

                                While we commend the bureau for achieving an unqualified opinion,
                        it still needs to address deficiencies in its internal controls. The IPA firm
                        conducting the audit under contract to us identified three reportable
                        conditions in the bureau’s internal control structure, all of which are
                        material weaknesses:

                        l       Financial management and reporting. The bureau continued to
                                experience significant difficulties and delays in producing
                                complete, accurate financial statements in accordance with
                                departmental guidelines. Moreover, it did not provide sufficient
                                financial management oversight and supervisory review of the
                                financial statements throughout the year-end reporting process,
                                nor did it prepare timely financial statements throughout the year.
                                Bureau management, at the highest level, must make financial
                                management improvement a top priority. Addressing the material
                                weaknesses is a prerequisite to improving financial responsibility.
                                Concerted efforts are needed to improve the internal control
                                structure and promptly implement corrective actions for the
                                preparation of financial statements for FY 2000.

                        l       Account reconciliations. The firm found that many key financial
                                statement account balances were not reconciled in a timely
                                manner throughout the fiscal year and at year-end. Specifically,
                                account reconciliations and accompanying journal vouchers for
                                Fund Balance with Treasury, Fixed Assets, Deferred Revenue,
                                Accounts Payable, Other Liabilities, and Budgetary Accounts were
                                not adequately supported or properly reviewed, and required
                                extensive follow-up and revisions.

                        l       Information system reporting and controls. In connection with
                                the FY 1999 audit, the bureau worked diligently to improve its
                                routine reporting functions and information system requirements.
                                However difficulties still existed in its ability to routinely produce
                                timely reports.




                                                                    Commerce OIG Semiannual Report
36                                                                                     March 2000
                                                  Economics and Statistics Administration


      In conjunction with the audit, the IPA firm conducted a general and
environmental controls review of the bureau’s information systems in
accordance with applicable sections of GAO’s Federal Information System
Controls Audit Manual. The review identified weaknesses in five of the
six review areas set forth in the GAO Manual: (1) entitywide security pro-
gram planning and management, (2) access control, (3) system software
control, (4) segregation of duties, and (5) service continuity. Together,
these weaknesses, if not resolved, could adversely affect the security of
the data, programs, and hardware maintained at the bureau and have a
negative impact on both the bureau’s financial statements and the Depart-
ment’s consolidated statements. The firm considered the aggregation of
these weaknesses, coupled with the lack of compensating controls, to be a
material internal control weakness and included this issue in its Report on
Internal Control, as discussed above.

      The IPA firm discussed these weaknesses, and made recommenda-
tions for correcting them, in a separate report on systems issues. The
bureau generally agreed with the accountants’ recommendations for
addressing the identified weaknesses and stated that corrective actions
would be taken. Issues with which the bureau disagreed relating to system
deficiencies will be addressed in detail during the FY 2000 financial
statements audit. (Financial Statements Audits Division: FSD-11884-0-
0001, FSD-11884-0-0002)

Audit of ESA and BEA’s
FY 1999 Financial Statements

      An IPA firm under contract to us issued an unqualified opinion on the
FY 1999 consolidated financial statements of the Economics and Statistics
Administration and the Bureau of Economic Analysis. This was the fifth
consecutive year that these bureaus had received a clean (unqualified)
opinion. Moreover, for the first time, the accountants identified no material
weaknesses or reportable conditions in ESA and BEA’s internal control
structure, and no instances of noncompliance with laws and regulations.
This represented a substantial improvement over the FY 1998 audit, which
identified two reportable conditions and one instance of material noncom-
pliance with laws and regulations. (Financial Statements Audits Division:
FSD-11886-0-0001)




Commerce OIG Semiannual Report
March 2000
                                                                                       37
                                         International Trade
                                         Administration

The International Trade                  Audit of FY 1999 Financial Statements
Administration is responsible for
most nonagricultural U.S. trade                 An IPA firm under contract to us issued an unqualified opinion on
issues and works with the Office of      ITA’s FY 1999 financial statements. This notable achievement, the first
the U.S. Trade Representative in         “clean” opinion received by ITA, was largely the result of significant
coordinating U.S. trade policy. ITA
                                         financial management improvements made by the bureau, including a
has four principal units:
                                         number of organizational and managerial reforms, such as hiring manage-
Market Access and Compliance.
MAC develops and implements              rial staff, outsourcing accounting processing, and working to clean up its
international economic policies of       financial records.
a bilateral, multilateral, or regional
nature. Its main objectives are to              The firm, however, did identify three reportable conditions, all of
obtain market access for American        which were considered to be material weaknesses. The weaknesses were
firms and workers and to achieve         in (1) the control environment, (2) the financial reporting process, and
full compliance by foreign nations       (3) financial management systems.
with trade agreements signed with
the United States.
Trade Development. TD advises                  In reviewing ITA’s compliance with laws and regulations, the firm
on international trade and               also found that ITA’s financial management systems did not substantially
investment policies pertaining to        comply with the Federal Financial Management Improvement Act. Specifi-
U.S. industrial sectors, carries out     cally, the bureau’s accounting system, which was replaced near the end of
programs to strengthen domestic          FY 1999, was not compliant with Joint Financial Management Improve-
export competitiveness, and pro-         ment Program requirements. In addition, ITA grants were processed by
motes U.S. industry’s increased          EDA’s non-JFMIP compliant system for a significant part of the year. In
participation in international           both cases, ITA has begun using the Department of the Interior’s JFMIP-
markets.
                                         compliant accounting system. Because the new system is to be fully
Import Administration. IA
defends American industry against
                                         operational for FY 2000, no remedial actions were recommended.
injurious and unfair trade practices
by administering the antidumping               Other matters discussed included ITA management’s representation
and countervailing duty laws of the      that certain budgetary authority was used for other than intended purposes,
United States, and enforcing other       and the IPA firm’s inability to determine whether ITA was in full compli-
trade laws and agreements                ance with the requirements of OMB Circular A-25, User Charges. The
negotiated to address such trade         firm recommended that ITA resolve the user charges issue by September
practices.                               30, 2000. (Financial Statements Audits Division: FSD-11887-0-0001)
U.S. & Foreign Commercial
Service. US&FCS promotes the
exports of U.S. companies and            MDCP Award Procedures Promote Merit-Based
helps small and medium-sized             Decisions, but Practices Need More Discipline
businesses market their goods
and services abroad. It has 105
domestic offices and 138 overseas             Through its Market Development Cooperator Program (MDCP),
posts in 75 countries.                   ITA provides financial assistance to nonprofit industry organizations, trade
                                         associations, state departments of trade, and other industry groups for
                                         projects that develop, maintain, and expand foreign markets for U.S.
                                         nonagricultural goods and services. In FY 1997, ITA officials received 41
                                         applications seeking program funding of over $10 million, selected 38 for
                                         review, and ultimately awarded 6 grants, totaling about $1.8 million.


                                                                                    Commerce OIG Semiannual Report
38                                                                                                     March 2000
                                                              International Trade Administration


      As part of our Department-wide review of discretionary financial
assistance programs, we examined ITA’s criteria, procedures, and practices                International
for soliciting, reviewing, and selecting MDCP awards. Our review dis-                         Trade
closed that ITA’s application solicitation and selection processes complied              Administration
with statutory, departmental, and ITA requirements. ITA’s application
                                                                                                       Market
review practices, however, did not fully meet those requirements. Specifi-       Import
                                                                                                     Access and
                                                                              Administration
cally, we found that ITA:                                                                            Compliance


l       Developed and published merit-based technical and public policy          Trade              U.S. and Foreign
                                                                              Development            Commercial
        criteria that were consistent with the program’s objectives.                                    Service


l       Conducted application solicitation efforts that exceeded the
        Department’s and ITA’s requirements for an annual notice in the
        Federal Register and were sufficient to obtain a widespread
        response from eligible applicants.

l       Evaluated applications using a review panel that did not fully meet
        the Department’s independence requirement and could not provide
        documentation to verify that the panel reviewed all eligible
        applications.

l       Contrary to published review procedures, allowed program staff to
        review and rank FY 1998 applications.

     We recommended that ITA (1) discontinue the prescreening of
applications by program staff and ensure that all eligible applications are
reviewed by an independent review panel, (2) ensure that the review
process is adequately documented and that documentation is retained for
seven years, as required, and (3) ensure that the review and selection
process is consistent with the public announcement.

      ITA agreed with our second and third recommendations, but dis-
agreed with our first recommendation, that it discontinue its practice of
allowing applications to be initially reviewed and ranked by program staff.
ITA considers program staff comments to be an invaluable part of the
application review process. Our recommendation was not intended to
prohibit ITA from considering the comments of program staff, but rather
to prevent program staff from effectively eliminating eligible applications
from an independent panel review. We are currently reviewing ITA’s action
plan submitted in response to our report. (Atlanta Regional Office of
Audits: ATL-10999-0-0001)




Commerce OIG Semiannual Report
March 2000
                                                                                                                  39
International Trade Administration


                         OIG Overseas Work Continues with
                         Reviews of Three US&FCS Posts

                               During this semiannual period, the OIG continued its reviews of
                         Commerce overseas posts, which are under the direction of ITA’s U.S.
                         and Foreign Commercial Service (US&FCS). Our reviews are generally
                         designed to evaluate the posts’ operational effectiveness and determine
                         whether they are efficiently accomplishing their mission of providing U.S.
                         companies, especially small and medium-sized ones, with export assis-
                         tance. In the following sections, we summarize the reports we issued on
                         three US&FCS posts—Hong Kong, Vietnam, and France.

                         Hong Kong

                               On July 1, 1997, Hong Kong reverted to Chinese sovereignty after
                         more than 150 years of British rule. The island has long been economically
                         integrated with China due to its proximity and cultural ties. The strong
                         economic relationship that Hong Kong has with the United States is
                         evident in the over 1,100 U.S. businesses represented in Hong Kong, the
                         $19 billion in U.S. direct investment in the island, and two-way trade of
                         more than $23 billion in 1998. Hong Kong is both a major destination for
                         U.S. exports and a springboard for trade with southern China.

                               The US&FCS post in Hong Kong had a FY 1998 operating and
                         administrative budget of nearly $2 million and a staff of 4 foreign com-
                         mercial officers, 10 foreign service nationals, and 14 personal services
                         contractors. An OIG inspection of the post found that it was fulfilling its
                         trade promotion mission and appeared to be meeting the needs of U.S.
                         businesses. However, we identified the need for improvements in strategic
                         planning, coordination, and internal controls. Some of our specific findings
                         are discussed below.

                         l       Post was meeting clients’ needs with high-quality products
                                 and services, but better targeting was needed. Clients whom we
                                 interviewed rated the post’s services quite highly, and our review
                                 of a sample of products and services confirmed that favorable
                                 opinion. For example, the post had developed an innovative fax-
                                 back and on-line system to enable U.S. companies to obtain
                                 weekly up-to-date commercial and economic reports that outline
                                 business opportunities in the Asia-Pacific region. However, we
                                 found that the Industry Sector Analyses relied excessively on
                                 standardized sections, and the Agent/Distributor Service and the
                                 Gold Key Service need better targeting.


                                                                    Commerce OIG Semiannual Report
40                                                                                     March 2000
                                                              International Trade Administration


l      Reporting of success stories was insufficient in FY 1998, but
       improved in FY 1999. US&FCS Hong Kong reported only 32
       success stories in FY 1998 (its average number of success stories
       per staff member was about half the average for the East Asia-
       Pacific region). But the post had increased its number of success
       stories to 46 in just the first quarter of FY 1999 as a result of staff
       training and an emphasis by the Senior Commercial Officer (SCO)
       on reporting such accomplishments.

l      Coordination was excellent with the consulate and nonfederal
       trade promotion organizations, but could be improved with
       other ITA units. Officials from the U.S. consulate gave high
       marks to the work of US&FCS Hong Kong. The SCO was
       meeting regularly with his counterparts in the economic and
       political sections and cooperating with them on export control
       activities, trade shows, and other events. Officials of nonfederal
       trade promotion organizations in Hong Kong complimented the
       post on its efforts to coordinate activities and help their member
       companies. The degree of coordination with other ITA units was
       mixed, however. Although the post worked well with some Trade
       Development offices, coordination with Market Access and
       Compliance was limited to high-level visits, and the post did not
       fully utilize the US&FCS domestic teams.

l      BXA end-use checks were being conducted properly and in a
       timely fashion. In compliance with export control regulations,
       US&FCS Hong Kong completed 12 post-shipment verifications
       and 1 pre-license check in FY 1997 and routinely coordinated
       both types of end-use checks with most other consulate sections,
       such as the economic and political sections and the U.S. Customs
       Service. The post agreed with our suggestion that it also
       coordinate these checks with the consulate’s defense attaché.

l      Better regional planning was needed. The US&FCS Regional
       Director for East Asia-Pacific in Washington, who is charged with
       management oversight of the region, had not provided the
       necessary guidance and support to the post on programmatic
       planning issues. Washington had not developed a regional plan for
       US&FCS Hong Kong and other closely linked markets that
       identified joint projects and events for the posts to work on. We
       suggested that headquarters build on the excellent draft plan for
       the China Economic Area that the current SCO in Hong Kong
       developed when he was the post’s deputy.



Commerce OIG Semiannual Report
March 2000
                                                                                             41
International Trade Administration


                         l    The SCO should develop a strategic plan. Although it was too
                              soon to thoroughly evaluate the post’s new management at the
                              time of our visit, it was nonetheless clear that US&FCS Hong
                              Kong needed a formal strategic plan to effectively define,
                              prioritize, and analyze its goals to better serve U.S. firms. The
                              post’s input into Consulate Hong Kong’s Mission Program Plan
                              was the only planning document the post produced.

                         l    Budget was closely monitored, but some areas needed more
                              attention. US&FCS Hong Kong’s budget was closely monitored
                              because of sound management practices established by the former
                              SCO, systems implemented by the administrative assistant, and
                              good service provided to the post by staff of the consulate’s
                              Budget and Fiscal Office. However, we questioned whether some
                              representational expenses were used effectively to promote U.S.
                              commercial interests and whether some expenditures for recruiting
                              job candidates were justified.

                         l    Post should improve internal controls. More documentation
                              was needed to support justifications for representational funds,
                              time and attendance records, and use of the official vehicle. The
                              SCO should also exercise greater control over the authorization of
                              overtime. Moreover, the post needed to officially document all
                              property purchased for officers’ residences to ensure that property
                              and other assets are safeguarded against fraud, waste, and abuse.
                              Duties related to the deposit of user-fee collections needed to be
                              separated, and a foreign commercial officer should be approving
                              deposits of funds and ensuring that they were made weekly.

                         l    ICASS was working well at Hong Kong Consulate. The
                              International Cooperative Administrative Support Service
                              (ICASS), the State Department system for distributing overseas
                              support costs to federal agencies overseas based on the services
                              received, appeared to be working well in Hong Kong. US&FCS
                              was actively participating in the ICASS Council, which had a
                              positive relationship with the service providers. In addition, the
                              council’s formation of working groups composed of foreign
                              service officers and foreign service nationals who have expertise in
                              and knowledge of the specific service issues was a “best practice”
                              that we hope to see adopted by other ICASS Councils.

                         l    Environmental Partnership program was cooperating well
                              with US&FCS Hong Kong staff, but coordination with other
                              ITA units was inadequate. The United States-Asia Environ-
                              mental Partnership, an interagency program led by the U.S.

                                                                Commerce OIG Semiannual Report
42                                                                                 March 2000
                                                              International Trade Administration


        Agency for International Development, is well integrated with the
        US&FCS Hong Kong commercial operation. The program and
        US&FCS jointly recruit for and sponsor seminars and trade
        missions and share client databases. However, the program, which
        provides market research and promotes U.S. environmental
        technology exports, has little interaction with Trade Development’s
        Office of Environmental Technologies Exports. The program
        could also benefit from working more with ITA’s domestic field
        offices.

      US&FCS generally agreed with our recommendations, and described
actions already taken or planned to implement some of them. For some of
our recommendations, the agency either said it would consider them
further or offered alternative suggestions to meet their intent. We will
continue to monitor US&FCS’s actions to correct the weaknesses we
identified. (Office of Inspections and Program Evaluations: IPE-11330)

Vietnam

      During most of the 1990s, Vietnam had one of the fastest growing
economies in the world, with an 8-percent average annual GDP growth
rate fueled primarily by direct investment from its Asian neighbors. During
the recent financial crises in Southeast Asia, however, traditional sources
of capital in Vietnam dried up, and opportunities increased for other
foreign sources to enter the market. With an educational emphasis on
applied sciences and vocational training and a literacy rate near 90 percent,
Vietnam’s labor force remains attractive to foreign enterprises seeking to
develop their own manufacturing facilities in Vietnam.

      However, many challenges remain for Vietnam and for firms choos-
ing to do business there. For example, the government requirement that
domestic laborers working in foreign-owned manufacturing plants be paid
in foreign currency exposes foreign firms to a greater foreign exchange rate
risk on their production costs than they would face elsewhere. Corruption,
threats to intellectual property rights, and burdensome product licensing
requirements also pose obstacles for foreign firms considering entry into
the market.

      Soon after the United States normalized relations with Vietnam in
1995, US&FCS sent an officer to Hanoi. In February 1997, the Hanoi
US&FCS office officially opened, and in September 1998, a constituent
post opened in Ho Chi Minh City, formerly known as Saigon. At the time
of our inspection, the staffing in Vietnam included 4 foreign commercial



Commerce OIG Semiannual Report
March 2000
                                                                                             43
International Trade Administration


                         officers, 14 foreign service nationals, and 2 personal services contractors.
                         In FY 1998, US&FCS Vietnam’s total operating expenses were
                         $1.82 million.

                                Our inspection of US&FCS Vietnam operations disclosed that both
                         posts were generally well run. Each post was engaged in innovative
                         initiatives that may be appropriate for adoption elsewhere. For example, in
                         Ho Chi Minh City, management developed and conducted a seminar that
                         was effective in educating Vietnamese businesses on the resources avail-
                         able to develop trade between the two countries. Management also started
                         a program in which its local staff share their expertise with one another
                         through in-house training courses. In addition, the Hanoi post has taken the
                         initiative to organize regional Gold Key Services for American companies.
                         At the same time, however, we found administrative oversight and controls
                         lacking in important areas that, if left unaddressed, could diminish the
                         posts’ efficiency and effectiveness. Our specific findings were as follows:

                         l       US&FCS Vietnam is taking appropriate steps to build its
                                 commercial program. During its first four years in Vietnam,
                                 US&FCS has carried out much of the activity needed to establish
                                 an effective commercial service presence in a new market. It has
                                 focused resources on key program activities, including developing
                                 contacts with local government officials, helping to establish
                                 complementary U.S. government programs in Vietnam, and
                                 starting to deliver core US&FCS program services. However,
                                 many challenges remain for US&FCS to become an effective,
                                 sustainable presence in Vietnam.

                         l       Greater cooperation is needed in partnering efforts. US&FCS
                                 has developed good working relationships with Vietnamese trade
                                 promotion organizations in Hanoi and Ho Chi Minh City, and has
                                 used them to develop contacts with local businesses and
                                 government officials. In addition, in Ho Chi Minh City, US&FCS
                                 has used the local commercial trade group to recruit Vietnamese
                                 business representatives to participate in the International Buyer
                                 Program and the post’s education seminar. Furthermore, US&FCS
                                 has formed a partnership with the state of Florida, whereby a
                                 contractor works for the state out of the Hanoi post and serves
                                 US&FCS interests part-time. While the relationship between the
                                 US&FCS staff and the state representative is good, the parties’
                                 roles and responsibilities need to be more clearly defined.




                                                                    Commerce OIG Semiannual Report
44                                                                                     March 2000
                                                             International Trade Administration


l       Weak internal control systems raise concern over the use of
        funds and government property. US&FCS Vietnam has
        developed a good system to track its finances, but it has not imple-
        mented proper internal controls to prevent fraud, waste, and abuse
        of government funds and property. We found examples of waste
        and abuse with operating and administrative funds, especially with
        respect to charges for telephone calls. Specifically, in response to
        our questioning, more than $10,000 worth of telephone calls were
        identified as being personal calls, and reimbursements to the
        government were made. Loose controls over the multiple financial
        tracking systems in place at post—those of the State Department,
        US&FCS, and ITA—create problems reconciling revenue from
        the sale of products and services. In addition, more oversight of
        administrative charges levied under ICASS is needed to ensure
        that US&FCS is paying appropriate costs for the services it
        receives. Finally, lack of controls over vehicles and cellular phones
        has led to questionable use of government property.

l       Underutilized Space in Hanoi and Ho Chi Minh City is of
        concern. Each post has more office space than it uses or intends
        to use within the next few years. Both facilities were designed and
        built-out under a “business center” concept, justified by expecta-
        tions that U.S. businesses and other partners would collocate with
        US&FCS under various short-term arrangements. Such expecta-
        tions have not been realized, and no planning for further recruiting
        is underway. In addition, US&FCS’s decision to relocate its Hanoi
        operation could have resulted in unnecessary facility costs had we
        not questioned some of these costs, causing US&FCS to renego-
        tiate its space requirements. In the future, US&FCS needs to
        better assess and justify office space requirements overseas when
        moving into commercial buildings, especially when it bases its
        requirements on plans to share space with potential partners.

      We made a number of recommendations to address our concerns.
US&FCS generally agreed with our recommendations and said that it
appreciated our balanced assessment of the strengths and weaknesses of
one of its newest posts. Acknowledging the lapses in the day-to-day
management of post operations, US&FCS said it had begun taking correc-
tive actions to address our concerns. (Office of Inspections and Program
Evaluations: IPE-11798)




Commerce OIG Semiannual Report
March 2000
                                                                                            45
International Trade Administration


                         France

                               France, with the world’s fourth largest industrial economy, is one of
                         the United States’ most important political, cultural, and economic part-
                         ners. In 1998 U.S. exports to France totaled about $18 billion, and imports
                         were valued at about $24 billion. France is the United States’ ninth largest
                         trading partner and its third largest market in Europe (after the United
                         Kingdom and Germany).

                              US&FCS’s eighth largest post is in France, with a budget of
                         $1.9 million in FY 1999. At the time of our review, the post employed
                         6 American officers, 22 foreign service nationals, and 8 personal services
                         contractors. According to US&FCS senior officials, until recently
                         US&FCS France had been considered a productive export promotion post,
                         with a dedicated and professional staff.

                              In late September 1999, however, the US&FCS Director General
                         asked the OIG to conduct a limited, quick-response review of US&FCS
                         France, due to management’s concerns about administrative, financial, and
                         management problems that had developed in Paris.

                                Our review focused on identifying the key management, administra-
                         tive, and financial problems in Paris that needed to be addressed immedi-
                         ately by the interim SCO, who was temporarily assigned to the post from a
                         nearby US&FCS post, and by the new SCO and Deputy SCO, who were
                         to arrive at the post in the coming months. Because of the need for swift
                         action, the scope of our review did not include the post’s program opera-
                         tions or effectiveness.

                               We found that the US&FCS office in Paris had a very serious morale
                         problem, had been operating with an ineffective organizational structure,
                         and was beset with financial and administrative problems. By most
                         accounts, the problems were attributable to the ineffective management
                         styles and lack of leadership and appropriate oversight of two previous sets
                         of senior managers. Our specific observations were as follows:

                         l       Administrative and financial problems and errors were
                                 widespread. Our review of US&FCS France’s administrative and
                                 financial practices, transactions, and procedures uncovered a
                                 significant pattern of errors since FY 1998. Specifically, adequate
                                 internal controls were not in place; policies, procedures, and
                                 regulations were not adhered to; multiple errors occurred in the
                                 FY 1999 trust fund data; questionable expenditures were made;



                                                                    Commerce OIG Semiannual Report
46                                                                                     March 2000
                                                            International Trade Administration


       unliquidated obligations were not deobligated; personnel matters
       were not handled appropriately; and relationships with the
       embassy’s Budget and Fiscal Office and Personnel Office
       deteriorated. These problems had two primary causes: First,
       successive management groups paid little or no attention to
       administrative and financial operations. Second, the absence of
       staff due to long-term leave and the inadequate training of the
       remaining staff left the post’s administrative group temporarily
       short-handed.

l      Controls and oversight for credit card purchases were
       inadequate. ITA has not implemented adequate controls over the
       use of credit cards to ensure that overseas posts stay within funds
       authorization limits, expenditures are charged against the
       appropriate accounts, only acceptable expenditures are charged,
       and procurement regulations are followed. Recent changes by
       ITA’s Office of Financial Management, instructing posts to
       forward credit card statements directly to the processing center in
       Denver, thus bypassing Washington, leave serious oversight gaps.
       Without receiving post credit card statements, neither the Office of
       Financial Management nor US&FCS headquarters can ensure that
       correct accounting classifications have been applied to itemized
       expenditures and that posts have not exceeded authorizations. In
       reviewing statements for US&FCS France, we found many
       expenditures that had not been authorized by headquarters for
       payment by credit card.

l      Reorganization needed to account for vacancies and officer
       reassignment. US&FCS France needed to reorganize its per-
       sonnel and functions in light of resignations, extended vacancies in
       key positions, current overstaffing in the administrative group, and
       the reassignment of one of the US&FCS Paris officers to
       Toulouse. Other staffing adjustments were needed to address the
       attrition of staff within the industry groups, the SCO’s and Deputy
       SCO’s offices, and the Commercial Information Center. Finally,
       staff at US&FCS France’s three constituent posts (Lyon,
       Marseilles, and Strasbourg) were being underutilized. Given these
       factors, we proposed a reorganization of the post’s personnel,
       functions, and reporting relationships. US&FCS France has since
       expanded, improved upon, and implemented our proposal.

l      Post staff morale and credibility with other embassy elements
       have been damaged. US&FCS headquarters took a number of
       interim steps to try to deal with some of the management


Commerce OIG Semiannual Report
March 2000
                                                                                           47
International Trade Administration


                                 problems at the post. However, considerable damage had already
                                 been done to staff morale and the post’s credibility with the
                                 embassy’s budget, finance, and personnel offices, and with top
                                 embassy officials. According to post staff, junior officers, and
                                 headquarters officials, previous management groups were
                                 inadequately engaged in post operations and, when they were
                                 engaged, set unrealistic goals, communicated poorly with the staff,
                                 and failed to provide adequate guidance. While US&FCS
                                 headquarters’ actions were ultimately unsuccessful, they were
                                 measured responses that eventually supported more serious steps
                                 taken later. We made a number of recommendations to address
                                 the remaining management problems, including measures designed
                                 to improve the new post leadership’s communication with the
                                 staff, strengthen its planning and performance measurement, and
                                 increase US&FCS headquarters’ near-term monitoring of the
                                 post’s internal operations.

                               US&FCS officials said that our draft report was a useful, compre-
                         hensive review of the post’s recent problems and an excellent tool for new
                         post management and headquarters to use in addressing the problems. The
                         agency agreed with most of our recommendations and noted that signifi-
                         cant progress had been made in implementing them. (Office of Inspections
                         and Program Evaluations: IPE-12428)

                         Y2K Risk of Interrupted Operations Was Low,
                         but Day One Planning Needed Improvements

                               The OIG conducted a review of ITA’s efforts to reduce the risk of
                         business interruptions in the event that its computer systems’ were unable
                         to accommodate the Y2K century change. Specifically, we examined ITA’s
                         Day One plan for managing the critical period from December 30, 1999,
                         through January 4, 2000, and its contingency plans for continuing opera-
                         tions in the event of computer system failures. Our review reached the
                         following conclusions:

                         l       The risk of interrupted service was low. ITA’s risk of business
                                 interruption due to Y2K system failures was generally low because
                                 most of the activities supported by computers were not time
                                 critical and, for most potential failures, bureau staff could revert to
                                 other computers or manual operations without significantly
                                 degrading performance.




                                                                    Commerce OIG Semiannual Report
48                                                                                     March 2000
                                                              International Trade Administration


l       The Message Processing System contingency plan needed to be
        completed. This system, which sends and receives cables via the
        State Department’s cable services, is an important means of
        communication for ITA headquarters and worldwide offices.
        Contingency plans for this system involved relying on the services of
        two other federal telecommunications facilities. Yet, at the time of our
        review, a memorandum of understanding with these facilities to
        formalize the contingency arrangements had not been completed.

l       The Day One plan needed to be updated and validated. ITA’s
        plan did not contain the level of detail necessary to carry out an
        effective Day One strategy, although the bureau said it was updating
        its plan with more details. Moreover, ITA needed to validate its plan
        through an independent review to ensure that it would work properly.

      We made several recommendations to address the weaknesses we
identified. ITA agreed to implement our recommendations before the Y2K
century change, and its information technology systems experienced no Y2K-
related problems. (Office of Systems Evaluation: OSE-12550)

Two Former US&FCS Employees Convicted
of Scheme to Defraud the Government

      Two former employees of US&FCS’s Eastern Regional Office in
Baltimore were convicted of making false statements to the government after
an OIG investigation revealed their participation in a scheme to defraud the
government by submitting nearly $12,000 in false travel vouchers and falsify-
ing documents in an attempt to obtain $1,500 cash awards. Both employees
resigned from federal service during the investigation. They were each
sentenced in the U.S. District Court for the District of Maryland to 3 years’
probation, and ordered to make full restitution to the Department. (Washing-
ton Field Office of Investigations)

ITA Employee Reprimanded for Accepting Gifts

     An international trade specialist received an official reprimand when an
OIG investigation disclosed that over a two-year period he had repeatedly
accepted meals and gifts from individuals whose business interests were
subject to his official actions. (Silver Spring Field Office of Investigations)




Commerce OIG Semiannual Report
March 2000
                                                                                             49
                                       Minority Business
                                       Development Agency

The Minority Business                  Audit of FY 1999 Financial Statements
Development Agency was
created to help minority-owned               An IPA firm under contract to us issued an unqualified opinion on
and operated businesses achieve        MBDA’s FY 1999 financial statements, the fourth consecutive year for
effective and equal participation in   which an unqualified opinion was received. The firm’s audit disclosed no
the American free enterprise
                                       material weaknesses in MBDA’s internal control structure, but did identify
system, and overcome the social
and economic disadvantages that        the following two reportable conditions:
have limited their participation in
the past. MBDA provides                l       Controls over the preparation of the statement of budgetary
management and technical                       resources need improvement to ensure that the amounts reported
assistance to minority firms upon              in the financial statements are accurate and supported.
request, primarily through a
network of business development        l       Controls over grant expenditure accruals need improvement to
centers. It also promotes and
                                               ensure that amounts are properly identified and computed.
coordinates the efforts of other
federal agencies in assisting or
providing market opportunities for           The firm did not identify any instances of noncompliance with laws
minority businesses.                   or regulations. (Financial Statements Audits Division: FSD-11888-0-
                                       0001)

                                       Internal Controls over Bankcard Use Are Sound

         Minority Business                   As part of its periodic reviews of Commerce units’ use of bankcards,
           Development                 the OIG conducted an audit to determine whether MBDA was using its
              Agency                   bankcards in accordance with federal and departmental requirements.
                                       During FY 1998, MBDA headquarters completed 462 bankcard trans-
  Finance and            Strategic     actions for a total of $361,192. We selected a random sample of 60
 Administration          Planning
                                       transactions, or 13 percent of the total, to test for errors in cardholder
                                       records.
   Program               External
  Development             Affairs           We found no prohibited transactions or other improper actions.
                                       Cardholders stayed within their purchase limits, approvals were properly
                                       documented, no transactions were split to avoid single purchase limits,
                                       competitive bidding was sought when required, and cardholders properly
                                       secured their cards to prevent unauthorized use.

                                             We also found, however, that during FY 1998, MBDA’s acting head
                                       contracting officer did not conduct the full annual review of card use
                                       required under the Commerce Acquisition Manual. Instead, he performed
                                       only limited procedures to determine whether authorizing officials had
                                       properly approved selected transactions. We recommended that in the
                                       future, complete annual reviews of bankcard use be conducted. MBDA
                                       agreed to implement our recommendation. (Business and Trade Audits
                                       Division: BTD-12022-0-0001)


                                                                                 Commerce OIG Semiannual Report
50                                                                                                  March 2000
         National Oceanic and
    Atmospheric Administration

Audit of FY 1999 Financial Statements                                          The National Oceanic and
                                                                               Atmospheric Administration
      For FY 1999, NOAA received, for the first time, an unqualified           studies climate and global change;
opinion on all of its financial statements. This is an especially noteworthy   ensures the protection of coastal
achievement considering that in FY 1998 the bureau had received a              oceans and the management of
disclaimer of opinion on the Statements of Net Cost, Changes in Net            marine resources; provides
Position, Budgetary Resources, and Financing.                                  weather services; and manages
                                                                               worldwide environmental data. It
                                                                               does this through the following
      We commend NOAA management and staff on the significant                  organizations:
progress made in strengthening financial management. The results of the        National Weather Service. NWS
FY 1999 audit, which identified only 4 reportable conditions and no            reports the weather of the United
material weaknesses, are in marked contrast to the results of the FY 1997      States and provides weather
audit, which identified 17 reportable conditions, 6 of which were material     forecasts and warnings to the
weaknesses, and the FY 1998 audit, which identified 7 reportable condi-        general public.
tions, of which 2 were material weaknesses.                                    National Ocean Service. NOS
                                                                               issues nautical and aeronautical
                                                                               charts; performs geodetic surveys;
     The four reportable conditions were as follows:
                                                                               conducts research; and develops
                                                                               policies on ocean mining and
l       Accounting for construction work-in-progress should be improved.       energy.
                                                                               National Marine Fisheries
l       Information technology processing access control weaknesses and        Service. NMFS conducts a
        other financial system deficiencies should be addressed.               program of management,
                                                                               research, and services related to
                                                                               the protection and rational use of
l       Controls over monitoring the budget should be improved.
                                                                               living marine resources.
                                                                               National Environmental Satellite,
l       Interagency agreement policies and procedures should be                Data, and Information Service.
        followed.                                                              NESDIS observes the environment
                                                                               by operating a national satellite
     The IPA firm conducting the audit under contract to us also identified    system.
two instances of material noncompliance with laws and regulations:             Office of Oceanic and
                                                                               Atmospheric Research. OAR
                                                                               conducts research related to the
l       Capital leases were not fully funded during the year.                  oceans and inland waters, the
                                                                               lower and upper atmosphere,
l       The bureau’s financial accounting system does not substantially        space environment, and the Earth.
        comply with the Federal Financial Management Improvement Act           Office of Marine and Aviation
        of 1996 in that its financial management system does not support       Operations. OMAO operates
        the preparation of timely, accurate financial statements.              NOAA’s ships and aircraft and
                                                                               provides NOAA programs with
                                                                               trained technical and management
      We recognize NOAA’s commitment to preparing high quality, reli-
                                                                               personnel from the nation’s
able, and meaningful financial statements. While progress has been made        seventh uniformed service.
in many areas, NOAA needs to address the remaining reportable condi-
tions. We encourage NOAA’s management to maintain concerted efforts to
improve the internal control structure and the timely implementation of
corrective action.

Commerce OIG Semiannual Report
March 2000
                                                                                                              51
National Oceanic and Atmospheric Administration


                                              In connection with the FY 1999 audit, the IPA firm reviewed the
                                        general controls related to the information technology processing environ-
                    NOAA                ment associated with NOAA’s financial management systems in accor-
                                        dance with applicable sections of GAO’s Federal Information System
                                        Controls Audit Manual. The review identified weaknesses in five of the
     National               National
     Weather                Ocean       six review areas set forth in the GAO Manual: (1) entitywide security
     Service                Service     program planning and management, (2) access control, (3) application
                                        software development and change control, (4) segregation of duties, and
    National                            (5) service continuity. Together, these weaknesses, if not resolved, could
 Marine Fisheries           NESDIS
     Service
                                        adversely affect the security of the data, programs, and hardware main-
                                        tained at NOAA and have a negative impact on both NOAA’s financial
 Oceanic and               Marine and
                                        statements and the Department’s consolidated statements. These weak-
 Atmospheric                Aviation    nesses, and the firm’s recommendations for correcting them, were dis-
  Research                 Operations   cussed in a separate report on systems issues. NOAA agreed with the IPA
                                        firm’s recommendations for addressing the identified weaknesses and
                                        stated that corrective actions would be taken. (Financial Statements
                                        Audits Division: FSD-11890-0-0001, FSD-11890-0-0002)

                                        NOAA Can Do More to Ensure Competition
                                        in Its Discretionary Funding Programs

                                              During this semiannual period, the OIG issued reports on its audits of
                                        the criteria, procedures, and practices for soliciting, reviewing, and select-
                                        ing applications in FY 1997 for awards under three NOAA discretionary
                                        financial assistance programs:

                                        l       Coastal Services Center (National Ocean Service).

                                        l       Undersea Research Program (Office of Oceanic and Atmospheric
                                                Research).

                                        l       Climate and Atmospheric Research Program (Office of Oceanic
                                                and Atmospheric Research).

                                             The audits were conducted as part of a Department-wide review of
                                        Commerce’s discretionary financial assistance programs. As discussed
                                        below, the three programs did not consistently follow competitive proce-
                                        dures in their awards processes.

                                        Coastal Services Center

                                            Through the Coastal Services Center, the National Ocean Service
                                        (NOS) provides financial assistance to universities, state and local govern-
                                        ments, and public nonprofit organizations to support projects aimed at

                                                                                    Commerce OIG Semiannual Report
52                                                                                                     March 2000
                                  National Oceanic and Atmospheric Administration


developing a science-based, multidimensional approach to improving
environmental quality and promoting the economic growth of the nation’s
coasts. During FY 1997, the center awarded a total of $2 million in three
program areas through seven new grants and one renewal to an existing
cooperative agreement.

      We found that NOS’s criteria, procedures, and practices for the
solicitation, review, and selection of applications for funding under its
information resources program area and its coastal and environmental
technology commercialization program area did not comply with statutory,
departmental, or NOAA requirements. Specifically, NOS did not:

l       Develop and publish merit-based evaluation criteria against which
        applications for financial assistance could be reviewed.

l       Publish the required notice in the Federal Register announcing the
        availability of funding, soliciting applications, and specifying the
        criteria and process to be used in selecting awardees.

l       Comply with the requirements that all awards be made through a
        competitive review process, unless a waiver is obtained, and that
        the process meet certain minimum departmental standards.

     In addition, the two awards made in these areas were made on a sole
source basis without appropriate supporting documentation.

     NOS generally followed competitive procedures in making six awards
in FY 1997 under the coastal management fellowship program area,
although it failed to maintain panel members’ review forms and other
documentation as required.

       Not following required competitive procedures increases the potential
for NOS to make questionable or inappropriate noncompetitive awards.
The agency also risks forgoing the receipt of research proposals from a
broad range of eligible applicants and may thereby miss out on opportuni-
ties to improve the quality and effectiveness of its programs.

     We also found that NOAA’s Grants Management Division did not
question either NOS’s lack of competitive award procedures or the
appropriateness of the justifications for its noncompetitive awards.

     One of our recommendations was that NOS ensure that Coastal
Services Center awards are made through a competitive, merit-based
process, unless otherwise mandated by law or adequately justified. We

Commerce OIG Semiannual Report
March 2000
                                                                               53
National Oceanic and Atmospheric Administration


                       provided specific guidance on the elements that should be included in such
                       a process. We also recommended that panel members’ review forms and
                       other important aspects of the selection process be adequately docu-
                       mented. Finally, we recommended that the Grants Management Division
                       require that grants officer reviews of proposed noncompetitive awards
                       include procedures designed to objectively determine compliance with
                       Department and NOAA competitive requirements.

                             NOAA generally agreed with our recommendations and stated that it
                       is reviewing all financial assistance programs to determine which noncom-
                       petitive awards can be competed. (Atlanta Regional Office of Audits:
                       ATL-11000-0-0001)

                       Undersea Research Program

                             Through its Undersea Research Program, the Office of Oceanic and
                       Atmospheric Research (OAR) funds advanced undersea exploration,
                       sampling, observation, and experimentation to promote the wise use of
                       oceanic, coastal, and large lake resources. During FY 1997, the program
                       awarded four new grants and nine renewal and supplemental amendments
                       to existing grants, for a total of nearly $10.9 million. All 1997 awards were
                       made noncompetitively in response to unsolicited proposals.

                             We found that OAR’s criteria, procedures, and practices for the
                       solicitation, review, and selection of Undersea Research Program award
                       recipients did not fully comply with departmental requirements. Instead of
                       administering the program as a competition-based financial assistance
                       program, as required by departmental guidance, OAR selected the awards
                       on a sole-source, noncompetitive basis without the required justifications
                       to support such actions. Our primary findings were similar to those
                       discussed above in reference to the Coastal Services Center program.
                       Specifically, OAR did not:

                       l       Develop and publish merit-based evaluation criteria against which
                               applications for financial assistance could be reviewed.

                       l       Publish the required notice in the Federal Register, specifying the
                               criteria and process to be used in selecting awardees.

                       l       Comply with the requirements that all awards be made through a
                               competitive review process that meets departmental standards.




                                                                  Commerce OIG Semiannual Report
54                                                                                   March 2000
                                  National Oceanic and Atmospheric Administration


      The effects of OAR’s failure to follow competitive procedures are
the same as those discussed above—namely, an increase in the potential
for making questionable awards and a loss of the opportunity to increase
the program’s effectiveness.

     And we again found that the Grants Management Division did not
question OAR’s lack of competitive procedures or the validity of the
noncompetitive awards.

      Our major recommendation for the Undersea Research Program was
the same as for the Coastal Services Center: OAR should ensure that
program awards are made through a competitive merit-based process,
unless otherwise mandated by law or adequately justified, and that the
award process complies with Department policies and procedures. More-
over, we again recommended that the NOAA Grants Management
Division’s reviews of proposed noncompetitive awards include procedures
designed to determine compliance with competitive requirements.

      In response to our report, NOAA expressed its commitment to
ensuring that its discretionary programs are consistent with departmental
policy, and agreed with our recommendation that proposed noncompetitive
awards be effectively reviewed. It disagreed, however, with our conclu-
sions and recommendations regarding awards made under the Undersea
Research Program, contending that the program does not operate as a true
discretionary program because its existence is entirely attributable to
congressional action. In addition, the agency stated that such factors as an
applicant’s specialized facilities or equipment, or substantial project
investment, are valid reasons for noncompetitive selection.

      With respect to NOAA’s assertions, we note that the FY 1997
appropriations process did not allocate program funds to any specific
recipients, which indicates that the agency’s authority to independently
determine the recipients and funding levels for program awards was not so
severely limited as to effectively eliminate its discretion. At the same time,
we recognize that departmental policy allows for noncompetitive awards
under certain circumstances. However, the awards we questioned were not
justified by such circumstances, but by the unsupported rationale that each
recipient was the only source that could meet program requirements.
(Atlanta Regional Office of Audits: ATL-11654-0-0001)




Commerce OIG Semiannual Report
March 2000
                                                                                 55
National Oceanic and Atmospheric Administration


                       Climate and Atmospheric Research Program

                             Through the Climate and Atmospheric Research Program, OAR
                       provides financial assistance to improve the nation’s ability to observe,
                       understand, predict, and respond to changes in the global environment. In
                       FY 1997, OAR made 169 awards for $35.1 million. We examined 92 of
                       these awards, totaling $28.8 million. On a positive note, we found that
                       OAR had appropriate merit-based procedures for evaluating proposals that
                       were consistent with the objectives of the competitive program, used an
                       application solicitation process that was adequate to obtain a nationwide
                       response, and developed review and selection procedures that, if followed,
                       were sufficient to provide a competitive, independent, and qualified review
                       of each application. However, we also noted that OAR:

                       l       Treated letters of intent like full proposals by evaluating them
                               against established criteria, but did not ensure that each letter of
                               intent received an independent, objective review by one or more
                               review panels consisting of at least three people.

                       l       Did not consistently follow established procedures in evaluating
                               and documenting application reviews, including the requirement to
                               adequately justify decisions to fund lower-rated proposals over
                               higher-rated ones.

                       l       Did not provide adequate written justifications for funding two
                               specific noncompetitive awards.

                             As a result, OAR cannot provide reasonable assurance that financial
                       assistance awards made under the program were merit based or that
                       NOAA’s policy of seeking maximum competition was met.

                              We recommended that OAR ensure that (1) all proposals, including
                       letters of intent, are independently and competitively evaluated, with
                       selection decisions justified and adequately documented in the proposal
                       files, (2) reasons for selecting lower-ranked proposals are thoroughly
                       explained and documented, and (3) documented market searches are
                       performed to verify that there is only one source for anticipated sole
                       source awards. Finally, having again found the NOAA Grants Management
                       Division’s oversight of the program to be inadequate, we made the same
                       recommendation that grants officer reviews of proposed noncompetitive
                       awards include procedures designed to determine compliance with com-
                       petitive requirements.




                                                                  Commerce OIG Semiannual Report
56                                                                                   March 2000
                                   National Oceanic and Atmospheric Administration


      NOAA agreed that its reviews of proposed awards under this pro-
gram should determine compliance with Department and NOAA competi-
tive requirements. However, it disagreed with our findings on application
review procedures and award justifications. It believes that OAR’s actions
were in compliance with NOAA and Department policy and responsive to
the research needs of the program. (Seattle Regional Office of Audits:
STL-10949-0-0001)

Internal Controls Over User Fees
Needed Improvement

      NOAA receives most of the funding needed to support its programs
from no-year appropriations and user fees, which are levied on individuals
or businesses directly benefitting from, or subject to regulation by, a
government program or activity. User fees are levied under the principle
that those who receive benefits from governmental services beyond those
that accrue to the general public should bear the cost of providing the
services. For example, the National Ocean Service sells nautical charts to
mariners, the National Weather Service sells weather data to the private
sector, and the National Marine Fisheries Service charges the seafood
industry for voluntary inspection and certification services.

      The OIG conducted an audit to determine whether NOAA was
appropriately reviewing, charging, and reporting its user fees. However,
because NOAA could not provide accurate and complete accounting
information about its user fee activities, we limited our audit to an evalua-
tion of the bureau’s accounting controls for its user fees and its biennial
review process. Our specific findings were as follows:

l       NOAA needs to ensure that it has accurate, complete
        information on user fees. NOAA could not provide information
        from a central source on all of its products and services subject to
        user fees. Instead, the information was provided piecemeal from
        10 organizations within four or five of NOAA’s line offices, and
        much of the information provided was incomplete and inaccurate.
        Without accurate, complete, and timely accounting information
        regarding its user fee activities, NOAA can neither ensure that
        decisions affecting the efficiency and effectiveness of its opera-
        tions are made on a sound basis nor adequately disclose the extent
        of its user fee activities in such decision-making tools as its annual
        financial statements.




Commerce OIG Semiannual Report
March 2000
                                                                                 57
National Oceanic and Atmospheric Administration


                       l       NOAA needs to enforce its biennial review policies and
                               procedures. The CFO Act and OMB Circular A-25 require
                               federal agencies to review their user fees biennially and make
                               recommendations on revising the fees to reflect costs incurred.
                               Our audit revealed that the NOAA line offices reporting user fees
                               either did not perform thorough reviews or could not provide
                               adequate documentation that they had done so. The offices did
                               not comply with NOAA’s requirement that they submit to the
                               bureau’s Finance Office complete lists of the special products and
                               services subject to user fees, and the Finance Office did not
                               conduct the required random audits of unit prices included on the
                               lists submitted by the line offices. Unless these policies and
                               procedures are followed, NOAA, the administration, and the
                               Congress cannot be assured that the bureau’s user fees are
                               sufficient to recover the full cost to the government of providing
                               the products or services.

                              We recommended that NOAA revise its policies and procedures to
                       require each line and staff office to submit annually to the Finance Office a
                       list of all special products and services, as well as certain information
                       concerning such products and services, and a statement certifying the
                       accuracy and completeness of the information. We also recommended that
                       NOAA enforce federal and bureau requirements regarding the biennial
                       reviews of user fees, lists of products and services subject to user fees,
                       and random audits. NOAA generally agreed with our recommendations
                       and stated that the Finance Office is revising its policies and procedures to
                       ensure compliance with requirements. (Science and Technology Audits
                       Division: STD-11881-0-0001)

                       Former Senior Executive Convicted
                       of Witness Tampering in EEO Matter

                             In October 1999, a senior NOAA employee was convicted of two
                       misdemeanor counts of tampering with a witness, after he paid $1,000 to
                       the complainant in a sexual harassment matter in an effort to persuade her
                       to withdraw her equal employment opportunity complaint against him.
                       Under the terms of a plea agreement, the employee also agreed to resign
                       immediately from federal service.

                             The conviction was the result of a joint OIG/FBI investigation,
                       initiated when the complainant reported to the OIG that the senior
                       employee had offered to give her whatever she wanted if she would tell
                       the EEO counselor handling her complaint that she had lied about the
                       alleged harassment. When he contacted her again about the matter, the

                                                                  Commerce OIG Semiannual Report
58                                                                                   March 2000
                                 National Oceanic and Atmospheric Administration


complainant agreed to accept $1,000, and a meeting was arranged. Imme-
diately after passing the cash to the complainant, the senior employee was
arrested by OIG and FBI agents who were monitoring the transaction.
Further investigation revealed that he had also attempted to dissuade
another employee from testifying against him in the EEO proceeding. On
February 14, 2000, he was sentenced in U.S. District Court for the District
of Columbia to 5 years’ probation, 6 months’ monitored home detention, a
$2,000 fine, and 100 hours of community service. (Silver Spring Field
Office of Investigations)

National Weather Service Had Low Risk
of Y2K Disruptions and Was Well Prepared

      In reviewing the National Weather Service’s efforts to prepare its
computer systems for the Y2K century change, we found that its risks of
Y2K-induced interruptions were low for three reasons: First, weather
systems rarely use data that includes a year. Second, NWS had experience
in using its well-documented, in-depth contingency plans for maintaining
continuous operations. Third, NWS had adequately tested its ability to
receive and send weather data both internally and with the domestic and
international partners with whom it exchanges data. Moreover, NWS’s
eight national mission-critical systems—which had undergone thorough
testing and retesting—were not due for upgrades before the end of the
year, and the four systems it uses to notify the public of severe weather
conditions had been confirmed to be Y2K compliant.

      The greatest Y2K risk that we identified was the possible loss of
international weather data from countries at risk of Y2K failures. How-
ever, NWS had developed contingencies, including alternate data sources
and transmission paths, to compensate for the loss of this data. Because
we found no significant weaknesses in NWS’s Y2K program, we made no
recommendations. (Office of Systems Evaluation: OSE-12313)

Internal Controls over Research Facilities’
Bankcard Programs Need Improvement

     As part of its periodic review of Commerce units’ use of bankcards,
the OIG conducted audits of the bankcard programs of several NOAA
research facilities. One audit examined bankcard transactions at the
Southeast Fisheries Science Center sites in Miami and Panama City,
Florida. A second audit looked at transactions at two environmental




Commerce OIG Semiannual Report
March 2000
                                                                              59
National Oceanic and Atmospheric Administration


                       research laboratories in Boulder, Colorado—the Space Environment
                       Center and the Environmental Technology Laboratory. We reviewed a
                       random sample of FY 1998 transactions at both sets of facilities.

                             Our audits found deficiencies in each of the facilities’ implementation
                       of the bankcard program, resulting in weaknesses in internal controls and
                       instances of noncompliance with federal and departmental requirements.
                       The following deficiencies were noted both at the fisheries science center
                       sites and at the Boulder labs:

                       l       Not all cardholders were using the required purchase order log for
                               bankcard transactions.

                       l       Cardholders were not always obtaining or documenting the
                               required preapproval of bankcard purchases.

                       l       Cardholders were not always properly controlling and accounting
                               for accountable property purchased with bankcards.

                       l       Not all cardholders were storing their bankcards in a secure
                               location.

                       l       Many cardholders had not received the required training on the
                               use of bankcards.

                            At the fisheries science center sites, the controls over accountable
                       property were so seriously inadequate that officials could not account for
                       65 pieces of computer equipment worth a total of $293,000. We also
                       found that some of the center’s cardholders had allowed unauthorized
                       persons to use their bankcards, some bankcard purchase records were
                       missing, and some cardholders had failed to routinely request a sales tax
                       exemption. Moreover, the center needed to reassess the status of 10
                       cardholders who did not use their bankcards during FY 1998.

                              The Boulder labs lacked controls to prevent cardholders from
                       splitting bankcard purchases, as well as controls for bankcard purchases
                       related to contracts with other federal agencies.

                            We made recommendations to address the internal control weak-
                       nesses we identified. NOAA agreed with all of our findings and recommen-
                       dations. It also reported that the 65 pieces of unaccounted for computer
                       equipment had been located and the property records reconciled. (Atlanta
                       Regional Office of Audits: ATL-11860-0-0001; Denver Regional Office of
                       Audits: DEN-11627-0-0001)

                                                                  Commerce OIG Semiannual Report
60                                                                                   March 2000
                                   National Oceanic and Atmospheric Administration


Nonfederal Audit Did Not Disclose
Certain Reportable Conditions

      The OIG performed a quality control review of an audit conducted
by a nonfederal auditor of a Florida nonprofit organization that conducts
scientific research to promote the development of commercial fisheries in
the Gulf of Mexico and South Atlantic Ocean. The organization’s primary
support consists of NOAA awards and contracts, which totaled approxi-
mately $892,000 in the year ended June 30, 1998. As the oversight agency
for the organization, we performed our review to determine whether the
audit was conducted in accordance with government and generally
accepted auditing standards and whether the audit report met the require-
ments of OMB Circular A-133.

      Our review found that although the auditor’s working papers sup-
ported the audit report, the audit did not disclose certain reportable condi-
tions relating to the administration of federal awards and federal financial
reporting. Specifically, the auditor did not disclose that the organization had
an ineffective cost allocation system; had an ineffective time tracking
system; and did not properly identify the various awards and contracts
received from NOAA and failed to make an accounting distinction between
the financial assistance awards and fixed-price contracts.

      We recommended that, in future audits, the auditor disclose report-
able conditions for all ineffective internal controls over major programs
and financial reporting, and evaluate whether the reportable conditions
should be classified as material weaknesses. The auditor did not agree that
there were any reportable conditions concerning the organization’s internal
controls over financial reporting. The auditor asserted that, based on the
terms incorporated in the NOAA awards and contracts, the funds were
properly expended and outcomes were accomplished and reported to the
satisfaction of NOAA. We continue to maintain that the inadequate cost
allocation and time tracking systems were reportable conditions that should
have been disclosed.

      We also recommended that NOAA (1) decide whether to fund the
organization’s indirect costs, which are being inaccurately reported as
direct costs, and (2) direct the organization to submit an indirect cost
allocation plan to the OIG for approval and require that effective systems
for allocating costs and tracking employees’ time be implemented before
making any future awards to the organization. (Atlanta Regional Office of
Audits: ATL-11936-0-0001)




Commerce OIG Semiannual Report
March 2000
                                                                                  61
National Oceanic and Atmospheric Administration


                       NOAA Cooperates with Other Agencies in
                       Hurricane Research and Forecasting

                             The OIG conducted a survey to determine the breadth of coordina-
                       tion and cooperation among federal and nonfederal agencies in hurricane
                       research and forecasting. Specifically, we sought to determine whether the
                       results of hurricane research being conducted outside of NOAA are being
                       used to improve the accuracy and timeliness of National Weather Service
                       forecasts.

                             In reviewing the activities of NOAA’s Office of the Federal Coordina-
                       tor for Meteorological Services and Supporting Research, we found that
                       coordination and cooperation do exist between NOAA and the other three
                       major federal agencies that conduct hurricane research and forecasting—
                       the National Science Foundation, the National Aeronautics and Space
                       Administration, and the Navy.

                             The Office of the Federal Coordinator oversees the implementation
                       of hurricane research through the National Hurricane Operations Plan and
                       hosts the annual Interdepartmental Hurricane Conference to provide a
                       forum for federal agencies and representatives of user communities to
                       review the nation’s hurricane forecast and warning program. Other confer-
                       ences, such as the National Hurricane Conference, provide forums for
                       federal and nonfederal agencies to share information. In addition, federal
                       agencies have representatives on the Office of the Federal Coordinator’s
                       committees, and both federal and nonfederal agencies are represented on
                       working groups of NOAA’s U.S. Weather Research Program.

                             Because our survey revealed no significant problems, we closed out
                       the assignment without issuing an audit report. (Denver Regional Office of
                       Audits)

                       Employee Sentenced for Imprest Fund Theft

                            In the September 1999 issue (see page 54), we reported on the theft
                       conviction of a former NOAA employee who had obtained more than
                       $7,000 from an agency imprest fund by submitting 57 false vouchers for
                       payment. On December 17, 1999, she was sentenced in U.S. District
                       Court for the District of Maryland to 3 years’ probation, and ordered to
                       make restitution to the Department in the amount of $7,175. (Financial
                       Fraud Division)




                                                                 Commerce OIG Semiannual Report
62                                                                                  March 2000
                                   National Oceanic and Atmospheric Administration


Meteorologist Suspended for
Conducting Private Business at Work

     An NWS supervisory meteorologist was suspended without pay for
two weeks as the result of an OIG investigation which found that he was
conducting a private business on official time using government computer
equipment. (Denver Field Office of Investigations)

Audit Reports Unresolved for Over Six Months

    As of March 31, 2000, two performance audit reports had recom-
mendations unresolved in excess of six months.

Light Aircraft Operations

      The first performance audit report, Light Aircraft Fleet Should Be
Privatized, STD-9952-8-0001 (see September 1998 issue, page 44),
recommended that NOAA cease operating its eight fixed-wing light aircraft
and three helicopters and release them, along with related spare parts. We
also recommended that NOAA discontinue all interagency reimbursable
work related to NOAA-owned fixed-wing light aircraft and helicopters. We
added that, pending discontinuance of the reimbursable work, NOAA
should complete current interagency agreements in accordance with its
policy of full cost recovery, revise its billing practices to achieve full cost
recovery, and seek reimbursement of the unrecovered full cost balances on
all pending reimbursable projects.

       NOAA did not concur with most of our findings and recommenda-
tions. NOAA believes that discontinuing use of the aircraft would compro-
mise its ability to continue uninterrupted data collection efforts required to
protect lives and property, and would increase the risk of accidents and the
cost of aircraft support. In addition, NOAA did not agree with our recom-
mendation to recover full costs, noting that cost sharing and waiving of
overhead costs are appropriate for interagency agreements that are benefi-
cial to NOAA, and that interagency agreements have proved to be cost-
effective in meeting some of its data collection needs. NOAA also believes
that our audit report overstated its aircraft costs by $1.3 million and that its
light aircraft are cost-competitive.

     After thoroughly reviewing NOAA’s audit action plan prepared in
response to our final report, we reaffirmed our conclusion that the full in-
house cost to operate NOAA’s fleet of 10 light aircraft averaged 42 percent



Commerce OIG Semiannual Report
March 2000
                                                                                   63
National Oceanic and Atmospheric Administration


                       more than the cost to contract for similar private-sector aircraft that can
                       provide equivalent services. We also reaffirmed our conclusion that
                       NOAA’s Aircraft Operations Center is not recovering the full cost of work
                       that it performs under reimbursable agreements with non-Commerce
                       government agencies.

                             NOAA officials subsequently entered into a consulting contract to
                       obtain an analysis of its aircraft fleet. The analysis included a review of
                       light aircraft costs and the costs to contract for similar private-sector
                       aircraft services and support. We have continued to work closely with
                       NOAA to resolve this matter, including providing comments on the
                       contractor’s draft report and meeting with the Director, Office of Marine
                       and Aviation Operations. Based on our meetings and the contractor’s
                       report, NOAA is redrafting its audit action plan.

                       NMFS Laboratory Structure

                              The second unresolved performance audit report, NMFS Laboratory
                       Structure Should Be Streamlined, STL-8982-8-0001 (see March 1998
                       issue, page 39), recommended closing several laboratory facilities and
                       transferring their programs and personnel to other NMFS laboratories in
                       order to streamline operations and achieve related cost savings. We also
                       recommended that one laboratory and most of its programs be transferred
                       to the state of Maryland, and that the proposed Santa Cruz, California,
                       facility be expanded to accommodate programs and personnel from
                       another California laboratory. In addition, we differed with NMFS’s plans
                       to transfer some programs from a Seattle laboratory to the proposed Auke
                       Cape facility in Alaska.

                             NOAA disagreed with our findings and recommendations. At our
                       request, NOAA submitted a revised audit action plan in November 1998,
                       but did not change its initial position. We have continued to explore options
                       to resolve our differences. With one exception, we have agreed that it is
                       not feasible at this time for NOAA to implement our original recommenda-
                       tions. As appropriate, we will revisit the issue of enhancing the efficiency
                       of the NMFS laboratory structure. For one laboratory, the La Jolla Labora-
                       tory, we continue to be concerned about its structural safety. NOAA has
                       agreed to have the Department’s Office of Real Estate Policy and Major
                       Programs make an assessment of that facility. We are awaiting the results
                       of the assessment, which is scheduled for April 2000.




                                                                   Commerce OIG Semiannual Report
64                                                                                    March 2000
     National Telecommunications
    and Information Administration

Audit of FY 1999 Financial Statements                                           The mission of the National
                                                                                Telecommunications and
      In an audit conducted by an IPA firm under contract to us, NTIA           Information Administration is to
received an unqualified opinion on its FY 1999 financial statements,            (a) serve through the Secretary of
representing the bureau’s sixth straight year of unqualified opinions. The      Commerce as the principal
audit identified no reportable conditions or instances of material noncom-      executive branch advisor to the
pliance with laws or regulations. (Financial Statements Audits Division:        President on domestic and
                                                                                international communications and
FSD-11891-0-0001)
                                                                                information policies, (b) ensure
                                                                                effective and efficient federal use
Tribe Violated Procurement Procedures in                                        of the electromagnetic spectrum,
Managing Award to Establish Radio Station                                       (c) develop with other federal
                                                                                agencies policies for international
                                                                                communications and standards-
      In 1995 NTIA awarded a Public Telecommunications Facilities               setting organizations, (d) serve as
Program grant for $297,985 to a Native American tribe to establish a            the federal telecommunications
noncommercial, educational FM broadcast station on a reservation in             research and engineering center,
Wyoming. The award period was from September 1, 1995, through                   and (e) administer grants under
July 31, 1999, at the time of our review, but was later extended to             the Telecommunications and
October 31, 2000. The grant required the tribe to provide a $99,329             Information Infrastructure
matching share, bringing the total estimated project cost to $397,314.          Assistance Program and the
                                                                                Public Telecommunications
                                                                                Facilities Program.
     An OIG audit of the grant found that the tribe’s accounting and
financial management systems were insufficient to properly administer the
award. Our specific findings were as follows:

l       Violations of procurement procedures resulted in questioned
        costs. We questioned a total of $84,404 because the tribe (1) did
        not use competitive procurement procedures for selecting the
        project engineer or justify why such procedures were not used,
        (2) purchased equipment from sole source vendors without
        justification, (3) purchased equipment from other than the low
        bidder without a documented justification, and (4) paid for a radio
        tower that has not yet been erected.

l       Inadequate disbursement controls. The tribe made two dis-
        bursements totaling $181,228 without supporting documentation.
        These actions contradicted the internal control policies set forth in
        the tribe’s personnel and procurement manual.

l       Inadequate equipment controls. Contrary to its manual, the
        tribe did not conduct an annual inventory of project equipment
        and did not have adequate internal controls to safeguard the
        equipment. In fact, we observed that most of the equipment was
        in the possession of a construction company that was owed
        money by the tribe under a contract, and some of the equipment

Commerce OIG Semiannual Report
March 2000
                                                                                                                 65
National Telecommunications and Information Adminstration


                                                        was exposed to the elements, at risk of damage. NTIA later
                                                        informed us that the equipment had been installed and was in use
                   NTIA                                 at the radio station.

                                  Policy
                                                We recommended that NTIA disallow $84,404 of questioned costs and
  Spectrum                                      seek recovery of $63,303 of excess federal disbursements. Because of the
                                Analysis and
 Management
                                Development     deficiencies in the tribe’s internal control structure, we also recommended
                                                that any remaining grant funds be disbursed only through the reimburse-
 Telecom. and                   Institute for   ment method of payment. Finally, we recommended that NTIA, as a
  Information                    Telecom.
 Applications                    Sciences       condition for any future award, require the tribe to use its documented
                                                system of internal controls. (Denver Regional Office of Audits: DEN-
                                                10736-0-0001)
                International
                   Affairs




                                                                                          Commerce OIG Semiannual Report
66                                                                                                           March 2000
                                          Patent and
                                    Trademark Office

Audit of FY 1999 Financial Statements                                         The Patent and Trademark Office
                                                                              administers the nation’s patent and
      In an audit conducted by an IPA firm under contract to us, PTO          trademark laws. Patents are
received an unqualified opinion on its FY 1999 financial statements,          granted, and trademarks
marking the sixth straight year of unqualified opinions for the bureau. The   registered, under a system
firm found no reportable conditions related to PTO’s internal control         intended to provide incentives to
structure, and its tests of compliance with laws and regulations disclosed    invent, to invest in research, to
no instances of noncompliance.                                                commercialize new technology,
                                                                              and to draw attention to inventions
                                                                              that would otherwise go unnoticed.
      In connection with the FY 1999 audit, the firm performed a follow-      PTO also collects, assembles,
up review of the general controls related to the information technology       publishes, and disseminates
processing environment associated with PTO’s Revenue Accounting and           technological information disclosed
Management System in accordance with applicable sections of GAO’s             in patents.
Federal Information System Controls Audit Manual. The review identified
additional opportunities for improvement, as weaknesses continued to exist
in four of the six review areas set forth in the GAO Manual: (1) entitywide
security program planning and management, (2) access control, (3) system
software, and (4) service continuity.

      These types of weaknesses would normally affect the security of the
data, programs, and hardware maintained at PTO and have a negative
impact on both PTO’s financial statements and the Department’s consoli-
dated statements. However, PTO has strong controls to compensate for
these weaknesses, so the firm did not consider them to constitute a
reportable condition in its Report on Internal Control.

      The weaknesses, and the IPA firm’s recommendations for correcting
them, were discussed in a separate report on systems issues. PTO agreed
with the recommendations for addressing the identified weaknesses and
stated that corrective actions would be taken. (Financial Statements
Audits Division: FSD-11893-0-0001, FSD-11893-0-0002)

Y2K Continuity and Contingency Plan Was
Sound, but More Risk Mitigation Was Needed

       In December 1999, the OIG issued the second of two reports on
PTO’s Y2K readiness efforts. The first report addressed PTO’s renova-
tion, replacement, and testing of selected critical systems (see September
1999 issue, page 60). The second report examined the bureau’s business
continuity and contingency plan.

     BCCPs are designed to safeguard an agency’s ability to produce a
minimum acceptable level of outputs and services in the event of failures
of mission-critical information systems and services. They also link risk

Commerce OIG Semiannual Report
March 2000
                                                                                                              67
Patent and Trademark Office


                                       management and mitigation efforts to the agency’s Y2K program and help
            Patent and                 to identify alternative resources and methods needed to operate the
            Trademark                  agency’s core business processes.
              Office

   Assistant            Assistant
                                             We concluded that PTO had prepared a comprehensive Y2K BCCP,
 Commissioner        Commissioner      but the plan needed several additional elements to better ensure continuity
  for Patents        for Trademarks    of operations and services should Y2K problems arise. Specifically we
                                       found that:
  Associate                 Chief
 Commissioner            Information
   and CFO                  Officer    l       Minimum acceptable levels of outputs and services needed to be
                                               documented.

                                       l       Specific sources and milestone dates for acquiring BCCP
                                               resources needed to be identified.

                                       l       Test plans needed to be further developed, test teams established,
                                               and tests executed to validate contingency plans.

                                       l       Risk mitigation procedures were needed for high-risk periods.

                                       l       The BCCP needed to be reviewed for potential legal issues.

                                             PTO took actions to implement all of our recommendations for
                                       strengthening its BCCP. (Office of Systems Evaluation: OSE-11693-2)

                                       Trademark Trial and Appeal Board Is Taking
                                       Actions to Reduce Its Large Case Inventory

                                             The OIG conducted an audit of PTO’s Trademark Trial and Appeal
                                       Board to assess how well it has managed its caseload and determine how
                                       best to reduce its large inventory of cases. As of May 1999, pending cases
                                       at the board totaled 12,300, up from about 8,000 at the end of FY 1995.
                                       Meanwhile, the time taken to process a case had increased from 22.5 to
                                       43 weeks. The large case inventory resulted from several factors, including
                                       an increase in issued trademarks, case requirements and workload assign-
                                       ments, performance standards for board attorneys, and the quality of
                                       administrative assistance.

                                            Board officials had already initiated or considered corrective actions
                                       on these issues, in part based on the actions taken by PTO’s Board of
                                       Patent Appeals and Interferences in response to a 1998 OIG audit (see
                                       September 1998 issue, page 64). Among these actions were hiring more
                                       judges and attorneys, delegating signatory authority to lower level staff,
                                       delegating some work done by attorneys to paralegals, having certain

                                                                                  Commerce OIG Semiannual Report
68                                                                                                  March 2000
                                                                      Patent and Trademark Office


actions adjudicated by one judge rather than a three-judge panel, develop-
ing mechanisms to obtain performance data on legal assistants, and hiring a
manager to relieve the Chief Judge of some of his considerable administra-
tive duties.

     As a result of the comprehensive actions being taken by the board,
we concluded our audit without issuing a report. In a December 16, 1999,
memorandum to the PTO Commissioner, we did, however, make two
suggestions to expand on actions already in progress:

l       A lack of specific performance standards had contributed to a high
        inventory of cases involving motions for summary judgment,
        which are complex, time-consuming matters for attorneys to
        handle. Because their performance plans did not dictate which
        type of motion takes priority, attorneys have tended to concentrate
        on processing simpler uncontested motions, thus delaying the
        disposition of summary judgment motions. We suggested that the
        board consider modifying attorney performance plans to promote
        the expeditious resolution of summary judgment cases.

l       The board’s strategic plan did not include specific goals for
        reducing the inventory to a manageable level. The Government
        Performance and Results Act specifies that an agency’s annual
        performance goals should define an objective, measurable target
        level of performance for each program activity. We suggested that
        the board modify its strategic plan to include specific goals for
        reducing the inventory and identify additional measures needed to
        meet the goals. (Business and Trade Audits Division)

Large Patent Preexamination Backlog
Eliminated and Cycle-Time Goal Met

      In an audit of the effectiveness of PTO’s Office of Initial Patent
Examination (OIPE), the OIG focused on determining the size of the
backlog of patent applications awaiting examination and the reasons for the
substantial increases in that backlog in late 1997. Our audit disclosed that
OIPE had completely eliminated the backlog as of December 1998,
thereby meeting its cycle-time goal of 30 days for the first time since 1995.
This represented a considerable achievement for OIPE since the backlog
had swelled to 90,000 applications as of November 1997, resulting in an
average cycle time of 141 days. Because of this dramatic improvement in
OIPE’s operations, we did not issue an audit report.




Commerce OIG Semiannual Report
March 2000
                                                                                              69
Patent and Trademark Office


                             In a December 7, 1999, memorandum to the PTO Commissioner,
                       we did identify several minor issues that warranted management attention.
                       To address these issues, we suggested that PTO strengthen the OIPE
                       quality assurance program and increase customer satisfaction with the
                       preexamination process by:

                       l       Establishing quality goals, increasing employee accountability and
                               incentives for quality, and reporting employee errors separately
                               from production levels.

                       l       Improving the output reporting and filing receipt correction
                               processes to quickly analyze and correct errors when they occur,
                               and devoting sufficient personnel to detecting and correcting
                               errors.

                       l       Improving communications with customers through an enhanced
                               OIPE page on the PTO web site and upgrades to the OIPE
                               telephone system. (Business and Trade Audits Division)




                                                                 Commerce OIG Semiannual Report
70                                                                                  March 2000
                                           Technology
                                         Administration

ATP Focused Program Needs Better
                                                                                The Technology Administration
Documentation of Selection Process                                              serves the needs of technology-
                                                                                based industry, advocates federal
      Investments under NIST’s Advanced Technology Program (ATP)                actions and policies to speed the
are intended to help U.S. companies accelerate the creation and commer-         transfer of technology from the
cialization of highly innovative technologies with strong potential for         laboratory to the marketplace, and
                                                                                removes barriers for commer-
generating broad-based economic benefits for the nation. ATP relies on
                                                                                cializing new technologies by
companies to submit proposals for technology development projects in            industry. It includes three major
response to two types of announced competitions: general competitions,          organizations:
open to proposals in all areas of technology, and focused program compe-        Office of Technology Policy. OTP
titions, which support specific, predefined technology and business goals.      works to raise national awareness
During FYs 1994-98, most ATP funding was awarded through focused                of the competitive challenge,
program competitions. In FY 1998, ATP made 23 awards totaling                   promotes industry/government/
$50 million in general competitions and 56 awards totaling $184.5 million       university partnerships, fosters
in focused program competitions.                                                quick commercialization of federal
                                                                                research results, promotes
                                                                                dedication to quality, increases
      Under the focused program, ATP solicits “white papers” (proposed          industry’s access to and partici-
ideas) from companies and industry groups on technology areas for               pation in foreign research and
consideration. When ATP identifies increasing interest from industry in a       development, and encourages the
particular area, an ATP manager is assigned to develop the proposed ideas       adoption of global standards.
into a plan for a focused program that addresses four criteria: (1) potential   National Institute of Standards
for U.S. economic benefit, (2) good technical ideas, (3) strong industry        and Technology. NIST promotes
commitment, and (4) the opportunity for ATP funds to make a difference.         U.S. economic growth by working
When the program manager decides that a proposal is sufficiently well           with industry to develop and apply
                                                                                technology, measurements, and
developed, it is presented for consideration to a group of external review-
                                                                                standards. NIST manages four
ers, who help ATP senior management decide which programs to fund.
                                                                                programs: the Advanced Technol-
The final decision is made by the ATP director.                                 ogy Program, the Manufacturing
                                                                                Extension Partnership Program, a
     After the OIG began its audit of the ATP focused program, NIST             laboratory-based measurement
decided to suspend focused competitions in FY 1999 in favor of holding          and standards program, and the
one general competition open to all areas of technology. Nevertheless, we       National Quality Program.
completed our audit because ATP indicated that it might resume focused          National Technical Information
competitions in the future.                                                     Service. NTIS is a self-supporting
                                                                                agency that promotes the nation’s
                                                                                economic growth and job creation
     Our audit revealed that although ATP has improved its focused              by providing access to voluminous
program selection process over time, it needs to do a better job of docu-       information that stimulates
menting it. Specifically:                                                       innovation and discovery. NTIS
                                                                                accomplishes this mission through
l       It was not always possible to trace the documentation for selected      two major programs: information
        programs back to the original white papers. As a result, we were        collection and dissemination to the
        unable to determine whether all white papers received were given        public, and information and
                                                                                production services to federal
        appropriate consideration.
                                                                                agencies.



Commerce OIG Semiannual Report
March 2000
                                                                                                                71
Technology Administration


                                    l       Although ATP management uses outside reviewers to help select
                                            the best focused programs, not all reviewers were required to
             Technology
            Administration
                                            formally rank or score the program presentations. A formal
                                            ranking and assessment of the four selection criteria are essential
                                            to provide assurance that ATP has objectively evaluated the
                                            program proposals.
     NIST                    NTIS
                                    l       The ultimate decision to establish a focused program is made
                                            solely by the ATP director with no documentation to show why
              Technology                    one proposal was chosen over another. ATP should document its
                Policy                      justification for selecting a focused program to improve internal
                                            controls and provide credibility to the selection process.

                                          We made recommendations to address our concerns about the lack
                                    of documentation. In response to our draft report, NIST disagreed that
                                    documentation of white papers and reviewer evaluations was lacking, but
                                    provided no evidence to refute our finding. As a result, we reaffirmed our
                                    original findings and recommendations in the final report. (Science and
                                    Technology Audits Division: STD-11113-0-0001)

                                    Management of ATP Intramural
                                    Research Program Can Be Strengthened

                                          Through cooperative agreements, NIST’s Advanced Technology
                                    Program assists private companies in carrying out research on high-risk
                                    technologies that will enable them to develop products, services, and
                                    manufacturing techniques. The ATP statute allows the program to use up
                                    to 10 percent of its appropriation internally for intramural projects, which
                                    consist of standards development and technical activities in support of
                                    ATP’s mission. In FY 1998, ATP’s appropriation was $192.5 million, and
                                    it funded 114 intramural projects for $13.8 million.

                                          An OIG audit of the ATP intramural research program found that the
                                    criteria, procedures, and practices for the solicitation, review, and selection
                                    of intramural projects appear to be designed to result in funding decisions
                                    that meet the ATP legislative requirements. One of these requirements is
                                    that program managers avoid any projects that give undue advantage to
                                    specific companies. To meet this requirement, ATP officials revised the
                                    project selection criteria in FY 1997 to emphasize generic research that is
                                    not directed toward solving a specific company’s problems, but rather
                                    toward producing industrywide benefits.

                                         Our review of the 114 FY 1998 project files identified the following
                                    opportunities for improving the intramural research program:

                                                                                Commerce OIG Semiannual Report
72                                                                                                 March 2000
                                                                            Technology Administration


l       Formal policies and procedures for intramural projects
        should be updated. The program’s written guidance, which dates
        back to 1993, does not reflect the current process. Moreover, to
        ensure that all NIST scientists are aware of the availability of
        intramural funds, the updated guidance should be included in the
        NIST Administrative Manual.

l       Policies and procedures emphasizing generic research and
        requiring approval of collaboration should be followed. We
        found that for 14 projects, the research appeared to be closely
        linked to a specific ATP grant, and for 15 projects, NIST scientists
        did not obtain approval for their outside collaborations.

l       Project performance should be evaluated. We found little
        evidence that ATP is evaluating the performance of its intramural
        projects. Without such evaluations, performance problems cannot
        be adequately addressed, and managers cannot assess the
        effectiveness of their decisions.

l       More effective methods for disseminating research results
        could increase program impact. For example, two of the three
        ATP grantees we contacted were unaware of potentially beneficial
        research. Although this small sample is not statistically significant,
        it raises concerns about the adequacy of ATP’s practice of relying
        on workshops and conferences to publicize the results of intra-
        mural projects.

l       Project files should contain documentation of management
        decisions and significant events, as well as copies of needed
        approvals. Without such documentation, ATP managers cannot
        demonstrate that they are properly monitoring the projects and
        ensuring that all approvals have been obtained before funds are
        released.

       We made a number of recommendations to address our concerns.
NIST agreed that it needed to clarify which types of collaborations need
approval, provide additional training to scientists on the policies and
procedures governing generic research and collaborations, and ensure that
all final reports include information needed to evaluate performance.
However, with regard to the remaining recommendations, NIST did not
agree or disagree, but stated that it would take them under advisement. We
will address these issues further during the audit resolution process.
(Science and Technology Audits Division: STD-11551-0-0001)



Commerce OIG Semiannual Report
March 2000
                                                                                                  73
Technology Administration


                       NIST Needs to Reevaluate Its Plans to
                       Support Its Ballistics Testing Program

                             Since the early 1970s, NIST has conducted ballistics testing of
                       ammunition, weapons, and protective equipment in support of its reim-
                       bursable agreement with the Department of Justice. While the agency has
                       conducted some testing in old storage pits on its Annex Site—a former
                       anti-aircraft missile installation near its main Gaithersburg, Maryland,
                       campus—it has been searching for a more suitable site. NIST asserts that
                       the current facility is inadequate for certain types of ballistics research and
                       is not in compliance with health and safety standards. Although the agency
                       has contracted out some of its testing work while searching for a replace-
                       ment site, it rejects contracting as a permanent solution because it views
                       contractor laboratories as being insufficiently responsive and prohibitively
                       expensive.

                             As further justification of its requirement for a replacement facility,
                       NIST cited the need for a firing range for its approximately 22 police
                       officers, claiming that it was too difficult and costly for its officers to
                       continue to qualify with their firearms on a quarterly basis at outside firing
                       ranges. Although NIST management acknowledged that it would not be
                       cost-effective to construct a firing range alone, they argued that it made
                       sense to include a range in a new ballistics testing facility.

                             As a result, during the last two years, NIST began developing plans
                       for a ballistics testing and firing range facility to be located in an abandoned
                       barracks building—called Building 530—on the Annex Site. The building
                       has not been used for more than 25 years and would require extensive
                       interior and exterior renovations. NIST received approval and comments
                       from the National Capital Planning Commission for the project and
                       awarded a contract to a design team, which completed the designs,
                       technical specifications, and cost estimates in May 1999.

                             NIST had planned to award a contract to renovate Building 530 in
                       FY 1999 and complete the project in FY 2000. The specifications for the
                       facility would have provided for either a basic renovation for use as a
                       ballistics facility or an expanded renovation to accommodate a firearms
                       qualification range, as well as offices, a conference room, storage areas,
                       and bathroom/locker facilities. At the time of our review in June 1999, the
                       blueprints for the facility were complete.

                            Our review confirmed that the existing facility is inadequate to
                       support NIST’s ballistics testing. However, we did not believe that reno-
                       vating Building 530 was the most cost-effective option to meet this need,

                                                                    Commerce OIG Semiannual Report
74                                                                                     March 2000
                                                                            Technology Administration


nor did we believe that the building should be expanded to include space
for a firearms qualification range. NIST did not adequately justify the extra
cost associated with accommodating additional firing range requirements,
given the availability of outside ranges.

      We were also concerned that NIST evaluated its need for a ballistics
testing facility/firing range without adequately considering other options.
Had NIST determined earlier that it could not justify an on-campus firing
range, it would likely have concluded that a much smaller facility was
needed and therefore explored options other than renovating Building 530.
Moreover, had NIST prepared better documentation and explored other
options, it might have identified more cost-efficient options earlier, instead
of spending significant staff time and about $115,000 to create detailed
architectural drawings and plans for a project that was ultimately rejected.

      During our review, NIST abandoned plans to renovate Building 530
and, because of cost considerations, began reviewing options for accom-
modating its ballistics testing needs on its main campus. NIST also
dropped plans to construct a firing range for its police officers and will
instead continue to have them qualify at off-campus ranges.

      We are pleased that NIST has reconsidered its plans and decided not
to proceed with plans to renovate Building 530. We recommended that,
before designing and constructing or renovating any future facilities to
support its ballistics testing program, NIST carefully weigh the costs and
benefits of all viable options (including contracting) and document them
adequately. NIST agreed with our recommendation. Based on our work in
this area, we believe that NIST will ultimately construct a facility for its
ballistics testing needs only, which will be smaller in scope and less expen-
sive to construct and maintain. As a result, funds that would have been
spent on a larger facility will be available to be put to better use elsewhere
at NIST. (Office of Inspections and Program Evaluations: IPE-11923)

Audit of TA’s FY 1999 Financial Statements

      As it had in the previous three fiscal years, TA received an unquali-
fied opinion on its FY 1999 financial statements. The IPA firm under
contract to us that conducted the audit did not identify any material
weaknesses, reportable conditions, or instances of noncompliance with
laws or regulations. (Financial Statements Audits Division: FSD-11894-
0-0001)




Commerce OIG Semiannual Report
March 2000
                                                                                                  75
Technology Administration


                       Audit of NIST’s FY 1999 Financial Statements

                             An IPA firm under contract to us issued an unqualified opinion on
                       NIST’s FY 1999 financial statements, representing the seventh straight
                       year of clean opinions for the bureau. While the IPA firm found no
                       material weaknesses, it did identify one reportable condition in NIST’s
                       internal control structure. This condition involved the need for NIST to
                       strengthen its information systems’ general control procedures.

                            Because of the weakness in general control procedures, the IPA firm
                       noted that NIST did not substantially comply with the Federal Financial
                       Management Improvement Act of 1996. Under the act, the auditors are
                       required to report on whether the bureau’s financial management systems
                       substantially comply with federal financial management systems require-
                       ments, applicable accounting standards, and the U.S. Government Stan-
                       dard General Ledger at the transaction level.

                             OMB Circular A-130, Management of Federal Information Re-
                       sources, Appendix III, “Security of Federal Automated Information
                       Resources,” establishes guidelines for control procedures to be used by
                       federal agencies in developing and operating automated information
                       systems. The firm reviewed the general controls related to NIST’s infor-
                       mation technology processing environment in accordance with applicable
                       sections of GAO’s Federal Information System Controls Audit Manual.
                       The review identified weaknesses in all six review areas set forth in the
                       GAO Manual: (1) entitywide security program planning and management,
                       (2) access control, (3) application software development and change
                       control, (4) system software, (5) segregation of duties, and (6) service
                       continuity. Together, these weaknesses, if not resolved, could adversely
                       affect the security of the data, programs, and hardware maintained at
                       NIST and have a negative impact on NIST’s financial statements, the
                       financial statements of the other reporting entities that are supported by
                       NIST (TA and NTIA), and the Department’s consolidated statements.

                              These weaknesses, and the firm’s recommendations for correcting
                       them, were discussed in a separate report on systems issues. NIST
                       generally agreed with the firm’s recommendations for addressing the
                       identified weaknesses. The agency stated that corrective actions had been
                       initiated for the recommendations it considered feasible and cost effective,
                       and it proposed acceptable alternative actions to address the other recom-
                       mendations. (Financial Statements Audits Division: FSD-11889-0-0001,
                       FSD-11889-0-0002)




                                                                  Commerce OIG Semiannual Report
76                                                                                   March 2000
                                                                          Technology Administration


Audit of NTIS’s FY 1999 Financial Statements

     NTIS received an unqualified opinion on its FY 1999 financial
statements, as it had for FY 1998. The IPA firm under contract to us that
conducted the audit identified no reportable conditions, material weak-
nesses, or instances of noncompliance with laws or regulations.

      In connection with the FY 1999 audit, the firm reviewed the general
controls related to the information technology processing environment
associated with NTIS’s financial management systems in accordance with
applicable sections of GAO’s Federal Information System Controls Audit
Manual. The review identified weaknesses in four of the six review areas
set forth in the GAO Manual: (1) entitywide security program planning and
management, (2) access control, (3) application software development and
change control, and (4) service continuity. Together, these weaknesses, if
not resolved, could adversely affect the security of the data, programs, and
hardware maintained at NTIS and have a negative impact on both NTIS’s
financial statements and the Department’s consolidated statements. The
firm, however, did not consider this deficiency to constitute a reportable
condition in its Report on Internal Control.

      These weaknesses, and the firm’s recommendations for correcting
them, were discussed in a separate report on systems issues. NTIS agreed
that the report accurately reflected conditions at the time of the audit and
stated that corrective actions had been initiated. (Financial Statements
Audits Division: FSD-11892-0-0001, FSD-11892-0-0002)

Inspector General Testifies on Audit
and Inspection Work at TA Agencies

      On March 9, 2000, the Inspector General appeared before the House
Science Subcommittee on Technology to discuss aspects of the OIG’s
audit and inspection work related to the Technology Administration’s
programs and operations. He first noted that we have continued to monitor
NIST’s construction and renovation efforts at its Gaithersburg, Maryland,
and Boulder, Colorado, facilities. We have generally supported NIST’s
plans for constructing Advanced Chemical Sciences and Advanced Mea-
surement Laboratories in Gaithersburg and addressing critical safety,
capacity, and maintenance deficiencies at both locations. However, we are
unable to evaluate the efficacy of approximately $593 million in long-term
projects whose plans are still indefinite, and we believe that NIST should
continue to reassess the need for and prioritize these projects.



Commerce OIG Semiannual Report
March 2000
                                                                                                77
Technology Administration


                             In addition, our security concerns about short-term visiting research-
                       ers at NIST facilities are being addressed. In response to our expressed
                       concerns about the lack of adequate controls over visitors who worked at
                       NIST facilities for less than 10 days a year, the agency began requiring a
                       written agreement for all nonfederal researchers.

                             As part of our review of Commerce discretionary financial assistance
                       programs, we found that all but one of NIST’s programs were adminis-
                       tered competitively, and concluded that the agency’s use of outside peer
                       reviewers constitutes a best practice that can be used in other funding
                       programs. We also continued our financial-related audits of recipients of
                       financial assistance awards under NIST’s ATP and Manufacturing Exten-
                       sion Partnership programs.

                             The Inspector General also highlighted a number of issues that are
                       discussed in detail elsewhere in this report. These issues included the
                       “clean” opinions received in recent audits of of TA’s, NIST’s, and NTIS’s
                       FY 1999 financial statements (see pages 75-77); the U.S. Library
                       Commission’s review of the Department’s plans for NTIS (see page 11);
                       our inspection of NIST’s proposed small ballistics testing facility (see
                       page 74); and our audits of NIST’s administration of its ATP focused and
                       intramural research programs (see pages 71 and 72).

                       Award Recipient Had Inadequate Financial
                       Management System, Double-Billed Costs

                            In September 1997, NIST awarded a cooperative agreement under
                       its Manufacturing Extension Partnership Program to a West Virginia
                       organization that provides manufacturing extension services to small and
                       medium-sized manufacturers in its designated service region. The award
                       was for a 24-month period from October 1, 1997, through September 30,
                       1999, and had estimated costs of $1,182,721, with the federal share not to
                       exceed $529,932. For the award period, the recipient claimed costs of
                       $1,352,104, which exceeded the agreement’s estimated costs by $169,383.

                             An OIG final incurred cost audit of the cooperative agreement
                       determined that the recipient’s financial management system did not
                       comply with OMB standards. Specifically, the recipient’s system did not
                       compare program outlays with budgeted amounts, reported transactions in
                       incorrect expense categories, did not account separately for unallowable
                       costs, and double-billed costs. Moreover, the organization lacked written
                       procedures for determining the reasonableness, allocability, and allowability
                       of costs in accordance with federal cost principles and the award terms and
                       conditions.

                                                                  Commerce OIG Semiannual Report
78                                                                                   March 2000
                                                                         Technology Administration


      We also questioned $169,383 in claimed costs, of which $119,821
consisted of double-billed costs that had been claimed for a prior Manufac-
turing Extension Partnership award. The balance consisted of $19,058 in
other direct costs that were incurred without NIST’s prior approval and
$30,504 in unallowable costs. However, because it had claimed costs in
excess of the award amount, the recipient incurred sufficient allowable
costs to offset the questioned costs, and we did not recommend recovery
of any funds.

      In response to our draft report, the recipient asserted that it had
established an adequate financial management system, and included
correspondence from an IPA firm certifying that compliance efforts were
being implemented. We recommended that NIST monitor the recipient’s
implementation of its new system and verify that it performs periodic
comparisons of budgeted and actual costs, and establishes written account-
ing policies and procedures. (Denver Regional Office of Audits: DEN-
12499-0-0001)

Nonfederal Auditor’s Work Met
All Auditing and Reporting Standards

      The OIG performed a quality control review of an audit conducted
by a nonfederal auditor of a New Mexico nonprofit organization that
provides and facilitates assistance to small and medium-sized manufactur-
ers in five western states. The organization matches consultants with
manufacturers to help them apply new technologies, boost productivity
and quality, and gain access to broader markets. The organization’s
primary support comes from NIST’s Manufacturing Extension Partnership
Program. During the 18 months ended on December 31, 1997, the organ-
ization spent approximately $14.1 million for NIST-sponsored projects,
which included about $8.6 million in federal funds.

      As the oversight agency for the organization, we performed our
review to determine whether the audit was conducted in accordance with
government and generally accepted auditing standards and whether the
audit report met the requirements of OMB Circular A-133. Our review
found that the auditor’s working papers support the audit and that the audit
complied with all applicable standards. (Denver Regional Office of Audits:
DEN-12072-0-0001)




Commerce OIG Semiannual Report
March 2000
                                                                                               79
                                             Departmental Management

                                             Audit of the Department’s FY 1999
                 CFO and                     Consolidated Financial Statements
           Assistant Secretary
            for Administration
                                                   For the first time, the Department received an unqualified opinion on
        Chief                                its FY 1999 consolidated financial statements. The Department deserves to
     Information                  Security
        Officer                              be commended for the significant progress it has made in improving its
                                             financial management during the past year, as evidenced by the unqualified
                                             opinions received by both the Department and all of its audited reporting
                              Financial
       Budget
                             Management      entities on their FY 1999 statements. These “clean” opinions are especially
                                             noteworthy considering the obstacles that the Department and several
                                             entities had to overcome. There was also a reduction in the number of
 Management                    Human
     and                      Resources
                                             departmental and entity-level material weaknesses and reportable condi-
 Organization                Management      tions, and no new weaknesses or conditions were identified at the depart-
                                             mental level.
 Acquisition                        Civil
 Management                        Rights          However, five previously identified reportable conditions continue to
                                             exist. Although the Department has made progress in correcting these
                                             conditions, further improvements are needed in the following areas:
                              Small and
 Administrative
                            Disadvantaged
   Services
                            Business Util.   l       Financial management systems. The Department needs to
                                                     integrate financial systems and improve general controls to provide
                Exec. Budgeting                      assurance that the data used to prepare financial statements is
                and Assistance
                 Management
                                                     reliable. The Department’s financial management systems
                                                     continue to be ineffective tools for preparing and reporting its
                                                     financial results and those of its reporting entities. In addition,
                                                     audits of the FY 1999 financial statements of the Department’s
                                                     entities included reviews of the general controls associated with
                                                     the major financial management systems. These reviews,
                                                     conducted at the six locations that provide data processing support
                                                     for the systems, revealed weaknesses in all general control areas,
                                                     which could hamper the Department’s ability to produce accurate
                                                     data for the financial statements.

                                             l       Financial management. Several entities need to improve the
                                                     timeliness and accuracy of their financial statements and provide
                                                     sufficient financial management oversight and supervisory review
                                                     of the statements. The entities also need to strengthen the overall
                                                     control environment, monitor the budget execution process,
                                                     properly analyze capital asset transactions, and better record and
                                                     document property additions and deletions.

                                             l       Controls surrounding property. One entity needs to fully
                                                     implement policies and procedures over accounting for
                                                     construction work-in-progress. In addition, entities need to

                                                                                        Commerce OIG Semiannual Report
80                                                                                                         March 2000
                                                                        Departmental Management


        improve the year-end reconciliation process and properly analyze
        capital asset transactions, as well as improve the process of
        recording and documenting property additions and deletions.

l       Controls surrounding accounts payable and accrued grant
        expenses. Four entities need to improve policies and procedures
        related to estimating year-end accounts payable amounts. In
        addition, the entities need to monitor cut-off dates for accounts
        payable transactions and improve the methodology used to
        estimate grant expenses unpaid at year-end.

l       Performance of timely and accurate reconciliations. Several
        entities need to improve their account reconciliation processes.
        Specifically, reconciliations need to be performed on a timely basis
        for all applicable accounts, and differences and errors identified
        need to be investigated and resolved promptly. In addition, the
        entities need to maintain supporting documentation for all
        reconciling items and perform thorough supervisory reviews.

     We consider the first reportable condition, related to financial man-
agement systems, to be a material weakness. It is applicable to the Depart-
ment as well as its reporting entities. The other four reportable conditions
represent internal control deficiencies at various reporting entities.

     In performing tests of compliance with selected provisions of appli-
cable laws and regulations, we noted five instances of noncompliance:

l       The Department was not in substantial compliance with the
        Federal Financial Management Improvement Act of 1996 in that it
        does not meet the requirements for a single integrated financial
        system. Furthermore, four of its financial management systems
        did not fully comply with federal requirements in FY 1999, and
        one system did not comply with the U.S. Government Standard
        General Ledger at the transaction level.

l       NOAA did not fully fund its capital leases. OMB Circular A-11,
        Preparation and Submission of Budget Estimates, requires
        agencies to have sufficient budgetary resources immediately
        available to cover the present value of the lease payments for
        capital assets and lease purchases.

l       For certain of its activities, ITA has not complied with OMB
        Circular A-25, User Charges, which requires federal agencies to
        recover the full cost of providing goods and services.


Commerce OIG Semiannual Report
March 2000
                                                                                             81
Departmental Management


                    l       ITA also has not complied with 31 U.S.C. 1301(a), which states
                            that public funds may be used only for the purpose for which they
                            are appropriated. During FY 1999, ITA used certain budgetary
                            authority for other than its intended purpose. ITA officials report
                            that they have since acted to ensure that the funds will be used
                            only for their intended purpose.

                    l       The Working Capital Fund and the Franchise Fund reported a
                            negative “Fund Balance with Treasury” as of September 30, 1999.
                            As a result, these entities may not be in compliance with OMB
                            Circular A-34, Instructions on Budget Execution, which precludes
                            revolving funds from disbursing into a negative cash position in
                            anticipation of receiving reimbursable funds. Although manage-
                            ment does not believe that a violation exists, it has agreed to
                            eliminate this negative balance in FY 2000 as a matter of
                            improving business practices.

                          Department and reporting entity management generally concurred
                    with the findings and recommendations in the report and have agreed to
                    take corrective actions. (Financial Statements Audits Division: FSD-
                    11911-0-0001)

                          Section 803 of Federal Financial Management Improvement Act
                    requires agencies to determine whether they are in substantial compliance
                    with the act. If not, they are required to prepare a remediation plan
                    outlining the actions to bring them into compliance. Based partly on our
                    audit of its FY 1998 financial statements, the Department concluded it was
                    not in substantial compliance with the act’s three requirements. Accord-
                    ingly, a plan was developed to correct the material weaknesses, with the
                    goal of obtaining an unqualified opinion on the FY 1999 financial state-
                    ments.

                          In FY 1999, the Department forwarded to OMB an updated plan
                    based on the FY 1998 audit results. The Department made significant
                    progress with its implementation by meeting target implementation dates.
                    Specifically, the Department was found to be in compliance with federal
                    accounting standards. Although at the end of FY 1999, one financial
                    system did not meet compliance with the Standard General Ledger at the
                    transaction level, this problem has now been corrected and is not expected
                    to be reported in future years. The Department’s financial management
                    systems requirement under the act will be corrected with the implementa-
                    tion of the Core Financial System.




                                                              Commerce OIG Semiannual Report
82                                                                               March 2000
                                                                         Departmental Management


      Under Section 804(b) of the act, the OIG is required to notify the
Congress when the Department does not meet intermediate target dates in
the remediation plan. We did not identify any instances that would necessi-
tate our notifying the Congress. The Department plans to update its reme-
diation plan based on progress made and the results of the FY 1999 audit.

Lessons to Be Learned from Fire and
PCB Accident at Commerce Building

      Early in the morning of Friday, October 1, 1999, two fires occurred
in the basement of the Commerce Department’s Herbert C. Hoover
Building in Washington, D.C. Both fires were contained in boxes that
house metal capacitors, which are part of the electrical system that controls
the building’s clock system. It was soon determined that oil in the capaci-
tors contained polychlorinated biphenyls (PCBs), a dangerously toxic
chemical. As a result, 43 people (employees, contractors, and firefighters)
who came into contact with the fire’s smoke or the oil leaking from the
capacitors underwent a decontamination process that began on the building
grounds and ended at a nearby hospital.

       The Hoover Building was closed on that Friday and throughout the
weekend as testing and cleanup began. The above-ground floors of the
building were determined to be safe to occupy by Monday, October 4, and
the basement reopened the following day. The environmental cleanup
process continued until December 3. Because the fire-damaged materials
were removed and incinerated shortly after the incident, the cause of the
fire is uncertain. However, building managers and General Services
Administration personnel surmise that the fire was caused by an electrical
overload of the capacitors.

      The OIG performed a review to assess the circumstances surround-
ing the October 1 incident. We hope that our observations will serve as
“lessons learned” for the Department in dealing with future incidents of
this nature, and will provide a useful checklist of safety and environmental
concerns that need to be addressed. Our observations were as follows:

l       Use of the capacitors was permitted, but other issues
        involving PCBs need to be addressed. The use of the PCB-
        containing capacitors was legally permitted, and there was no
        requirement to mark them as containing PCBs. However, other
        sources of PCBs in the building, including fluorescent light ballasts
        and exterior floodlights, were not well inventoried or marked. In
        addition, vaults in the basement that have floors that were


Commerce OIG Semiannual Report
March 2000
                                                                                              83
Departmental Management


                          contaminated with PCBs before the fire either were not marked as
                          required or had misleading signs, and the protective footgear
                          required to work in these vaults was not being provided.

                    l     Building safety issues were highlighted due to the fire. For
                          example, the fire alarm rang for only nine minutes because
                          someone turned it off prematurely, and we found that there is no
                          departmental policy covering who is allowed to turn off a fire
                          alarm and when. In addition, the building does not have a public
                          address system to communicate with occupants in an emergency,
                          a stairwell designated as an exit route was locked at the first floor
                          level, and at least one exterior door was not unlocked for use as an
                          exit during the evacuation.

                    l     Building security concerns need attention. Although the
                          building had been evacuated, employees were still able to enter,
                          unchallenged, through certain key card entrances. In addition, we
                          learned that the doors to the basement vaults, which contain
                          critical electrical equipment, were not routinely locked. Finally, the
                          sign-in/sign-out logs that are used outside normal working hours
                          are not an accurate representation of who is in the building
                          because not everyone was being required to sign in or sign out.

                    l     Inaccurate information and noncompliance with regulations
                          led to problems during environmental cleanup. Certain
                          assumptions about where smoke traveled and where people with
                          potentially contaminated footwear walked during the incident were
                          made with little or no input from eyewitnesses. These assumptions
                          had a direct impact on the decisions about what environmental
                          tests to perform and where to clean up. In addition, in some
                          instances, environmental regulations were not followed with regard
                          to securing the cleanup areas.

                    l     More attention should have been paid to employee relations.
                          Employees and contractors praised both the assistance provided
                          by departmental staff at the hospital and the support provided by
                          the Department’s workers’ compensation program. However,
                          relations and communications with employees could have been
                          better in some areas. Specifically, employees involved in the
                          incident were not offered counseling, an informational meeting
                          with the affected employees and contractors was not held until 25
                          days after the incident, and little information about the incident
                          was shared with other building occupants.



                                                              Commerce OIG Semiannual Report
84                                                                               March 2000
                                                                           Departmental Management


l       A Commerce command center is needed to better ensure
        communication and continuity of operations. Several
        organizations and individuals tried to contact the Department on
        October 1 to provide expert assistance, but they were unable to do
        so because the building had been evacuated. Many of the external
        communication problems could have been prevented had the
        Department made provisions for a command center.

l       An assessment is needed to determine what type of environ-
        mental program is needed at Commerce. Some departmental
        officials and employees expressed concern that the Department
        had to rely on the General Services Administration for guidance on
        environmental regulations because Commerce does not have its
        own environmental program. At the Department level, an assess-
        ment should be performed to ensure compliance with all statutory
        requirements, executive orders, and departmental orders, as well
        as provide adequate protection for the Department and its
        employees.

      We offered a number of recommendations to address our concerns.
The Department has taken action on most of the issues identified, and we
are generally satisfied that these actions meet the intent of our recommen-
dations. (Office of Inspections and Program Evaluations: IPE-12453)

Audit of the WCF’s and S&E Fund’s
FY 1999 Financial Statements

      An IPA firm under contract to us issued an unqualified opinion on the
FY 1999 financial statements of the General Administration’s Working
Capital Fund (WCF) and Salaries and Expense Fund (S&E). The WCF
and S&E are operated by one management team under the same internal
control structure and procedures for compliance. While the firm did not
identify any material weaknesses, it did identify one reportable condition in
WCF’s and S&E’s internal control structure, namely that controls over the
preparation of the Statement of Budgetary Resources need improvement.

     The firm’s report also discussed two other significant matters that
need to be addressed:

l       The basis for WCF’s “negative fund balance with Treasury” needs
        clarification. Although management does not believe that a
        violation exists, it has agreed, as a matter of improving business
        practices, to put procedures into place to eliminate the negative
        cash balances.

Commerce OIG Semiannual Report
March 2000
                                                                                                85
Departmental Management


                    l       Controls surrounding the Financial Accounting System need
                            improvement. (Financial Statements Audits Division: FSD-
                            11895-0-0001)

                    Audit of the General Controls of the
                    Office of Computer Services’ FARS

                          The OIG contracted with an IPA firm to perform a general controls
                    review of the information systems environment of the Department’s Office
                    of Computer Services. This office maintains the hardware and software
                    used to process transactions and data within the Financial Accounting and
                    Reporting System (FARS). NIST uses FARS to provide accounting
                    services to WCF and S&E, EDA, ESA/BEA, MBDA, and the Franchise
                    Fund. The firm’s review was conducted in accordance with GAO’s
                    Federal Information System Controls Audit Manual.

                          The review identified weaknesses in five of the six review areas set
                    forth in the GAO Manual: (1) entitywide security program planning and
                    management, (2) access control, (3) application software development and
                    change control, (4) segregation of duties, and (5) service continuity. These
                    weaknesses could adversely affect the security of the office’s data,
                    programs, and hardware and have a negative impact on the financial
                    statements supported by FARS, as well as the Department’s consolidated
                    statements. The firm discussed these weaknesses, and made recommenda-
                    tions for correcting them, in a separate detailed report on systems issues.
                    The Office of Computer Services agreed with the firm’s recommendations
                    and stated that corrective actions had been initiated. (Financial Statements
                    Audits Division: FSD-12196-0-0001)

                    Audit of the General Controls
                    of the CAMS Support Center

                          The Department established the CAMS Support Center, in Gaithers-
                    burg, Maryland, to facilitate the system’s implementation. Because of the
                    support center’s significant role in the development and implementation of
                    CAMS, the OIG reviewed its general controls. Effective controls help
                    ensure that only authorized changes are made to CAMS.

                         Given the support center’s initial mission of implementing CAMS, it
                    was not created to function as a data center. As a result, many of the
                    security features associated with a data center were lacking. Over time,
                    however, the support center has evolved into a software development
                    organization that is responsible for modifying and maintaining CAMS.


                                                               Commerce OIG Semiannual Report
86                                                                                March 2000
                                                                           Departmental Management


      The support center’s expanded role necessitated a significant expan-
sion of its data processing environment. With this change in data process-
ing capability, support center management recognized the need to improve
both computer and physical security. Lacking sufficient in-house resources
to properly assess potential risks and identify vulnerabilities, the support
center contracted with a consulting firm to perform this assessment. The
firm was tasked to assess risks and identify vulnerabilities, propose actions
to minimize them, and develop contingency of operations and disaster
recovery plans.

      During our audit, we coordinated with the firm and reviewed the
outcome of its security work. Our audit assessed the general controls
designed to ensure the integrity, confidentiality, and availability of informa-
tion associated with the support center. We used GAO’s Federal Informa-
tion System Controls Audit Manual as a guide in performing this audit.

      The review identified weaknesses in five of the six review areas set
forth in the GAO Manual: (1) entitywide security program planning and
management, (2) access control, (3) system software, (4) segregation of
duties, and (5) service continuity. (We did not review the sixth area—
application software development and change control—as we plan to
review it later this fiscal year.) Together, the weaknesses we identified, if
not resolved, could adversely affect the security of the data, programs, and
hardware maintained at the support center and have a negative impact on
the Department’s consolidated financial statements. The Department
agreed with our recommendations for addressing the identified weaknesses
and stated that corrective actions had been initiated. (Financial Statements
Audits Division: FSD-11846-0-0001)

Additional Efforts Needed to Strengthen
Management of Delinquent Debt

      As part of the President’s Council on Integrity and Efficiency’s
governmentwide review of non-tax delinquent debt, the OIG conducted an
audit of the Department’s efforts to comply with the Debt Collection
Improvement Act of 1996 (DCIA). As of September 30, 1998, Commerce
had assets of $8.8 billion, of which $253.2 million represented receivables
from nonfederal entities; of this amount, $94.5 million represented debt
that was delinquent over 180 days. Approximately 98 percent of the
delinquent debt balance related to NOAA, EDA, and MBDA.

     DCIA was passed in response to congressional concerns about
federal agencies’ efforts to collect non-tax delinquent debt, such as civil
penalties, amounts owed for goods and services provided to the public,

Commerce OIG Semiannual Report
March 2000
                                                                                                87
Departmental Management


                    and costs disallowed by audits of financial assistance awards. The act
                    designates the Treasury Department’s Financial Management Service
                    (FMS) as the government’s debt collection center. To facilitate collection,
                    bureaus are to transfer all non-tax delinquent debt older than 180 days,
                    with certain exceptions, to FMS.

                          Our audit found that most of the Department’s effort to comply with
                    DCIA took place in FY 1999. As of September 30, 1998, only $23,000
                    out of $13,600,000 eligible for FMS collection servicing had been trans-
                    ferred, whereas by June 30, 1999, about $13,000,000 had been trans-
                    ferred. Despite the Department’s substantial progress during FY 1999, we
                    found that:

                    l       Additional efforts were needed to strengthen delinquent debt
                            management. The Department needed to improve its guidance on
                            debt management, improve its reports on the age of delinquent
                            debts, perform reconciliations between Commerce and FMS
                            records, take prompt action on delinquent debts, and submit
                            taxpayer identification numbers to FMS.

                    l       Action was needed to avoid the misstatement of receivables.
                            To avoid a misstatement of accounts receivable as of September
                            30, 1999, thorough reviews of existing receivables were needed to
                            identify those that should be written off and to promptly recognize
                            disallowed costs from financial assistance audits as receivables.
                            Periodic reviews of this nature represent a basic internal control.

                           To address the weaknesses identified, we recommended that the
                    Department finish revising its debt management handbook to reflect DCIA
                    and Treasury implementation guidance, issue a memorandum encouraging
                    the bureaus to prepare or update bureau-specific written procedures, and
                    reconcile bureau reports of debt submitted to FMS with FMS records
                    quarterly. We also recommended that the bureaus develop and maintain
                    updated procedures relating to debt management, perform monthly recon-
                    ciliations between their records and FMS’s, and perform a thorough review
                    of accounts receivable to identify those that should be written off. Further,
                    we recommended that the bureaus provide taxpayer identification numbers
                    to FMS and, should they find collecting the numbers to be administratively
                    burdensome, discuss possible alternative procedures with FMS.

                         The Department stated that, on the whole, our report was balanced
                    and provided recommendations that will strengthen its financial manage-
                    ment, and the bureaus generally agreed with our recommendations.
                    (Financial Statements Audits Division: FSD-11882-0-0001)


                                                               Commerce OIG Semiannual Report
88                                                                                March 2000
                                                                        Departmental Management


OIG Provides Comments on Proposed
Government Information Security Act

      In response to a request by Chairman Fred D. Thompson and
Ranking Minority Member Joseph I. Lieberman of the Senate Committee
on Governmental Affairs, we commented on a bill introduced in the
Senate, S. 1993, the Government Information Security Act, which is
intended to protect federal information systems from cyber-attack by
strengthening information security practices throughout the government.

       We fully support the objectives of the bill. The Department of
Commerce has a vast array of information systems that are critical,
complex, sensitive, and diverse, including those that support the nation’s
decennial census and other census and survey activities, patent and
trademark functions, weather services and environmental protection, and
principal economic indicators. The task of ensuring the security of these
and a multitude of other Commerce information systems presents an
enormous challenge to Department officials and oversight organizations
alike.

      Among other things, the bill would require each agency to establish a
program containing procedures for detecting, reporting, and responding to
security incidents. The agency would be required to mitigate risks associ-
ated with such incidents before substantial damage occurs and to notify
and consult with law enforcement officials and other offices and authorities
concerning security incidents. We recommended that the bill also explicitly
require the agency to establish procedures for notifying and consulting with
the agency’s Inspector General.

      Another provision of the bill would require annual independent
evaluations to be performed by the OIG or by an independent external
auditor, as determined by the Inspector General. We commented that with
the increasingly decentralized and networked computer environment and
growing use of the Internet, information security has become extremely
complex and is undergoing continual and rapid change. As a result, our
resources are no longer adequate to provide the necessary oversight even
in the absence of this bill, and the bill’s annual evaluation requirement
would further increase our shortfall. We believe that it is appropriate and
desirable for the OIGs to conduct the independent evaluations, but we
emphasized that for us to do so effectively would require additional staff,
training, tools, and contractor support and therefore additional budgetary
resources. We also noted that most other OIGs have similar budget issues.




Commerce OIG Semiannual Report
March 2000
                                                                                             89
Departmental Management


                          Finally, we noted that just as OIGs are struggling to bring adequate
                    resources to information security oversight, agency chief information
                    officers and program officials, including those at Commerce, frequently
                    lack the necessary technical and budgetary resources to ensure that
                    systems and information are secure. Without additional resources, they will
                    not be able to adequately strengthen their information security practices.

                    OIG Assisting Department in Establishing
                    Steel and Oil/Gas Guaranteed Loan Program

                          On August 17, 1999, President Clinton signed legislation creating two
                    loan guarantee programs under P.L. 106-51. The Emergency Steel Loan
                    Program Act of 1999 provides guaranties for up to $1 billion to qualified
                    steel and iron ore companies. The Emergency Oil and Gas Guaranteed
                    Program Act provides guaranties for up to $500 million to qualified oil and
                    gas companies. Both programs provide for a guaranty of up to 85 percent
                    of the loan’s principal amount.

                          The goal of the legislation is to assist steel and oil and gas firms that
                    were adversely affected by the recent import crises while adequately
                    protecting the government’s funds by providing sound loan guaranties. The
                    law established two Loan Guarantee Boards, each made up of the Chair-
                    man of the Board of Governors of the Federal Reserve System (as Board
                    Chair), the Secretary of Commerce, and the Chairman of the Securities
                    and Exchange Commission to oversee the programs. Funds were appropri-
                    ated to the Department of Commerce to implement and administer the
                    program, at the direction of the two Boards.

                          To assist Commerce in fulfilling its responsibilities, we worked with
                    various groups in the Department, as well as representatives of the Federal
                    Reserve, the SEC, and the Treasury Department, to promptly but pru-
                    dently address this new legislation. We briefed the Department on our
                    office’s extensive experience conducting audits and investigations of prior
                    loan guaranties made by the Department, with an emphasis on “lessons
                    learned.” We reviewed the legislation, commented on the proposed
                    implementing regulations, attended public meetings, participated in confer-
                    ence calls with several potential lenders, and offered suggestions on the
                    structure and content of the guarantee agreements.

                          Implementing regulations for each program were issued on October
                    27, 1999. At the application deadline of February 28, 2000, 13 applications
                    had been received under the steel program and 23 under the oil/gas pro-
                    gram. We continue to work with the Department in fulfilling its evolving
                    role under this important legislation. (Financial Fraud Division)

                                                                 Commerce OIG Semiannual Report
90                                                                                  March 2000
                                                                         Departmental Management


Preaward Financial Assistance Screening

      We continue to work with the Office of Executive Budgeting and
Assistance Management, NOAA and NIST grant offices, and EDA
program offices to screen all of the Department’s proposed grants, coop-
erative agreements, and loans before award. Our screening serves two
purposes: It provides information on whether the applicant has unresolved
audit findings and recommendations on earlier awards, and it determines
whether a name check or investigation has revealed any negative history
on individuals or organizations connected with a proposed award.

      During this period, we screened 434 proposed awards. On 10 of the
awards, we found major deficiencies that could affect the ability of the
proposed recipients to maintain proper control over federal funds. On the
basis of the information we provided, the Department delayed the awards
until concerns were satisfactorily resolved or established special award
conditions to adequately safeguard federal funds. (Office of Audits)

                     Preaward Screening Results

                 Results                      Number           Amount
  Awards delayed to resolve concerns              9            $5,762,892

  Special award conditions established            1              4,921,872


Indirect Cost Rates

      Under OMB policy, a single federal agency—the “cognizant
agency”—is responsible for the review, negotiation, and approval of
indirect cost rates for public and private entities receiving funds under
various federal programs. Normally, the federal agency providing the most
direct funding to an entity is designated as its cognizant agency. OMB has
designated Commerce as the cognizant agency for 280 economic develop-
ment districts, as well as a number of state and local government units.
From time to time, the Department also has oversight responsibilities for
other recipient organizations. The Department has authorized the OIG to
negotiate indirect cost rates and review cost allocation plans on its behalf.
The OIG reviews and approves the methodology and principles used in
pooling indirect costs and establishing an appropriate base for distributing
those costs to ensure that each federal, state, and local program bears its
fair share.



Commerce OIG Semiannual Report
March 2000
                                                                                              91
Departmental Management


                                 During this period, we negotiated 20 indirect cost rate agreements
                           with nonprofit organizations and governmental agencies, and reviewed and
                           approved 16 cost allocation plans. We also provided technical assistance to
                           recipients of Commerce awards regarding the use of rates established by
                           other federal agencies and their applicability to our awards. Further, we
                           have worked closely with first-time for-profit recipients of Commerce
                           awards to establish indirect cost proposals that are acceptable for OIG
                           review. (Atlanta Regional Office of Audits)

                           Nonfederal Audit Activities

                                 In addition to OIG-performed audits, certain of the Department’s
                           financial assistance programs are sometimes audited by state and local
                           government auditors and by independent public accountants. OMB
                           Circular A-133, Audits of States, Local Governments, and Non-Profit
                           Organizations, sets forth the requirements for most of these audits. For-
                           profit organizations that receive ATP funds from NIST are audited in
                           accordance with Government Auditing Standards and NIST Program-
                           Specific Audit Guidelines for ATP Cooperative Agreements, issued by the
                           Department. (Before June 30, 1996, such audits were subject to the
                           requirements of Circular A-128, Audits of State and Local Governments,
                           and the former Circular A-133, Audits of Institutions of Higher Education
                           and Other Non-Profit Institutions. Some of the audits discussed below
                           were conducted in accordance with these earlier circulars.)

                                 We examined 181 audit reports during this semiannual period to
                           determine whether they contained audit findings on any Department
                           programs. For 126 of these reports, the Department acts as the cognizant
                           agency and monitors the auditee’s compliance with the applicable OMB
                           circulars or the NIST program-specific reporting requirements. The other
                           55 reports are from entities for which other federal agencies have oversight
                           responsibility.

                                                                        ATP
                                                     OMB             Program-
                                                     A-133            Specific
                   Report Category                   Audits            Audits             Total

            Pending (October 1, 1999)                    9               61                 70

            Received                                   147               75                222

            Examined                                   141               40                181

            Pending (March 31, 2000)                    15               96                111


                                                                      Commerce OIG Semiannual Report
92                                                                                       March 2000
                                                                      Departmental Management


     The following table shows a breakdown by bureau of the
$205 million in Commerce funds audited.


            Bureau                                Funds
   EDA                                                     $58,253,562

   ITA                                                        415,358

   MBDA                                                        311,573

   NIST                                                     95,610,954 *

   NOAA                                                     41,108,007

   NTIA                                                      2,041,837

   Agency not identified                                     6,970,952

                      Total                               $204,712,243


* Includes $77,494,457 in ATP program-specific audits.

      We identified a total of $1,527,552 in questioned costs. In most
reports, the Department’s programs were considered nonmajor, resulting in
limited transaction and compliance testing against laws, regulations, and
grant terms and conditions. The eight reports with Commerce findings are
listed in Appendix B-1. (Atlanta Regional Office of Audits)




Commerce OIG Semiannual Report
March 2000
                                                                                           93
                         Reporting Requirements


                                                   INDEX
      The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for semiannual
      reports. The requirements are listed below and indexed to the applicable pages of this report.


               Section                                        Topic                                 Page

     4(a)(2)                 Review of Legislation and Regulations                                     95

     5(a)(1)                 Significant Problems, Abuses, and Deficiencies                         21-93

     5(a)(2)                 Significant Recommendations for Corrective Action                      21-93

     5(a)(3)                 Prior Significant Recommendations Unimplemented                           95

     5(a)(4)                 Matters Referred to Prosecutive Authorities                            21-93

     5(a)(5) and 6(b)(2)     Information or Assistance Refused                                         96

     5(a)(6)                 Listing of Audit Reports                                             103-108

     5(a)(7)                 Summary of Significant Reports                                         21-93

     5(a)(8)                 Audit Reports—Questioned Costs                                           100

     5(a)(9)                 Audit Reports—Funds to Be Put to Better Use                              101

     5(a)(10)                Prior Audit Reports Unresolved                                        19, 96

     5(a)(11)                Significant Revised Management Decisions                              19, 96

     5(a)(12)                Significant Management Decisions with Which the OIG Disagreed             97

 The OIG is also required by section 804(b) of the Federal Financial Management Improvement Act of 1996
 to report on instances and reasons when an agency has not met the dates of its remediation plan. We
 discuss this matter on page 82.




                                                                                 Commerce OIG Semiannual Report
94                                                                                                 March 2000
                                                                                 Reporting Requirements


Section 4(a)(2): Review of
Legislation and Regulations

      This section requires the Inspector General of each agency to review
existing and proposed legislation and regulations relating to that agency’s
programs and operations. Based on that review, the Inspector General is
required to make recommendations in the semiannual report concerning
the impact of such legislation or regulations on the economy and effi-
ciency in the administration of programs and operations administered or
financed by the agency or on the prevention and detection of fraud and
abuse in those programs and operations. Our comments concerning
legislative and regulatory initiatives affecting Commerce programs are
discussed in appropriate sections of the report. For example, during this
semiannual period, we commented on S. 1993, the Government Informa-
tion Security Act (see page 89).

Section 5(a)(3): Prior Significant
Recommendations Unimplemented

      This section requires an identification of each significant recommen-
dation described in previous semiannual reports on which corrective action
has not been completed. Section 5(b) requires that the Secretary transmit
to the Congress statistical tables for audit reports for which no final action
has been taken, plus an explanation of the reasons final action has not
been taken on each such report, except when the management decision
was made within the preceding year.

      To include a list of all significant unimplemented recommendations
in this report would be duplicative, costly, unwieldy, and of limited value
to the Congress. Any list would have meaning only if explanations detailed
whether adequate progress is being made to implement each agreed-upon
corrective action. Also, as this semiannual report was being prepared,
management was in the process of updating the Department’s Audit
Tracking System as of March 31, 2000, based on semiannual status
reports due from the bureaus in mid-April. An accurate database was
therefore not available to the OIG for reference here. However, additional
information on the status of any audit recommendations may be obtained
through the OIG’s Office of Audits.




Commerce OIG Semiannual Report
March 2000
                                                                                                    95
Reporting Requirements


                         Sections 5(a)(5) and 6(b)(2): Information
                         or Assistance Refused

                               These sections require a summary of each report to the Secretary
                         when access, information, or assistance has been unreasonably refused or
                         not provided. There were no such instances during this semiannual period,
                         and no reports to the Secretary.

                         Section 5(a)(10): Prior Audit Reports Unresolved

                                This section requires a summary of each audit report issued before
                         the beginning of the reporting period for which no management decision
                         has been made by the end of the reporting period (including the date and
                         title of each such report), an explanation of the reasons such management
                         decision has not been made, and a statement concerning the desired
                         timetable for achieving a management decision on each such report.

                               As of March 31, 2000, two performance audits and two financial
                         assistance audits were in this category, as discussed below.

                         Performance Audits

                              The two NOAA unresolved reports address the bureau’s light aircraft
                         operations and NMFS’s laboratory structure. These reports are discussed
                         on page 63.

                         Financial Assistance Audits

                               The unresolved audits relate to two financial assistance awards made
                         by EDA. We did not agree with EDA’s response to one of the final reports
                         and are reviewing its revised audit resolution proposal. On the second
                         report, EDA has requested clarifying information from the grantee. Addi-
                         tional details are presented on page 29.

                         Section 5(a)(11): Significant Revised
                         Management Decisions

                               This section requires an explanation of the reasons for any significant
                         revised management decision made during the reporting period. Depart-
                         ment Administrative Order 213-5, Audit Resolution and Follow-up,
                         provides procedures for revision of a management decision. For perfor-
                         mance audits, the OIG must be consulted and must approve, in advance,


                                                                    Commerce OIG Semiannual Report
96                                                                                    March 2000
                                                                                 Reporting Requirements


any modification to an audit action plan. For financial assistance audits, the
OIG must concur with any decision that would change the audit resolution
proposal in response to an appeal by the recipient.

      The decisions issued on the12 appeals of audit-related debts were
finalized with the full participation and concurrence of the OIG.

Section 5(a)(12): Significant Management
Decisions with Which the OIG Disagreed

     This section requires information concerning any significant manage-
ment decision with which the Inspector General is in disagreement.

      Department Administrative Order 213-5 provides procedures for the
elevation of unresolved audit recommendations to higher levels of Depart-
ment and OIG management, including an Audit Resolution Council. During
this period, no audit issues were referred to the Council.




Commerce OIG Semiannual Report
March 2000
                                                                                                     97
                            Statistical Highlights

                              Audit
                     Statistical Highlights

 Questioned costs this period ...........................................           $1,590,855

 Value of recommendations agreed
 to this period by management .........................................             $1,586,583




                                                    Investigative
                                                Statistical Highlights
                        Arrests ............................................................................................. 1
                        Indictments and informations ............................................................. 3
                        Convictions ....................................................................................... 3
                        Personnel actions*............................................................................ 12
                        Fines, restitutions, judgments, and other civil
                        and administrative recoveries ................................................ $20,799
                         * Includes removals, suspensions, reprimands, demotions, and resignations or retirements in
                          lieu of adverse action.




                                                                         Allegations Processed
                                                                          by OIG Investigators
                                                                                  Accepted for investigation........................................ 22
                                                                                  Referred to operating units ...................................... 50
                                                                                  Evaluated but not accepted for
                                                                                  investigation or referral ............................................ 70
                                                                                  Total ........................................................................142
                                                                                  Note: Numerous other allegations and complaints were forwarded
                                                                                  to the appropriate federal and nonfederal investigative agencies.

                                                                                           OIG HOTLINE
                                                                 Telephone:             (202) 482-2495 or (800) 424-5197
                                                                 Internet E-Mail:       oighotline@doc.gov




                                                                                                                     Commerce OIG Semiannual Report
98                                                                                                                                      March 2000
               Tables and Appendixes


    TABLES                                                                                                          PAGE

   1. Audits with Questioned Costs                                                                                      100

   2. Audits with Recommendations That Funds Be Put to Better Use                                                       101


   APPENDIXES
   A. Office of Inspector General Reports                                                                               102

       A-1. Performance Audits                                                                                          103

       A-2. Inspections                                                                                                 104

       A-3. Financial Statements Audits                                                                                 105

       A-4. Financial Related Audits                                                                                    106

   B. Processed Reports                                                                                                 107

       B-1. Processed Financial Related Audits                                                                          108


   DEFINITIONS
   The term questioned cost refers to a cost that is questioned by the OIG because of (1) an alleged violation of a
   provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
   expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
   (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

   The term unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate documentation.
   Questioned costs include unsupported costs.

   The term recommendation that funds be put to better use refers to a recommendation by the OIG that funds could be
   used more efficiently if Commerce management took action to implement and complete the recommendation, including
   (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest subsidy costs
   on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended improvements
   related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in preaward
   reviews of contracts or grant agreements; or (6) any other savings that are specifically identified.

   The term management decision refers to management’s evaluation of the findings and recommendations included in
   the audit report and the issuance of a final decision by management concerning its response.




Commerce OIG Semiannual Report
March 2000
                                                                                                                              99
Tables and Appendixes



  Table 1: Audits with Questioned Costs
                                                                                             Questioned            Unsupported
  Report Category                                                          Number              Costs                  Costs

  A. Reports for which no management decision had been                         17               $2,038,460            $1,168,737
     made by the commencement of the reporting period

  B. Reports issued during the reporting period                                 9                1,590,855               121,960

  C. Total reports (A+B) requiring a management decision                       26                3,629,315             1,290,697
  C. during the reporting period

  C. Reports for which a management decision was made                          17                3,170,946               989,350
  C. during the reporting period

       i. Value of disallowed costs                                                              1,586,583               951,192

       ii. Value of costs not disallowed                                                         2,006,966               298,234

  D. Reports for which no management decision had been                          9                 $458,369              $301,347
  D. made by the end of the reporting period

      Notes and Explanations:

      In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater than the
      original recommendations.

      In Category C, line i contains one report that had disallowed costs identified during the resolution process.




                                                                                                   Commerce OIG Semiannual Report
100                                                                                                                   March 2000
                                                                                       Tables and Appendixes



   Table 2: Audits with Recommendations
            That Funds Be Put to Better Use
   Report Category                                                                         Number                 Value

   A. Reports for which no management decision had been made by the .                           3             $18,631,904
      commencement of the reporting period

   B. Reports issued during the reporting period                                                —                        —

   C. Total reports (A+B) requiring a management decision during the B.                         3              18,631,904
      reporting period

   C. Reports for which a management decision was made during the C.                            1                  654,904
      reporting period

      i. Value of recommendations agreed to by management                                                                —

      ii. Value of recommendations not agreed to by management                                                     654,904

   D. Reports for which no management decision had been made by the                             2             $17,977,000
   D. end of the reporting period

    Notes and Explanations:

    In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater than
    the original recommendations.




Commerce OIG Semiannual Report
March 2000
                                                                                                                               101
Tables and Appendixes



  Appendix A. Office of Inspector General Reports
                               Type                  Number         Appendix

 Performance Audits                                     13             A-1

 Inspections                                            12             A-2

 Financial Statements Audits                            22             A-3

 Financial Related Audits                                6             A-4

 Total                                                  53




                                                    Commerce OIG Semiannual Report
102                                                                    March 2000
                                                                           Tables and Appendixes



   Appendix A-1. Performance Audits
   Agency                              Subject                                 Number         Date

     ESA       Atlanta Region Experienced Late Pay Problems for Census     ATL-11640-0-0001   12/99
               2000 Employees

               Accountable Property Used for the Decennial Census          ESD-11781-0-0001   03/00
               Needs Improved Controls; Bankcard Program Is Well
               Managed

     ITA       Market Development Cooperator Program Award Process         ATL-10999-0-0001   12/99
               Promotes Merit-Based Decisions, but Practices Need More
               Discipline, CFDA No. 11.112

    MBDA       Internal Controls over Bankcard Use Are Sound               BTD-12022-0-0001   12/99

    NOAA       Internal Controls over ERL’s Bankcard Program Need          DEN-11627-0-0001   10/99
               Improvement

               NOS’s Coastal Services Center Awards Were Not               ATL-11000-0-0001   03/00
               Competitively Selected, CFDA No. 11.473

               OAR’s Undersea Research Program Awards Were Not             ATL-11654-0-0001   03/00
               Competitively Selected, CFDA No. 11.430

               Internal Controls over Southeastern Fisheries Science       ATL-11860-0-0001   03/00
               Center Bankcard Purchases Need Improvement

               Internal Controls over User Fees Need Improvement           STD-11881-0-0001   03/00

               Opportunities Exist to Improve the Competitive Review       STL-10949-0-0001   03/00
               Practices of OAR’s Climate and Atmospheric Research
               Program, CFDA No. 11.431

     O/S       Additional Efforts Necessary to Strengthen Department’s     FSD-11882-0-0001   12/99
               Management of Its Delinquent Debt

   TA-NIST     External Reviewers Help with ATP Focused Program            STD-11113-0-0001   03/00
               Selection Process, but Key Steps in the Selection Process
               Were Not Documented

               ATP’s Management of Intramural Research Can Be              STD-11551-0-0001   03/00
               Strengthened




Commerce OIG Semiannual Report
March 2000
                                                                                                      103
Tables and Appendixes



  Appendix A-2. Inspections
  Agency                             Subject                              Number             Date

      BXA    BXA’s Year 2000 Preparations Are Effective, but              OSE-12551          12/99
             Additional Risk Mitigation Is Needed

             Improvements Are Needed in Programs Designed to              IPE-12454          03/00
             Protect Against the Transfer of Sensitive Technologies to
             Countries of Concern

      ESA    Year 2000 Preparations Were Effective, but Business          OSE-12200          02/00
             Continuity and Contingency Planning Needed
             Improvement

             PAMS/ADAMS Should Provide Adequate Support for the           OSE-11684          03/00
             Decennial Census, but Software Practices Need
             Improvement

      ITA    ITA Y2K Risk of Interrupted Operations Is Low, But Some      OSE-12550          12/99
             Improvements Needed in Day One Planning

             US&FCS Hong Kong Is a Strong Operation with Minor            IPE-11330          01/00
             Management Issues

             US&FCS Vietnam Is Fully Operational, but Some Areas          IPE-11798          03/00
             Need Improvement

             US&FCS France: Leadership in Post Management and             IPE-12428          03/00
             Administrative Matters Needs to Be Reestablished

      NOAA   NWS Y2K Risks Are Low and Agency Is Well Prepared            OSE-12313          12/99

      O/S    There Are Lessons to Be Learned from the October 1999        IPE-12453          03/00
             Fire and PCB Accident in the Herbert C. Hoover Building

      PTO    Year 2000 Business Continuity and Contingency Plan Is       OSE-11693(2)        12/99
             Comprehensive, but Additional Risk Mitigation Is Needed

       TA    NIST Needs to Reevaluate Plans to Support Its Ballistics     IPE-11923          03/00
             Testing Program




                                                                          Commerce OIG Semiannual Report
104                                                                                          March 2000
                                                                              Tables and Appendixes



    Appendix A-3. Financial Statements Audits
   Agency                                Subject                                    Number         Date

     BXA       Financial Statements for FY 1999                                 FSD-11883-0-0001   03/00

     EDA       Financial Statements for FY 1999                                 FSD-11885-0-0001   03/00

     ESA       Census Bureau’ s Financial Statements for FY 1999                FSD-11884-0-0001   03/00

               Improvements Needed in the General Controls Associated with      FSD-11884-0-0002   03/00
               Census Bureau Financial Management Systems

               Economics and Statistics Administration and Bureau of Economic   FSD-11886-0-0001   03/00
               Analysis’s Combined Financial Statements for FY 1999

     ITA       Financial Statements for FY 1999                                 FSD-11887-0-0001   03/00

    MBDA       Financial Statements for FY 1999                                 FSD-11888-0-0001   03/00

    NOAA       Financial Statements for FY 1999                                 FSD-11890-0-0001   03/00

               Improvements Needed in the General Controls Associated with      FSD-11890-0-0002   03/00
               NOAA’s Financial Management Systems

     NTIA      Financial Statements for FY 1999                                 FSD-11891-0-0001   03/00

     O/S       Improvements Needed in the General Controls at the Commerce      FSD-11846-0-0001   02/00
               Administrative Management System Support Center

               Department of Commerce’s FY 1999 Consolidated Financial          FSD-11911-0-0001   02/00
               Statements

               Improvements Needed in the General Controls Associated with      FSD-12196-0-0001   02/00
               the Office of Computer Services/Financial Accounting and
               Reporting System

               General Administration’s Working Capital Fund and Salaries and   FSD-11895-0-0001   03/00
               Expense Fund Financial Statements for FY 1999

               FY 1999 Federal Agencies’ Centralized Trial-Balance System       FSD-11911-0-0002   03/00
               Data Verification Agreed-Upon Procedures

     PTO       Financial Statements for FY 1999                                 FSD-11893-0-0001   03/00

               Follow-up Review of the General Controls Associated with the     FSD-11893-0-0002   02/00
               Revenue Accounting and Management System




Commerce OIG Semiannual Report
March 2000
                                                                                                           105
Tables and Appendixes



  Appendix A-3. Financial Statements Audits—Continued
  Agency                                                 Subject                                                       Number                           Date

       TA            NIST’s Financial Statements for FY 1999                                                    FSD-11889-0-0001                        03/00

                     Improvements Needed in the General Controls Associated with                                FSD-11889-0-0002                        03/00
                     NIST’s Financial Management Systems

                     NTIS’s Financial Statements for FY 1999                                                    FSD-11892-0-0001                        03/00

                     Improvements Needed in the General Controls Associated with                                FSD-11892-0-0002                        03/00
                     NTIS’s Financial Management Systems

                     TA’s Financial Statements for FY 1999                                                      FSD-11894-0-0001                        03/00




  Appendix A-4. Financial Related Audits
                                                                                                                   Questioned Unsupported
 Agency                            Auditee                                 Number                   Date             Costs       Costs

      EDA       Castle Joint Powers Agency, CA                        STL-12659-0-0001              03/00                      —                         —

                Quality Control Review of Daniel                      ATL-12073-0-0001              03/00                      —                         —
                Dennis & Company, LLP, for the Audit
                of the New England Trade Adjustment
                Assistance Center

      NOAA      Quality Control Review of Bollenback &                ATL-11936-0-0001              03/00                      —                         —
                Forret, P.A., for the Audit of the Gulf
                and South Atlantic Fisheries
                Development Foundation, Inc.

      NTIA      Northern Arapaho Tribe, Wind River                    DEN-10736-0-0001              02/00               $63,303                          —
                Reservation, WY

  TA-NIST       Quality Control Review of Mackie, Reid                DEN-12072-0-0001              03/00                      —                         —
                & Company, P.A., for the Audit of
                Industry Network Corporation

                West Virginia Manufacturing Extension                 DEN-12499-0-0001              03/00                      —                         —
                Partnership

  Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




                                                                                                                    Commerce OIG Semiannual Report
106                                                                                                                                    March 2000
                                                                             Tables and Appendixes



   Appendix B. Processed Reports

  The Office of Inspector General reviewed and accepted 181 financial-related audit reports prepared by independent
  public accountants and local, state, and other federal auditors. The reports processed with questioned costs,
  recommendations that funds be put to better use, and/or nonfinancial recommendations are listed in Appendix B-1.


                                      Agency                                                     Audits

   Economic Development Administration                                                              68

   International Trade Administration                                                                 1

   Minority Business Development Agency                                                               2

   National Institute of Standards and Technology                                                   49 *

   National Oceanic and Atmospheric Administration                                                  10

   National Telecommunications and Information Administration                                         8

   Multi-Agency                                                                                     17

   Agency Not Identified                                                                            26

   Total                                                                                           181

   * Includes 40 ATP program-specific audits.




Commerce OIG Semiannual Report
March 2000
                                                                                                                 107
Tables and Appendixes



  Appendix B-1. Processed Financial Related Audits

                                                                                                                Questioned Unsupported
 Agency                             Auditee                                 Number                 Date           Costs       Costs

      EDA         City of Charleston, SC                                ATL-9999-0-0123            01/00           $1,368,873                           —

                  Mercer County, MO                                     ATL-9999-0-0160            01/00                  8,476                  $8,476

                  World Trade Association of Florida, Inc.              ATL-9999-0-0228            03/00                 10,597                         —

                  Montachusett Regional Planning                        ATL-9999-0-0230            03/00                 26,122                         —
                  Commission, MA

      ITA         Garment Industry Development                          ATL-9999-0-0118            02/00                 12,266                  12,266
                  Corporation, NY

      NOAA        State of Alaska                                       ATL-9999-0-0101            01/00                  6,266                    6,266

                  Mount Washington Observatory, NH                      ATL-9999-0-0224            03/00                 42,302                  42,302

  TA-NIST         Hudson Valley Technology                              ATL-9999-0-0119            02/00                 52,650                  52,650
                  Development Center, NY

  Note: The questioned costs and unsupported costs include only the federal share of the total questioned and unsupported costs cited in the reports.




                                                                                                                  Commerce OIG Semiannual Report
108                                                                                                                                  March 2000
Definitions of Types of OIG Reviews
and Financial Statements Audit Terms


                                              OIG Reviews
  Audits                                                    Inspections
  Performance Audits — These audits look at the             Operational Inspections — These are reviews of
  efficiency, effectiveness, and economy of the             an activity, unit, or office, or a contractor or
  Department’s programs, activities, and information        organization that receives funds from the
  technology systems. They may check a unit’s               Department. They focus on an organization, not a
  compliance with laws and regulations, and evaluate        whole program, and are designed to give agency
  its success in achieving program objectives.              managers timely information about operations,
                                                            including current and foreseeable problems.
  Financial Related Audits — These audits review
  the Department’s contracts, grants, cooperative           Program Evaluations — These are in-depth
  agreements, loans, and loan guaranties. They assess       reviews of specific management issues, policies, or
  compliance with laws, regulations, and award terms;       programs.
  adequacy of accounting systems and internal con-
                                                            Systems Evaluations — These are reviews of
  trols; allowance of costs; and the degree to which a
                                                            system development, acquisitions, operations, and
  project achieved the intended results.
                                                            policy in order to improve efficiency and
  Financial Statements Audits — The CFO Act, as             effectiveness. They focus on Department-wide
  amended by Government Management Reform Act,              computer systems and other technologies and
  requires federal agencies to prepare annual financial     address all project phases, including business
  statements and to subject them to audit. The OIG is       process reengineering, system definition, system
  responsible for conducting these audits and reporting     development, deployment, operations, and
  the results to the Secretary.                             maintenance.


                      Financial Statements Audit Terms
  Overview — This required component of financial           Unqualified Opinion — The financial statements
  statements is to provide a clear, concise description     present fairly, in all material aspects, the entity’s
  of the entity’s programs, activities, and results. It     financial position and results of operations.
  contains the entity’s performance measures and
                                                            Qualified Opinion — Except for the effects of the
  serves as a link between the statements and the
                                                            matter(s) to which the qualification relates, the
  requirements of GPRA.
                                                            financial statements present fairly, in all material
  Trend Analysis — This analysis of performance             respects, the entity’s financial position and results of
  data from multiple years allows conclusions to be         operations.
  drawn about an entity’s progress over time in
                                                            Adverse Opinion — The financial statements do
  improving its results. To facilitate this analysis, the
                                                            not present fairly the entity’s financial position or
  entity should present data from several prior years,
                                                            results of operations.
  projected data for the following year, and a
  comparison of actual versus targeted performance.         Disclaimer of Opinion — The auditor does not
                                                            express an opinion on the financial statements.


Commerce OIG Semiannual Report
March 2000
                                                                                                                    109
                                                                   Glossary of Abbreviations

AFOS .......................................................................................................................... Automation of Field Operations and Services
ATP .....................................................................................................................................................Advanced Technology Program
AWIPS ............................................................................................................... Advanced Weather Interactive Processing System
BCCP ................................................................................................................................ business continuity and contingency plan
BEA ......................................................................................................................................................Bureau of Economic Analysis
BXA ................................................................................................................................................Bureau of Export Administration
CAMS ................................................................................................................... Commerce Administrative Management System
CFIUS ........................................................................................................ Committee on Foreign Investment in the United States
CFO .................................................................................................................................................................Chief Financial Officer
DCIA ..............................................................................................................................Debt Collection Improvement Act of 1996
EDA .....................................................................................................................................Economic Development Administration
ESA ................................................................................................................................... Economics and Statistics Administration
FARS ............................................................................................................................ Financial Accounting and Reporting System
FMS .................................................................................................................................................... Financial Management Service
GAO ......................................................................................................................................................... General Accounting Office
GPRA ..............................................................................................................................Government Performance and Results Act
GSA ................................................................................................................................................. General Services Administration
GWAC ........................................................................................................................................... government-wide agency contract
ICASS .................................................................................................... International Cooperative Administrative Support Service
IG .............................................................................................................................................................................. Inspector General
IPA ....................................................................................................................................................... independent public accounting
ITA ................................................................................................................................................ International Trade Administration
JFMIP ............................................................................................................. Joint Financial Management Improvement Program
LCO ........................................................................................................................................................................ local census office
MBDA ............................................................................................................................... Minority Business Development Agency
MDCP ............................................................................................................................ Market Development Cooperator Program
NIST ........................................................................................................................ National Institute of Standards and Technology
NMFS ........................................................................................................................................... National Marine Fisheries Service
NOAA ...............................................................................................................National Oceanic and Atmospheric Administration
NOS ................................................................................................................................................................ National Ocean Service
NTIA .............................................................................................. National Telecommunications and Information Administration
NTIS .....................................................................................................................................National Technical Information Service
NWS ............................................................................................................................................................ National Weather Service
OAR .......................................................................................................................... Office of Oceanic and Atmospheric Research
OIG .......................................................................................................................................................... Office of Inspector General
OIPE .......................................................................................................................................... Office of Initial Patent Examination
OMB ............................................................................................................................................ Office of Management and Budget
PADE ......................................................................................................................................................... PAMS/ADAMS Data Entry
PAMS/ADAMS ................................................................................................ Pre-Appointment Management System/Automated
                                                                                                                                 Decennial Administrative Management System
PBO ..................................................................................................................................................performance-based organization
PCBs .......................................................................................................................................................... polychlorinated biphenyls
PTO ........................................................................................................................................................ Patent and Trademark Office
RCC .................................................................................................................................................................. regional census center
SCO ......................................................................................................................................................... Senior Commercial Officer
TA ............................................................................................................................................................. Technology Administration
US&FCS ................................................................................................................................ U.S. and Foreign Commercial Service
WCF .................................................................................................................................................................. Working Capital Fund
Y2K ....................................................................................................................................................................................... year 2000


                                                                                                                                             Commerce OIG Semiannual Report
110                                                                                                                                                             March 2000
                                Office of Inspector General
                                    Organization Chart

                                                                       Inspector
               Office of                                                General
            Compliance and                                                                                                    Office of
            Administration                                             Deputy                                                 Counsel
                                                                  Inspector General

              Office of
                                                                                                                            Office of
          Inspections and
                                                                                                                       Systems Evaluation
        Program Evaluations



                              Office of                                                                           Office of
                               Audits                                                                          Investigations



Headquarters           Financial Statements               Regional                   Financial Fraud                Investigative           Investigative
   Audits                     Audits                       Audits                         Unit                       Operations               Services




                                                  OIG Points of Contact
Inspector General .....................................(202) 482-4661          Office of Counsel ......................................(202) 482-5992
Congressional/PCIE Liaison.....................(202) 482-3052                  Office of Inspections and Program Eval. ..(202) 482-2754
Office of Audits .........................................(202) 482-1934       Office of Investigations .............................(202) 482-0934
Office of Compliance and Admin. .............(202) 482-0231                    Office of Systems Evaluation ...................(202) 482-6186
                                           TDD Number .................................... (202) 482-4948
                                           Media Inquiries .................................. (202) 482-5992
                                           REQUESTS FOR REPORTS:
                                           Telephone .......................................... (202) 482-0231
                                           Internet E-Mail ................................... oigreports@doc.gov
                                           OIG HOTLINE:
                                           Telephone .......................................... (202) 482-2495 or (800) 424-5197
                                           Internet E-Mail ................................... oighotline@doc.gov

                                                          OIG Internet Home Page
                                                http://www.oig.doc.gov
